<html>
<title> - UNITED NATIONS REFORM</title>
<body><pre>[Senate Hearing 109-356]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-356

                         UNITED NATIONS REFORM

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                             JULY 21, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html






                     U.S. GOVERNMENT PRINTING OFFICE
26-961 PDF                 WASHINGTON : 2006
_______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    22
Burns, Hon. R. Nicholas, Under Secretary for Political Affairs, 
  Department of State, Washington, DC............................    47
    Prepared statement...........................................    50
Coleman, Hon. Norm, U.S. Senator from Minnesota..................     3
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    43
Gingrich, Hon. Newt, cochairman, Task Force on the United 
  Nations, U.S. Institute of Peace, Washington, DC...............    10
    Prepared statement...........................................    14
    An Example of a U.N. Reform Scorecard........................    67
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Mitchell, Hon. George, cochairman, Task Force on the United 
  Nations, U.S. Institute of Peace, Washington, DC...............     5
    Prepared statement...........................................     8
Voinovich, George V., U.S. Senator from Ohio, prepared statement.    66

              Additional Material Submitted for the Record

Kofi, Annan, U.N. Secretary General:
    Statement to the General Assembly of the United Nations......    81
    Report to the U.N. Human Rights Council......................    83
    Executive Summary on the ``In Larger Freedom'' Report........    87
News Release from the U.S. Institute of Peace....................    91
Task Force on the United Nations.................................    92
Task Force on the United Nations: Working Groups.................    92

                                 (iii)

  

 
                         UNITED NATIONS REFORM

                              ----------                              


                         MONDAY, JULY 21, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                     Washington DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman) presiding.
    Present: Senators Lugar, Biden, Hagel, Sarbanes, Chafee, 
Dodd, Coleman, Voinovich, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. The world has just marked the 60th 
anniversary of the founding of the United Nations. In that 
time, the organization has accomplished much worth celebrating, 
not least its role in helping to prevent a repeat of the 
calamitous world conflict that brought about the U.N.'s 
creation. But unfortunately, the U.N.'s anniversary has been 
overshadowed by a series of setbacks that have raised questions 
about its ability to live up to its founders' intentions.
    During the Oil-for-Food scandal, billions of dollars that 
should have been spent on humanitarian needs in Iraq were 
instead siphoned off by Saddam Hussein's regime through a 
system of surcharges, bribes, and kickbacks. This corruption 
depended upon members of the U.N. Security Council who were 
complicit in these activities. It also depended on U.N. 
officials and contractors who were dishonest, inattentive, or 
willing to make damaging compromises in pursuit of a 
compassionate mission.
    The capabilities possessed by the United Nations depend 
heavily on maintaining the credibility associated with 
countries acting together in a well-established forum with 
well-established rules. Profiteering, mismanagement, and 
bureaucratic stonewalling squander this precious resource. At a 
time when the United States is appealing for greater 
international help in Iraq, Afghanistan, and in trouble spots 
around the world, a diminishment of U.N. credibility reduces 
U.S. options and increases our own burdens.
    The Foreign Relations Committee held the first 
congressional hearing on the U.N.'s Oil-for-Food scandal a year 
ago last April. Since that time, through the efforts of Paul 
Volcker, Senator Norm Coleman, and many others, we have learned 
much more about the extent of the corruption and mismanagement 
involved. Senator Coleman's work as a member of the Senate 
Foreign Relations Committee and as the chairman of the Homeland 
Security and Governmental Affairs Permanent Subcommittee on 
Investigations has provided the Senate with extensive knowledge 
of what went wrong in the Oil-for-Food Program.
    During the last several weeks, Senator Coleman and I have 
combined efforts to offer the Senate a comprehensive reform 
bill that we believe would greatly improve the ability of the 
United Nations to be an effective institution in this century. 
I would like to thank staff on the Foreign Relations Committee 
and on the Permanent Subcommittee on Investigations who 
collaborated for many hours as we finalized the Coleman-Lugar 
U.N. reform bill.
    We began with the presumptions that the United Nations 
needs more focused oversight, better whistleblower protection, 
greater transparency in its procurement and financial dealings, 
and better management of its personnel. It also needs to reform 
two functions vital to international peace and security: 
Peacekeeping and human rights protection. Achieving these and 
other reforms will require a significant shift in the culture 
of consensus that often results in gridlock at the United 
Nations and has thwarted previous attempts at reform.
    Our legislation provides President Bush with the 
flexibility and tools he needs to achieve the objective of a 
reformed United Nations. Should the President believe that, in 
spite of his best efforts, the other member states of the 
United Nations do not share our conviction regarding these 
reforms, our bill grants him authority to withhold up to 50 
percent of our U.N. dues until such time as reform has taken 
hold.
    Other Members of Congress, including members of this 
committee, also have spent substantial time considering what 
the United States should do to achieve reform at the United 
Nations. The House of Representatives has already voted for a 
bill that would require the President to withhold U.S. 
contributions to the United Nations by 50 percent, if certain 
conditions are not met. Some Senators have voiced support for 
this approach, but I believe that a rigid formula that removes 
decisionmaking and flexibility from the President is a mistake. 
The drive for reform at the United Nations is not going to 
occur in a national security vacuum. We will continue to have 
national security interests that are affected by U.N. agencies 
and U.N. deliberations. Without narrowing the President's 
options, the Coleman-Lugar legislation allows the President to 
make tactical judgments in the national security interest about 
how to apply leverage and about what methods to use in pursuing 
reform.
    On the other side of the equation, some Senators may oppose 
the Coleman-Lugar bill because it does allow the President to 
cut U.S. contributions to the United Nations by up to 50 
percent. Senators may contend that the U.S. contribution should 
be predictable and off the table in negotiations on reform. But 
U.N. reform is urgent and is most likely to happen if 
Presidential initiatives are backed up by a full range of 
options, including withholding funds.
    The diminishment of U.N. credibility from corruption in the 
Oil-for-Food Program and other scandals related to peacekeeping 
troops and the Human Rights Commission is harmful to U.S. 
efforts aimed at coordinating a stronger global response to 
terrorism, the AIDS crisis, nuclear proliferation, and many 
other international problems. Congress, motivated in large part 
by these matters and the unwillingness of the Security Council 
to address appropriately the genocide taking place in Darfur, 
commissioned an important study on U.N. reform through the 
United States Institute of Peace. That study was ably chaired 
by the distinguished members of our first panel: Former Speaker 
of the House Newt Gingrich and former Senate Majority Leader 
George Mitchell. We are pleased to have the benefit of their 
counsel today. I would strongly encourage my colleagues to read 
the bipartisan report that resulted from their efforts, 
entitled, ``American Interests and U.N. Reform.'' It puts 
forward excellent recommendations for change that could help 
the United Nations to regain public confidence and improve its 
capability to serve peace and prosperity around the world. 
Senator Coleman and I relied heavily on these recommendations 
as we constructed our bill.

    [Editor's note.--``American Interests and U.N. Reform,'' 
the report of the Task Force of the United Nations was too 
large to include in this hearing. It will be maintained in the 
permanent record of the hearing or can be accessed at the USIP 
Web site: http://www.usip.org/un/report/index.html.]

    In addition to our first panel, we are very fortunate to be 
joined by Nicholas Burns, the State Department's Under 
Secretary of State for Political Affairs. Secretary Burns has 
been a good friend to this committee, and he speaks to us today 
as one of Secretary Rice's key advisors on U.N. reform issues.
    The United Nations' ability to organize burden-sharing and 
take over missions best handled by the international community 
is critical to the long-term success of U.S. foreign policy. 
Americans cannot afford to approach the United Nations purely 
out of unilateral frustration. Rather, we have to show resolute 
leadership that will drive reform toward a constructive outcome 
that will reinvigorate the United Nations. In this process, we 
must do more than just negotiate for reform. We must also 
explain why these reforms are necessary and how they will help 
the world community. If we can create international momentum, 
we have a unique opportunity to achieve an objective that has 
long been sought by both critics and friends of the United 
Nations.
    We look forward to hearing our witnesses and before 
recognizing the first panel, I turn to my distinguished 
colleague, Senator Coleman, for an opening comment.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you Mr. Chairman; just briefly. 
First I want to begin by thanking you for holding this very 
important hearing and for working so closely with me, to 
develop a legislation we introduced 2 weeks ago, the United 
Nations Management Personnel and Policy Reform Act of 2005, S. 
1383.
    It's been my pleasure to work with you, Mr. Chairman, and 
your staff, and to draw upon your many, many years of expertise 
on these matters. Your leadership on this and so many other 
critical international issues is greatly appreciated by all. I 
also want to express my appreciation to Speaker Gingrich and 
Senator Mitchell for the comprehensive report they have 
produced. Which in many ways is a template--we have used as a 
template--very openly for the legislation that we developed. 
There's a lot of work that went into this, and we thought we 
got good work product out of that. We don't agree with 
everything, and there may be some things that you didn't 
address as fully as we'd like to, but it has really served as 
a--I think an excellent template for Senator Lugar and myself 
as we drafted our legislation.
    This is a good report. It represents a rare bipartisan 
assessment of the real imperative for U.N. Reform, and it's 
been extremely valuable. It has made an extremely valuable 
contribution to the debate on U.N. Reform, and so for that we 
thank you and the folks who work with you.
    As chairman of the Permanent Subcommittee Investigations, I 
have conducted a thorough investigation of the corruption for 
the Oil-For-Food scandal, and the management failures of the 
United Nations that allowed this scandal to take place. While 
the finding as my 16-month Oil-For-Food investigation have 
underscored the U.N. severe loss of credibility, on the 
positive side I hope that they have served to generate helpful 
momentum for reform that will be necessary for any meaningful 
changes to be implemented, we need reform to take place. 
America cannot be the world's sole policeman, it cannot be the 
almost principal provider of humanitarian aid. We will continue 
to do those things, but it is helpful for America to have a 
workable, credible, transparent, United Nations.
    And I would note, Mr. Chairman, just yesterday I had an 
opportunity to visit with Chris Burnham who's now the Under 
Secretary General looking at management operations at the 
United Nations. I can tell you that the message has been heard. 
Whether folks can deliver on the message is going to be the 
question. The message from this report, the message from--Mr. 
Chairman, from your work that you have done, and the work we've 
done in our bill has been heard. The challenge is, can it be 
transformed into action.
    I think the task at hand is capitalize on this unique 
consensus and push for change that will make the United Nations 
a suitable vehicle for facing the world's most daunting 
challenges. And I look forward to the debate and, hopefully, I 
look forward to real reform happening.
    The Chairman. Thank you very much, Senator Coleman. And now 
I turn to our first panel. We are indeed fortunate to have two 
great friends, and two statesmen, who have meant so much to 
American governance in our House of Representatives, and the 
U.S. Senate. I'll recognize first of all, the Honorable Newt 
Gingrich, cochairman of the Task Force on the United Nations 
for the U.S. Institute for Peace. And then second, the 
Honorable George Mitchell, cochairman of that same task force.
    And let me say gentlemen, we really do want to hear from 
you, and your statements will be placed in the record in full. 
Please give us the benefit of your wisdom. That will be true of 
Secretary Burns later on. This is not a meeting meant to 
restrict people to 5 minutes, it's to hear how you came to your 
conclusions and the support for your report.
    Speaker Gingrich.
    Mr. Gingrich. Actually, if I might, Mr. Chairman, we've 
agreed that Speaker represents a rather a different part of the 
legislative branch, that in this side of the building it would 
be far better if Senator Mitchell led off.
    The Chairman. Well, a very gracious thought. And it is a 
delight to recognize the majority leader, Senator Mitchell.

 STATEMENT OF HON. GEORGE MITCHELL, COCHAIRMAN, TASK FORCE ON 
  THE UNITED NATIONS, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Senator Mitchell. Mr. Chairman, thank you very much. When 
we appeared before the House committee I told them that, within 
minutes after I was elected majority leader of the Senate, I 
was informed by the then-Speaker of the House, that the 
position of Speaker is established in the Constitution but the 
position of Senate majority leader is not in the Constitution 
or any law. The implication was clear, and since then I have 
deferred to Speakers, present and past, and I found it to be a 
very wise and useful thing to do. So I'm grateful to the 
Speaker for yielding to me here.
    Mr. Chairman, and members of the committee, it's a great 
honor for me to join you, many of my former colleagues in the 
Senate, to present the report of the Task Force on the United 
Nations. I commend you, Mr. Chairman, Senator Coleman, and 
others who have been active in this area, and encourage you to 
continue in your leadership on this issue.
    It's a special pleasure for me to be doing this with my 
friend and cochair, Speaker Gingrich. We worked closely 
together over a period of several months, along with the other 
members of the task force, and many supporting experts, we have 
done so in good faith and in a spirit of bipartisanship.
    I particularly thank the Speaker for his outstanding 
leadership, and his cooperation in this effort.
    It was just over 7 months ago, at a time of critical 
importance for the United Nations, that Congress authorized the 
creation of a bipartisan task force to study and report on how 
effective the United Nations is in meeting the goals of its 
charter. In a very compressed timeframe, task force members and 
experts have produced what we believe to be a comprehensive 
report.
    It is based on fact-finding missions by task force members, 
including visits to peacekeeping operations and humanitarian 
missions in the field, and meetings with U.N. leaders and 
others in Geneva and New York. The full task force met in 
plenary session for two all-day meetings here in Washington.
    The experts who worked with task force members represent 
great breadth and depth of knowledge, reflecting the fact that 
they come from six of the Nation's leading public policy 
organizations. I would especially like to acknowledge and thank 
Lee Feinstein of the Council on Foreign Relations and William 
Sanders of the American Enterprise Institute for their 
knowledge of this subject and substantive contributions to this 
report. I also want to thank Dick Solomon, Gary Matthews, and 
Heather Sensibaugh of the U.S. Institute for Peace; they are 
present here today as is Rod Hills, one of the valuable and 
contributing members of the task force.
    Mr. Chairman. We welcome these distinguished Americans.
    Senator Mitchell. Thank you, Mr. Chairman. As the report 
explicitly states, this is a consensus document. Twelve 
experienced, knowledgeable citizens inquired, debated, 
discussed. We agreed on most of the issues, but not all. 
Obviously, each member has the right to express his or her 
individual views, beyond what is set forth in the report.
    We have come together to do what we can to help the United 
Nations realize more fully the aims of its charter. Our mandate 
was to recommend an actionable agenda for U.N. reform. We were 
asked to address this subject solely from an American 
perspective, and we have done so.
    We do not presume to speak for or to other people, but we 
believe that the conclusions we've reached will be similar to 
conclusions they reach. We have carried out this mandate in the 
firm belief that an effective United Nations is in American 
interests and, indeed, that is the first and most fundamental 
conclusion of our task force.
    Americans have always hoped and wanted the United Nations 
to play a major role in the pursuit of a better world. Yet, 
recent events have challenged the United Nations and its 
members, including the United States, to adapt to dramatically 
different demands: The problem of failed states, catastrophic 
terrorism, the need for effective action to prevent genocide, 
and the promotion of democracy and the rule of law.
    The task force concluded that reform is necessary on two 
levels. The first is institutional change, without which other 
reforms will be much more difficult to implement. Institutional 
reform is not a favor to the United States; it is vital to the 
continued integrity and vitality of the United Nations itself.
    The task force notes that it undertook this effort at a 
time of growing consensus on the imperative for reform at the 
United Nations, and in light of important reports on reform by 
the High-Level Panel on Threats, Challenges, and Change, and 
the Secretary General's own report, ``In Larger Freedom.'' The 
task force found that management systems common in other public 
and private institutions were lacking in a number of U.N. 
agencies and bodies we reviewed.

[Editor's note.--The report by U.N. Secretary General Kofi 
Annan, ``In Larger Freedom,'' was too large to include in this 
hearing. It can be viewed at the U.N. Web site: http://
www.un.org/largerfreedom/contents.html.]

    We recommended a reform program that includes a number of 
elements. Among these are: An authoritative Independent 
Oversight Board that will have all the authority of an 
independent audit committee; empowerment of the Secretary 
General to replace top officials and the creation of an 
effective chief operating officer and modern personnel system; 
effective whistleblower protection, and ethics and disclosure 
standards for top officials, and, very importantly, 
transparency in all operations; sunset provisions for all 
programs and activities mandated by the General Assembly; and 
identification of operational programs that should be funded 
entirely by voluntary contributions.
    With respect to peacekeeping, the task force reviewed the 
disturbing allegations of sexual exploitation and abuse by U.N. 
peacekeepers in the Congo and elsewhere. We recommended 
immediate implementation of a policy of zero tolerance, better 
training, and other disciplinary and preventive measures.
    We also recommended that the Department of Peacekeeping 
Operations become a more independent program with distinct 
rules and regulations appropriate for its operational 
responsibility for comprehensive peacekeeping missions.
    The second kind of reform is operational. Nowhere is this 
more important than in crafting an effective strategy and 
identifying specific measures to improve the U.N.'s capacity to 
stop genocide, mass killings, and human rights violations, 
including immediate action on Darfur.
    On Darfur, the task force recommended a series of immediate 
initiatives, for the United States, the United Nations, and 
others to assist the African Union in stopping the killing. Our 
recommendations include assembling a package of assistance for 
the African Union; authorization and establishment of a no-fly 
zone over Darfur; and a new Security Council resolution that 
provides a strong mandate, backed up by the forces adequate to 
the mission.
    The task force also discussed genocide prevention more 
generally. One of the task force's most important conclusions, 
I believe, is its affirmation of every government's 
responsibility to protect its citizens and those within its 
jurisdiction from genocide, mass killing, and massive and 
sustained human rights violations.
    We recommend that the U.S. Government call on the Security 
Council and General Assembly to affirm this responsibility.
    The task force further agreed that in certain 
circumstances, and I quote from the report ``a government's 
abnegation of its responsibilities to its own people is so 
severe that the collective responsibility of nations to take 
action cannot be denied. The United Nations Security Council 
can and should act in such cases. In the event the Security 
Council fails to act, its failure must not be used as an excuse 
by concerned members to avoid protective measures.''
    We also recommended that the Commission on Human Rights be 
replaced. Its reputation has suffered badly, its performance 
has been disastrous. It should be replaced by a new Human 
Rights Council, ideally composed of democracies--a proposal 
consonant with the Secretary General's own conclusions.
    The task force devoted considerable energy and attention to 
the critical issue of development. Addressing the needs of the 
developing world is not icing on the cake. It is a key 
challenge for how 1 billion people in rich nations will share 
the planet with over 5 billion in poor countries.
    The task force agreed on the importance of greatly 
increased support for the effort to bring developing nations 
out of poverty as a global priority, including government-to-
government assistance, and, we emphasize, private investment, 
including the legal, political, and economic infrastructure 
that will allow such aid to be effective and investment to 
flourish.
    The task force did not reach agreement on the details of 
any Security Council expansion. It did conclude, however, that 
any such expansion should enhance the effectiveness of the 
Security Council and not in any way detract from the Council's 
efficiency and ability to act in accordance with the charter. 
Task force members have differing views on this question and 
they are, of course, free to express them.
    Speaking personally, I believe the United States should 
support expansion of the Security Council, with the aim of 
improving the Council's ability to carry out its key security 
and development functions--by which I mean more support for 
development and more capacity for peacekeeping operations. The 
task force discussed, and I support, an expansion with no new 
veto powers and no new permanent members, and with the 
possibility of some longer and consecutive terms. This is 
similar to one of the proposals advanced by the high-level 
panel.
    Let me conclude with a few general points. Our task force 
agreed that reform is both desirable and feasible. But it can 
be accomplished only with the concerted leadership of the 
United States, working with the growing ranks of the world's 
democracies.
    A successful U.S. effort will also require bipartisanship 
here in our own country. I believe the work of the task force, 
and the wide range of views it represents, is itself a 
demonstration of what is possible when people of differing 
views come together in good faith to chart a course for the 
common benefit of the Nation.
    Let me close again by thanking the chairman, Senator Biden, 
and all the members of the committee. I commend you, Mr. 
Chairman, for your years of service and leadership and, 
especially, the bipartisanship this committee has demonstrated 
despite the many challenges you face.
    I am now pleased to yield to my friend and colleague, 
Speaker Gingrich.
    [The prepared statement of Senator Mitchell follows:]

 Prepared Statement of Hon. George Mitchell, Cochairman, Task Force on 
      the United Nations, U.S. Institute of Peace, Washington, DC

    Chairman Lugar, Senator Biden, distinguished members of the 
committee, it is an honor to join my former colleagues in the Senate to 
present the report of the Task Force on the United Nations.
    It is a particular pleasure to be doing this with my friend and 
cochair, Newt Gingrich. We have worked closely together over a period 
of 6 months, along with the other members of the task force, and we 
have done so in good faith and in a spirit of bipartisanship.
    Just over 7 months ago, at a time of critical importance for the 
United Nations, Congress authorized the creation of a bipartisan task 
force to study how effective the United Nations was meeting the goals 
of its charter.
    In a very compressed timeframe, task force members and experts have 
produced a very comprehensive report.
    The report is based on factfinding missions by task force members, 
including visits to peacekeeping operations and humanitarian missions 
in the field, and meetings with the U.N. leadership in Geneva and New 
York. The full task force also met in plenary session for two all-day 
sessions in Washington.
    The experts who worked with task force members represent great 
breadth and depth of knowledge, reflecting the fact that they come from 
six of the Nation's leading public organizations: the American 
Enterprise Institute, the Brookings Institution, the Center for 
Strategic and International Studies, the Council on Foreign Relations, 
the Heritage Foundation, and the Hoover Institution. I would especially 
like to acknowledge and thank Lee Feinstein of the Council on Foreign 
Relations and William Sanders of the American Enterprise Institute for 
their knowledge of this subject and substantive contributions to this 
report.
    As the report states, this is a consensus document. Twelve 
experienced, knowledgeable citizens inquired, debated, discussed. We 
agreed on most of the issues but not all. Obviously, each member has 
the right to express his or her individual views, beyond what is not 
set forth in the report.
    We have come together to do what we can to help the United Nations 
realize more fully the aims of its charter. Our mandate was to 
recommend an actionable agenda for U.N. reform.
    We were asked to address this subject solely from an American 
perspective, and we have done so.
    We have carried out this mandate in the firm belief that an 
effective United Nations is in American interests and indeed that is 
the first and most fundamental conclusion of our task force.
    Americans have always hoped and wanted the United Nations to play a 
major role in the pursuit of a better world.
    Yet, recent events have challenged the United Nations and its 
members, including the United States, to adapt to dramatically 
different demands: The problem of failed states, catastrophic 
terrorism, the need for effective action to prevent genocide, and the 
promotion of democracy and the rule of law.
    The task force concluded that reform is necessary on two levels. 
The first is institutional change, without which other reforms will be 
much more difficult to implement. Institutional reform is not a favor 
to the United States; it is vital to the continued integrity and 
vitality of the United Nations itself.
    In this regard, the task force notes that it undertakes this effort 
at a time of growing consensus on the imperative for reform at the 
United Nations, and in light of important reports on reform by the 
High-Level Panel on Threats, Challenges, and Change, and the Secretary 
General's own report, ``In Larger Freedom.''
    The task force found that management systems that are common in 
other public and private institutions were lacking in a number of U.N. 
agencies and bodies we reviewed.
    We recommended a reform program that includes a number of elements. 
Among these are:

  <bullet> An authoritative Independent Oversight Board that will have 
        all the authority of an independent audit committee;
  <bullet> Empowerment of the Secretary General to replace top 
        officials and the creation of an effective Chief Operating 
        Officer and modern personnel system;
  <bullet> Effective whistleblower protection, and ethics and 
        disclosure standards for top officials, and transparency.
  <bullet> Sunset provisions for all programs and activities mandated 
        by the General Assembly; and
  <bullet> Identification of operational programs that should be funded 
        entirely by voluntary contributions.

    With respect to peacekeeping, the task force reviewed the 
disturbing allegations of sexual exploitation and abuse by U.N. 
peacekeepers in the Congo and elsewhere. We recommended immediate 
implementation of a policy of zero tolerance, better training, and 
other disciplinary and preventive measures.
    We also recommended that the Department of Peacekeeping Operations 
(DPKO) become a more independent program with distinct rules and 
regulations appropriate for its operational responsibility for 
comprehensive peacekeeping missions.
    The second kind of reform is operational. Nowhere is this more 
important than in crafting an effective strategy and identifying 
specific measures to improve the U.N.'s capacity to stop genocide, mass 
killings, and human rights violations, including immediate action on 
Darfur.
    On Darfur, the task force recommended a series of immediate 
initiatives for the United States, the United Nations, and others to 
assist the African Union in stopping the killing. Our recommendations 
include assembling a package of assistance for the African Union; 
authorization and establishment of a no-fly zone over Darfur; and a new 
Security Council resolution that provides a strong mandate, backed up 
by the forces adequate to the mission.
    The task force also discussed genocide prevention more generally. 
One of the task force's most important conclusions, I believe, is its 
affirmation of every government's responsibility to protect its 
citizens and those within its jurisdiction from genocide, mass killing, 
and massive and sustained human rights violations.
    We recommend that the U.S. Government call on the Security Council 
and General Assembly to affirm this responsibility.
    The task force further agreed that in certain circumstances, ``a 
government's abnegation of its responsibilities to its own people is so 
severe that the collective responsibility of nations to take action 
cannot be denied. The United Nations Security Council can and should 
act in such cases. In the event the Security Council fails to act, its 
failure must not be used as an excuse by concerned members to avoid 
protective measures.''
    We also made recommendations to replace the Commission on Human 
Rights, whose reputation has suffered badly, with a new Human Rights 
Council, ideally comprised of democracies--a proposal consonant with 
the Secretary General's own conclusions.

                              DEVELOPMENT
    The task force devoted considerable energy and attention to the 
critical issue of development. Addressing the needs of the developing 
world is not icing on the cake. It is a key challenge for how 1 billion 
people in rich nations will share the planet with over 5 billion in 
poor countries.
    The task force agreed on the importance of greatly increased 
support for the effort to bring developing nations out of poverty as a 
global priority, including government-to-government assistance, and 
private investment, including the legal, political, and economic 
infrastructure that will allow such aid and investment to flourish.

                       SECURITY COUNCIL EXPANSION
    The task force did not reach agreement on the details of any 
Security Council expansion.
    It did conclude, however, that any such expansion should enhance 
the effectiveness of the Security Council and not in any way detract 
from the Council's efficiency and ability to act in accordance with the 
charter.
    Task force members have differing views on this question and they 
are, of course, free to express them.
    Speaking personally, I believe the United States should support 
expansion of the Security Council, with the aim of improving the 
Council's ability to carry out its key security and development 
functions--by which I mean more support for development and more 
capacity for peacekeeping operations. The task force discussed, and I 
support, an expansion with no new veto powers and no new permanent 
members, and with the possibility of some longer and consecutive terms. 
This is similar to one of the proposals advanced by the high-level 
panel.

                       REFORM REQUIRES LEADERSHIP
    Let me conclude with a few general points. Our task force agreed 
that reform is both desirable and feasible. But it can be accomplished 
only with the concerted leadership of the United States, working with 
the growing ranks of the world's democracies.
    A successful U.S. effort will also require bipartisanship at home.
    I believe the work of the task force, and the wide range of views 
it represents, is itself a demonstration of what is possible when 
people of differing views come together in good faith to chart a course 
for the common benefit of the nation.
    Let me close again by thanking the chairman, the ranking member, 
and the entire committee. I commend your years of service and 
leadership and, especially, the bipartisanship this committee has 
demonstrated despite the many challenges you face.

    The Chairman. Well, thank you very much, Senator Mitchell, 
and it's a pleasure now to welcome Speaker Gingrich. Let me 
mention, as a bit of housekeeping, that it's probable that a 
rolecall vote will soon be called on the Senate floor. My 
thought would be that we would have the statement of Mr. 
Gingrich, and then we will see whether it is feasible to 
commence the questioning, or whether we should take a short 
recess while members vote so that we can all hear the questions 
and answers.
    Speaker Gingrich.

STATEMENT OF HON. NEWT GINGRICH, COCHAIRMAN, TASK FORCE ON THE 
    UNITED NATIONS, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Mr. Gingrich. Well, thank you, Mr. Chairman, and I do want 
to thank you and the committee for having us here today, and I 
want to also commend both you and Senator Coleman for the 
leadership each of you has shown in tackling these questions. 
I'm going to try to be directly responsive to your earlier 
injunction. I have submitted for the record a statement. And I 
join Senator Mitchell in thanking all of the leadership of the 
U.S. Institute of Peace. And, in addition, thanking Lee 
Feinstein, and Commander Bill Sanders, and also I'd like to add 
Vince Haley. They've done immense work to make this possible. 
And I also want to commend the members of the task force. When 
we were first gathered together initially at Chairman Frank 
Wolfe's recommendation. I think it's been the quality of the 
investment by individuals on the task force that made our work 
possible.
    Finally, I want to note the importance of your committee 
and this hearing, on the fact Under Secretary Burns is here and 
I reviewed his testimony and am very gratified by the degree 
which the administration is taking seriously our work. I want 
to, in a sense, work backward. We have a number of major 
conclusions, but I want to start with the one that I know you 
find the most perplexing, as I did when I was in the House. And 
that is, what is the legislative branch's legitimate interest 
and how does it gain--exercise leverage over the executive 
branch in our very complicated constitutional system. I raise 
that because I think there are significant questions about how 
do we monitor and encourage the executive branch to place 
priorities that may be different than it would reach on it's 
own. That's part of the constitutional tension we have.
    I would only make two observations about that in the 
beginning and that is, first, that we have a rare opportunity 
over the next few years to make reform of the United Nations a 
continuing project. While the September meeting is important 
and we'll get a fair amount done in September, I don't believe 
we can actually expect to have a truly reformed United Nations, 
unless the United States shows a consistency of commitment, a 
level of working with the other democracies, and a seriousness 
of purpose which, all too often, has been lacking because the 
United States has many interests and has many concerns. And, 
somehow, things as mundane as reforming the U.N. personnel 
system kind of drift away until the next scandal shows up, and 
then we go back and decry it, and we're back in the same cycle.
    I do think there is a middle ground between compulsory 
withholding of U.S. dues and automatically accepting whatever 
happens in New York or Geneva, and I would commend this 
committee, as you've already begun with the Lugar-Coleman bill, 
to look for common ground which, frankly, should be one I would 
hope that would make the executive branch a little 
uncomfortable by requiring a level of annual reporting and a 
level of certification in order to get the money. And I would 
also remind the executive branch that the Congress always has 
the legitimate right, every year, to reconsider appropriate 
appropriation levels. And I say that because I think the U.N. 
bureaucracy and the 120-some countries who collectively pay 
less than 1 percent of all U.N. dues have to be reminded that a 
free people do reserve some standards to set on whether or not 
reforms have occurred.
    Let me just start and say, I have seven key points I want 
to make, and I'll try to make them very quickly.
    The first is, the United Nations has to be reformed for 
it's own good. I particularly commend the work that Rod Hills 
and Ed Fuelner did on the management side of U.N. reform, but 
the personnel system is an embarrassment. They have been trying 
for 2 years to fire somebody who was implicated in the Rwanda 
massacres, and the personnel system is so cumbersome they can't 
fire him. Now there is something profoundly wrong when you 
can't, in any way, recognize merit or minimize demerit if you 
will.
    And so, first, I think we have to recognize that the United 
Nations has very serious internal reforms that lead to 
transparency. It has to bother everyone. When the Secretary 
General's Chief of Staff shreds documents for 7 months, after 
having sent a memo saying, don't shred any documents. And if 
there's no accountability and no transparency, I think it's 
very difficult to explain to the American people why we should 
be making the level of investment we're making.
    Second, and I think here we're getting almost universal 
agreement. The U.N. Human Rights Commission has to be 
abolished, and replaced by a new organization that has 
standards for membership. It has been an embarrassment to have 
the dictatorships and the murders take over the Human Rights 
Commission and, basically, use it as a shield for their 
behavior. Sudan has been elected to the Human Rights Commission 
for 2 years in a row, while being investigated for genocide. 
It's clearly an agency that can't continue to survive, and I 
commend the testimony you'll hear from Secretary Burns, I think 
it's very important that we find a way to set a standard for a 
relatively small limited group that replaces the Human Rights 
Commission and that actually has standards for democracy and 
the rule of law as part of the process of being elected to that 
group.
    Third, I think that there has to be notice taken of the 
stunning level of consistent United Nations hostility toward 
Israel. Just in the last week, UNESCO's engaged in an annual 
dance of attacking Israel at the very time when there's serious 
effort underway to try to find grounds for peace between the 
Palestinian people and Israel. At a very time when the Israeli 
Government is trying to withdraw from Gaza and is faced with a 
tax against Israeli civilians by terrorists. There's something 
profoundly wrong and it's symptomatic of the underlying 
weaknesses of the United Nations. That Israel is consistently 
singled out for attention, far more attention than Sudan gets 
for massacring several million people, far more attention than 
other countries have gotten for similar kind of problems.
    And I think the United States should be working with other 
democracies to establish a balance in the United Nations 
approach to Israel, and to end the discriminations against 
Israeli activities in the United Nations.
    Fourth, I think we have to recognize that there are 
inherent limitations in a universal body. It is good to have a 
place where as Churchill once said: ``Jaw, jaw, jaw, is better 
than war, war, war.'' And it's good to have a universal 
institution. But the fact is, that means there are people at 
the table who don't share our values, don't share our beliefs, 
don't use language in the same way. When, for example, the 
Chinese can be eliminating the word democracy from Internet 
application and can have people warned if they use the word 
democracy in their e-mails, clearly the Chinese don't approach 
freedom of speech with the same pattern we do.
    It's clearly impossible to consider most of the 
dictatorships on the planet as approaching the rule of law the 
same way we do, and so I think it's useful for the United 
States to recognize that the United Nations is an important, 
but a limited body, and that there are times and places when we 
may have to organize in other ways. And our task force was 
quite clear about this. That the United States always retains 
the opportunity to work through regional bodies, to work 
through organizations of democracy, to do whatever is necessary 
around the United Nations on those occasions when the nature of 
the United Nations makes it impossible for it to be effective.
    Along that line, fifth. We had very serious discussions in 
the task force and concluded that we strongly wanted to 
advocate a responsibility to protect. That every government 
should be put on notice that the genocidal and murderous 
behavior against its own citizens would, in effect, limit the 
protection of sovereignty. We clearly recognize that there are 
criminal regimes and that there are times when, ideally, the 
United Nations will take steps against those criminal regimes. 
But if for political reasons the security council can't take 
those steps, that we believe that regional bodies, or ad hoc 
groups, or coalitions of the willing, that there are a variety 
of levels, each of them of decreasing desirability but they may 
be made necessary if the United Nations can't operate.
    And we want--we tried to make very clear in our report that 
sometimes the United Nations gets blamed for things that are 
clearly its members'. It is China, in particular, that has 
blocked
R-4, largely for oil interests that China has with almost $6 
billion dollars of investment in Sudan. There were times when 
Russia was blocking activities to save lives in the Balkans, 
largely for traditional, military reasons.
    The United States, itself, has at times been very hesitant 
about doing the right things for reasons relating to domestic 
politics. So we believe that the United Nations is an important 
place, and a place where often you want to start, but we don't 
think the responsibility to protect be allowed to wither 
because the Security Council turns out to be impotent and we 
quite specifically said there are times when working through 
regional bodies or working through coalitions of the willing 
may be necessary.
    Sixth, we think that a great deal of economic development 
is a function of the rule of law, of private property, and of 
security. And that while the United States has joined in 
considerable leadership on the issue of economic aid, we think 
that economic aid is only as effective as the recipient 
governments are prepared to reform themselves and modernize 
themselves and that a substantial part of that burden has to be 
on the recipient country.
    And finally, we come back again, and again, in our task 
force report to the notion that the United States has to work 
with, and organize the other democracies. For reform to truly 
be effective it can't be an American-only product. We think 
that there's a great opportunity through the G-7, and a great 
opportunity through other organizations of democracies, for the 
United States to consistently help move the United Nations 
toward being more representative of the rights of the entire 
human race, rather than representative only of the interest of 
sovereign governments, many of whom are dictatorships.
    And we urge the committee, as it considers legislation to 
look both at ways to help focus the executive branch on a 
routine regular commitment to reform over a number of years, 
and on executing a large part of that commitment to reform by 
helping organize and develop a caucus of democracies, in ways 
that will draw a clear distinction between dictators who have 
the right to belong to the United Nations but don't have the 
right to render judgment on issues like human rights.
    And between governments which have sovereignty under 
international law, but run the risk of losing that protection 
if, in fact, they engage in criminal behaviors and fail in the 
responsibility to protect their own citizens. And we look 
forward very much to a chance to answer questions from your 
committee.
    [The prepared statement of Mr. Gingrich follows:]

Prepared Statement of Hon. Newt Gingrich, Cochairman, Task Force on the 
        United Nations, U.S. Institute of Peace, Washington, DC

    Chairman Lugar, Ranking Member Biden, and members of the committee, 
I appreciate the opportunity to testify today, along with Senator 
Mitchell, on the consensus findings of the Task Force on U.N. Reform, 
which was mandated and funded by Congress.
    I agreed to participate and cochair this Task Force on U.N. Reform 
with my friend, Senator Mitchell, because I share the belief that a 
dramatically reformed U.N. can be an effective instrument in the 
pursuit of a safer, healthier, more prosperous, and freer world--all 
goals which serve American interests and the interests of our 
democratic allies.
    As the largest stakeholder in the U.N., the American taxpayer has 
every right to expect an institution that is at once effective, honest, 
and decent. That United Nations--a very different body from the one 
that stands today in New York--could be a valuable instrument to 
promote democratic political development, human rights, economic self-
sufficiency, and the peaceful settlement of differences.
    Before I go on, I would like to stress that this report is the 
product of serious negotiation. We got here because of a firm integrity 
and commitment to hammering out a consensus document. There are people 
on the right, including myself, who might have said other things in a 
different setting. Accordingly, there are people on the left who might 
have said other things in a different setting. Nevertheless, we were 
able to come together in a very positive way to provide leadership and 
put forth a set of recommendations to show how, with the right kinds of 
reform, the U.N. can become an effective institution.

                        THREE GUIDING PRINCIPLES
    However, American efforts to reform the U.N. should always be 
conditioned on three principles.
    First, that telling the truth and standing up for basic principles 
is more important than winning meaningless votes or conciliating 
dictators and opponents. It is time to end the appeasement strategy of 
a soft diplomacy which fails to insist on honesty. Telling the truth is 
only confrontational to those whose policies cannot stand the light of 
day.
    Second, all reform proposals should emphasize what is right and 
necessary, not what is easy and acceptable. In any given session the 
United States may only win a few victories. However in every session 
the United States should proudly affirm the truth and fight for 
principles that matter. Ambassadors Moynihan, Kirkpatrick, and 
Pickering were exemplars of this kind of direct tough minded principled 
advocacy. The repeal of the infamous ``Zionism is Racism'' resolution 
in 1991 was an example of courageously doing what was right rather than 
doing what was comfortable. The time for appeasing the vicious, the 
dictatorial, the brutal, and the corrupt has to be over.
    Third, the members of the U.N. must be made to understand that the 
United States wants to reform the U.N. and is committed to doing all it 
can to achieve that reform. However, the problems there are so deep, in 
order that they might be fixed, we must confront roadblocks put up by 
dictators and other entrenched interests who will want to defend the 
status quo and reject reform.
    Failure, while not desirable, can be an option for the United 
Nations. It cannot be one for the United States. There must be 
effective multilateral instruments for saving lives and defending 
innocent people, and we should be prepared to explore other avenues for 
effective action if the U.N. refuses to reform itself. America can 
never be trapped by the unwillingness of others to do the right thing.

                              FIVE THEMES
    This statement does not address the details of the task force 
findings, but rather stresses five themes which personally think that 
the Congress should keep in mind as it considers the future 
relationship of the United States with the United Nations.
1. An unacceptable gap exists between the ideals of the U.N. Charter 
        and the institution that exists today
    By any reasonable measure, it is fair to say that there exists an 
unacceptable gap between the ideals of the U.N. Charter and the 
institution that exists today.
    Today, notwithstanding the charter's goals, the civilized world is 
in the fourth year of a new global war against a committed ideological 
foe bent on using terror. Thousands of innocents have been murdered and 
maimed in New York, Washington, London, Madrid, Beslan, Bali, 
Jerusalem, Baghdad, Istanbul, and many other cities. The terrorist 
Ayman Al-Zawahiri is explicit about al-Qaeda's ``right to kill 4 
million Americans--2 million of them children--and to exile twice as 
many and wound and cripple hundreds of thousands.''
    And yet, 4 years after 9/11, the U.N. General Assembly still has 
not reached agreement upon something as basic to the war on terror as a 
comprehensive definition of terrorism.
    At the same time, genocide continues unstopped in Darfur 10 years 
after the world vowed that Rwanda would be the last genocide.
    Our faith in the U.N.'s fealty to fundamental human rights is once 
again shaken, not only by the egregious paralysis by the U.N. in the 
wake of mass killings in the Balkans, Rwanda, and Sudan but also by the 
existence of a 53-member U.N. Human Rights Commission whose process for 
membership selection has become so distorted that countries with 
appalling, even monstrous, human rights records--Sudan, Syria, 
Zimbabwe, Libya, and Cuba, to name a few--have been seated there. This 
has led to a substantive failure to hold many nations accountable for 
abysmal human rights records.
    Also, an insidious dishonesty can be found in the Oil-for-Food 
scandal, the rapes and sexual abuses by U.N. peacekeepers of the very 
people they were sent to protect, and the consistent failure to admit 
failure and assign responsibility within the senior bureaucracy.
    Without very substantial reform, there is little reason to believe 
the U.N. will be able to realize the goals of its charter in the 
future. Indeed, the culture of hypocrisy and dishonesty which has 
surrounded so many U.N. activities makes it very likely that the system 
will get steadily worse if it is not confronted and substantially 
reformed. Without fundamental reform, the U.N.'s reputation will only 
suffer further, reinforcing incentives to bypass the U.N. in favor of 
other institutions, coalitions, or self-help.
2. The United States has significant national interests in an effective 
        United Nations
    Notwithstanding these and other failures, the United States has a 
significant national interest in working to reform the U.N. and making 
it an effective institution.
    The United States took the lead after World War II in establishing 
the U.N. as part of a network of global institutions aimed at making 
America more secure. It was intended to serve as, in the words of 
Franklin Delano Roosevelt, a ``Good Neighbor,'' by helping other people 
achieve safety, health, prosperity, and freedom. It was that 
generation's belief that a freer and more prosperous world was a better 
world for America.
    Today, a freer and more prosperous world most certainly remains a 
fundamental interest of the United States. We believe that if it 
undertakes the sweeping reforms called for in the task force report, 
the U.N. will be in a much better position to be a ``Good Neighbor'' to 
help all nations achieve a larger freedom.
    Three generations of Americans have demonstrated not only a strong 
preference for sharing the costs, risks, and burdens of global 
leadership, but also an acute recognition that action in coordination 
and cooperation with others is often the only way to get the job done.
    Perhaps there is no more important illustration of this practical 
recognition than in the security challenge facing the United States and 
the rest of the world from our terrorist enemies and the proliferation 
of weapons of mass destruction (WMD).
    The current proliferation trends are alarming. North Korea 
continues to enhance its nuclear capabilities. Iran is building a 
uranium enrichment facility that could be used to produce fissile 
material for nuclear weapons. Pakistan has nuclear weapons and we now 
know that one of their leading scientists has provided critical 
equipment and technologies to Iran, North Korea, Libya, and perhaps 
other countries or terrorist organizations. Even worse, Pakistan's 
internal stability is constantly in question. If fundamentalist 
Islamists were able to take control of that country and their nuclear 
arsenal, the potential threat that would emerge is unimaginable.
    As protecting America and preserving freedom are this Government's 
primary missions, I agree with the fundamental conclusion of this task 
force that countering terrorism and proliferation effectively is 
significantly enhanced by broad international participation, which can 
be greatly facilitated by an effective United Nations.
    In addition, if it works, the U.N. can be an effective cost 
multiplier that can help achieve humanitarian aims in places where 
nations might be unacceptable and in ways which enable the United 
States to have other countries bear more of the burden than they would 
in a purely ad hoc world.
    For all these reasons and despite its record of grievous and real 
failures, the U.N. is a system worth reforming rather than a system to 
be abandoned.
3. The U.N. Human Rights Commission must be abolished
    The task force's consensus recommendation to abolish the U.N. Human 
Rights Commission is of paramount importance.
    We are all well aware of the U.N.'s and the international 
community's failures in Rwanda in 1994 and in Sudan today.
    The U.N.'s response to the crisis in Sudan is a shocking example of 
its current institutional failures. For over two decades the Government 
of Sudan has been an active participant in the genocide of its non-
Muslim population. Since 1983, the government in Khartoum has been 
responsible for the killing of over 2 million Christians and animists 
and the displacement of 4 million more during the ``jihad'' it waged in 
southern Sudan. According to the U.N.'s own calculations, recent 
violence in the Darfur region has resulted in the killing of at least 
70,000 people and the internal displacement of over 1.5 million 
civilians. Some analysts are estimating, however, that the true death 
toll could be four or five times higher.
    Despite these facts, the U.N. and member states have done virtually 
nothing to stop it. Indeed, there has been a consistent effort to 
describe the mass murders dishonestly because an honest account would 
require measures that many member states want to avoid. Former 
Secretary of State Powell concluded that genocide has been, and 
continues to be, committed in Sudan and that the government bears 
responsibility.
    Failure to deal with genocide around the world and the continued 
inability to address honestly the situation in Sudan is a problem that 
has its roots in the internal institutions of the U.N., specifically 
the Human Rights Commission, which has been corrupted by political 
games that have allowed some of the world's worst human rights abusers 
to sit in judgment of others--and to shield themselves from criticism.
    The plain and simple facts are that known human rights abusers have 
served on the U.N. Human Rights Commission, illustrated by the fact 
that today the Government of Sudan is currently serving its second term 
on the Commission. In 2003, Libya was elected to chair the Commission 
by a bloc of African and Middle East nations. Between 1987 and 1988 
Iraq was a member in good standing of the Commission at the very time 
that Chemical Ali was using mustard gas and Sarin nerve agents upon 
Iraqi Kurds.
    Current U.N. policy is that the human rights records of the 53 
countries that sit on the Commission may not be assessed as a 
prerequisite to serving on the panel, which means there is no mechanism 
to protect the Commission from being manipulated by governments that 
routinely abuse human rights.
    In effect, the dictators and the murderers have systematically come 
to dominate the institution designed to bring them to justice.
    This policy completely undermines the integrity and decency of the 
entire U.N. and should be offensive to free peoples everywhere. Even 
Secretary General Annan recognizes that ``we have reached a point at 
which the Commission's declining credibility has cast a shadow on the 
reputation of the U.N. system as a whole and where perceived reforms 
will not be enough.''
    It is for these reasons that the task force has unanimously called 
for abolishing the current Human Rights Commission and replacing it 
with a new Human Rights Council.
    The task force recognizes that it would be folly to abolish the 
Commission only to have it replaced with a new body with a new name but 
which would suffer from the same inherent flaws; nations that are human 
rights violators cannot have the responsibility to set the standard for 
global justice.
    Therefore, it was the consensus of the task force that a new Human 
Rights Council must be established that should be comprised of 
democracies. Democracy is, by its nature, transparent, accountable, and 
committed to freedom and liberty. Totalitarian regimes are, in 
contrast, not. Therefore, what we have said is that only those who have 
demonstrated their own commitment to human rights and the rule of law 
should be assigned the responsibility to tell the world truths about 
governments that rape, torture, and murder their citizens.
4. Any U.N. reform program supported by the United States must insist 
        on a fundamental change in the way the U.N. treats Israel
    A true test of whether there is meaningful U.N. reform is whether 
there is a dramatic reform of the way that the U.N. treats Israel.
    A U.N. General Assembly partition plan resolution in 1947 made the 
establishment of Israel possible, but since that time the U.N. has 
treated Israel as a second-class citizen. In many ways the U.N.'s 
treatment of Israel is a continuing case study of political 
manipulation, mistreatment, and dishonesty.
    As stated in our report, ``Israel continues to be denied rights 
enjoyed by all other member states, and a level of systematic hostility 
against it is routinely expressed, organized, and funded within the 
U.N. system.'' Ever since Israel's establishment, member states who 
have been fundamentally opposed to its existence have used the General 
Assembly forum to isolate and chastise this democratic nation. At the 
opening session each year these nations challenge the credentials of 
the Israeli delegation.
    More than one quarter of the resolutions condemning a state's human 
rights violations adopted by the Human Rights Commission over the past 
40 years have been directed at Israel. Israel is the only nation to 
have its own agenda item dealing with alleged human rights violations 
at the Commission in Geneva; all other countries are dealt with in a 
separate agenda item. This systematic hostility against Israel can also 
be gleaned from the fact that of the 10 emergency special sessions 
called by the U.N. since its founding, 6 have been about Israel. In 
contrast, none has been called to address the genocide in Rwanda, the 
former Yugoslavia, or the continuing atrocities in Sudan.
    The most vivid historical example of Israel's mistreatment by the 
U.N. goes back to 1975, when the General Assembly passed Resolution 
3379 on the anniversary of Kristallnacht. This resolution declared that 
``Zionism is a form of racism and racial discrimination . . . [and] is 
a threat to world peace and security'' and was meant to deny Israel's 
political legitimacy by attacking its moral basis for existence. It was 
only repealed in December 1991, following tireless efforts by the U.S. 
Government, particularly President Bush, Secretary Baker, and 
Ambassador Pickering. Its mere existence however, shows how the General 
Assembly has often become a ``theatre'' for bashing Israel.
    The U.N. continues to provide a theatre for this sort of behavior. 
Just last week the U.N. sponsored an annual Israel bashing meeting at 
the UNESCO headquarters in Paris. The meeting, organized by the 
Committee on the Exercise of the Inalienable Rights of the Palestinian 
People, adopted an ``Action Plan by Civil Society'' calling for a 
global campaign of boycotts, divestment, and sanctions against Israel 
to ``pressure [it] to end the occupation.'' Israel's plan to disengage 
from the Gaza Strip was described as ``a ploy to legitimize Israel's 
annexation of wide swathes of territory in the West Bank.'' This 
meeting took place despite the fact that the U.N. Secretary General has 
recently made several statements regarding the fair treatment of Israel 
as an important component of U.N. reform. Nevertheless, this is one 
more example of the ongoing mistreatment of Israel and the U.N.'s one-
sided approach to the Middle East conflict. The U.S. taxpayer should 
not be subsidizing a one-sided anti-Semitic assault on the survival of 
the only true democracy in the region other than Turkey. A genuine 
commitment to reform would require abolishing this sort of U.N. 
machinery whose only purpose is to demonize Israel.
    U.N. member states must recognize that the terrorists and the state 
sponsors of terrorism against the State of Israel are of the same evil 
nature and pose the same threat to the civilized world as the 
terrorists who murdered innocent civilians in London, Madrid, New York, 
and Washington, and who continue their attacks on the innocent in 
Baghdad. The first U.N. Chapter VII sanctions for terrorist acts were 
against Libya in 1992. This success has been a model for subsequent 
responses to the Taliban and al-Qaeda since 9/11. Certain U.N. members 
have, however, been unwilling to support these actions against nations 
such as Syria and Iran who support and fund terrorist activities 
against Israel. These member states have found it easier to promote an 
anti-Israel stance that makes the U.N.'s response to terrorist attacks 
against the Israeli people inconsistent and ineffective.
    This is why the U.N. must adopt a comprehensive definition of 
terrorism that is not manipulated by the very members who are 
themselves supporting terrorism. As the task force recommends, a 
comprehensive definition of terrorism should not be applied to the 
actions of uniformed national military forces (which are already bound 
by the laws of war), but to the actions of individuals or irregular 
organizations. Many member states have tried to derail this process by 
insisting that any actions in the context of ``wars of national 
liberation'' and the ejection of ``occupying forces'' by such 
individuals and irregular organizations should not be considered 
terrorism. Such a definition would be unacceptable, as its effect would 
be to legitimize terrorist attacks against coalition forces in Iraq and 
Afghanistan as well as against Israel.
    We also made clear in this report that the U.N. cannot presume to 
be the arbiter of international human rights and justice when Israel is 
discriminated against and excluded from any regional grouping in Geneva 
and excluded from a permanent regional grouping in New York. Although 
the U.N. Charter gives every member state the right to be elected a 
member of the Security Council, Israel's segregation from a permanent 
regional grouping has denied them the right to seek a seat. It also 
means that an Israeli judge can never be elected to the International 
Court of Justice, nor can Israel even vote on the makeup of this court.
    Also, while the task force did not develop any specific 
recommendations regarding structural reforms of the Security Council, 
it did state that any reforms measures that are adopted must extend to 
Israel. There is no legitimate basis for allowing rogue dictatorships, 
such as Syria, to sit on the Security Council while denying 
representation to a 50-year-old democracy in the heart of the Middle 
East.
    Accepting Israel as a normal member with full voting and 
participatory rights should be considered a benchmark test of any U.N. 
reform program. This would demonstrate that the U.N. is genuinely 
committed to the equality of rights that are enshrined in its charter.
5. A U.N. with no democratic preconditions for membership will always 
        have inherent limitations that are not subject to reform
    Because the U.N. has no democratic preconditions for membership, we 
must recognize that there are limits to America's ability to render the 
U.N. infrastructure and its decisions compatible with American values 
and interests through any reform initiative. There are inherent 
limitations of the U.N. that are not subject to ``reform.''
    The United States of America is a liberal democratic nation state 
(as are our principle allies). Our form of government is based on the 
principle of ``government by consent of the governed.'' In other words, 
it is based on the principle of ``democratic sovereignty.'' This is the 
principle that a democratic people have the right of self-government--
the right to rule themselves. And as first set forth in our Declaration 
of Independence, we have held this to be true not only for the American 
people, but for all peoples.
    In this regard, it is only necessary to note that the first seven 
words of our Constitution--We the People of the United States--
accurately reflect our founding belief that governments derive ``their 
just powers from the consent of the governed'' and the fact that that 
the sovereign will of the people of the United States was expressed in 
the Constitution itself and in our ongoing system of government created 
by it.
    By contrast, the first seven words of the U.N. Charter--We the 
Peoples of the U.N.--are only accurate as they apply to its democratic 
members. The peoples of countries like Cuba, Zimbabwe, Sudan, Iran, and 
North Korea, to name a few examples, have no say in what their 
governments do in their name, especially in the United Nations. 
Countries in which criminal gangs and ruthless dictators impose their 
will without the consent of the people are inherently less defensible 
and morally less sovereign than countries which have earned the respect 
of their citizens by deriving their just powers from the consent of 
their people.
    Americans can hardly be surprised then when such member states 
attempt to block U.N. action that would hold them accountable for 
violations of human rights or organize through the General Assembly 
highly publicized meetings such as the 2001 U.N. World Conference 
against Racism in Durban, where illiberal and undemocratic interests 
prevailed.
    Any international organization in which a majority of its members 
are not full-fledged democracies, and which provides a platform to 
divide democracies by facilitating coalitions with undemocratic states 
in an effort to trump the United States--even democratic states often 
will sacrifice fundamental interests such as human rights at the U.N. 
altars of false consensus and regional solidarity--will likely remain 
an imperfect instrument in adjudging and protecting human rights fairly 
and accurately. It will also remain an imperfect instrument in 
spreading democracy to the darkest places in the globe and combating 
terrorism and nuclear proliferation or the major threats to the 
security interests of the United States (and our democratic allies).
    This ongoing reality that the U.N. is a mix of democratic and 
undemocratic states explains why a primary conclusion of the task force 
is that the challenges and problems faced by the U.N. can only be 
addressed through consistent and concerted action by the world's 
genuine democracies, which is why the task force recommends 
strengthening the Caucus of Democracies as an operational entity 
capable of organizing concerted political action to counter gross 
violations of human rights and to save lives and creating or 
strengthening alternative channels of influence outside the 
institution, such as the Community of Democracies.
    Additionally, I would personally add that the United States should 
explicitly affirm the principle of ``democratic sovereignty'' as a core 
universal principle in all international and global relations, and as 
central to the administration of the United Nations. The only 
institution that possesses democratic legitimacy in today's world is 
the liberal democratic nation state. Clearly, democratic legitimacy is 
not possessed by the United Nations, international organizations, and 
nongovernmental organizations (NGOs).\1\ All of these institutions have 
what is often called a ``democracy deficit.'' None of these 
institutions is accountable or responsible to a democratic electorate, 
genuine democratic institutions, or the give and take of national 
democratic politics. These NGOs and institutions taken together do not 
represent something called ``global civil society'' or ``global 
governance,'' amorphous concepts that purposely blur the constitutional 
limits and democratic accountability of actors within the liberal 
democratic nation state.
---------------------------------------------------------------------------
    \1\ While NGOs were not a subject addressed in the task force 
report, the Congress should recognize that NGOs are a growing and 
unregulated set of special interests and are playing important roles 
inside the U.N. bodies in which they are accredited, often by 
procedures highly discriminatory to promarket, prodemocracy ideals. 
They are not unaccountable to anyone. Incredibly, NGOs are also 
beginning to make decisions in the place of sovereign governments. At 
the recent Review Conference of the Non-Proliferation Treaty, an NGO 
representative was seated in the place of a certain Central Asian 
nation. Consequently, rules governing the participation of NGOs in the 
U.N., their accreditation and transparency for those allowed through 
the door are a vital requirement for any meaningful U.N. reform.
---------------------------------------------------------------------------
    Clearly, none of these institutions (the United Nations, 
international organizations, or NGOs) has the democratic legitimacy to 
impose decisions upon a liberal democratic nation state without the 
consent of the people of that democratic state.
    Therefore, a coalition of genuine democratic nation states led by 
the United States can explicitly and consistently reject any effort by 
the General Assembly, in special conferences and meetings, and in any 
U.N. Organization to adopt rules, treaties, and systems which would 
infringe on American constitutional liberties or democratic 
institutions, or the constitutional liberties or democratic 
institutions of other liberal democratic nation states.
    A coalition of genuine democratic nation states led by the United 
States can explicitly and consistently reject a growing undemocratic 
international movement that seeks to create a system of rules, and 
``laws'' which will circumscribe American liberty and coerce America 
into taking steps which the people of America would never take. The use 
of large international meetings (sometimes under U.N. authority) to 
create new systems of ``law'' and new ``norms'' of international 
behavior, often advanced under the guise of ``global governance,'' are 
a direct threat to the American system of constitutional liberty and 
must be rejected.
    This is not a narrow, or a partisan concern for a few--but a 
constitutional concern for all Americans. U.N. treaties are often 
vague; open to wide interpretation; and subject to considerable 
mischief. The Senate could approve well-meaning general principles in a 
U.N. treaty that are interpreted in ways that the Senate did not 
intend. For example, the U.S. Senate has ratified the CERD (Convention 
to Eliminate all Forms of Racial Discrimination) Treaty emanating from 
the United Nations. The United States added reservations stating that 
the ``hate speech'' provisions in the CERD are subordinate to our free 
speech rights under the first amendment.
    Nevertheless, some NGOs, international bureaucrats, law professors, 
and even judges, are arguing that the CERD Treaty requires that the 
U.S. Government do all sort of things that have not been approved by 
Congress, including implementing speech restrictions. In monitoring 
U.S. compliance with international treaties, U.N. rappoteurs under the 
guise of U.N. treaty requirements, and in the name of ``global 
governance,'' often advocate the implementation of policies that 
challenge both the legislative authority of the Congress and the 
federalist prerogatives of the states under our constitutional system. 
This is new territory and legal reasoning of this type is being heard 
in arguments over U.N. treaty after U.N. treaty.
    Surely all Americans could agree with the principle that: ``If 
there is a conflict between U.S. constitutional law and international 
law derived from the Senate's decision to ratify a U.N. treaty or 
convention, U.S. constitutional law must take precedence in all 
cases.'' No one who believes in the supremacy of the U.S. Constitution 
can oppose this simple statement.

  A COALITION OF GENUINE DEMOCRACIES MUST WORK TOGETHER TO REFORM THE 
                             UNITED NATIONS
    Effective and deep reform will result if there is a coalition of 
genuine democracies, the United States chief among them, that want to 
create a new accountable, transparent, honest, and effective United 
Nations.
    Because so much of the U.N. behavior and culture would be 
indefensible if described honestly, there is an overwhelming tendency 
to use platitudes and misleading terms to camouflage the indefensible. 
There is no institution on earth with more Orwellian distortion of 
language than the United Nations. The very dishonesty of the language 
helps sustain the dishonesty and destructiveness of its institutions. A 
coalition of genuine democracies with representatives willing to speak 
straightforwardly can do much to reform these institutions by simply 
telling the truth.
    A coalition of genuine democracies can affirm what the task force 
calls on the U.S. Government to affirm, that sovereignty belongs to the 
people of a country and governments have a responsibility to protect 
their people. And that if a government fails in its primary 
responsibility to protect the lives of those living within its 
jurisdiction from genocide, mass killing, and massive and sustained 
human rights violations, it forfeits claims to immunity from 
intervention when such intervention is designed to protect the at-risk 
population.
    Likewise, a coalition of genuine democracies can affirm that when a 
government's abnegation of its responsibilities to its own people is so 
severe, the collective responsibility of nations to take action cannot 
be denied. While the U.N. Security Council can and should act in such 
cases, in the event it does not, its failure must not be used as an 
excuse by concerned members, especially genuine democracies, to avoid 
taking protective measures.
    A coalition of genuine democracies can help to reaffirm a 
fundamental faith in human rights, which is why the task force 
recommends abolishing the Human Rights Commission and replacing it by a 
new Human Rights Council ideally composed of democratic states that 
respect human rights.
    A coalition of genuine democracies can move to replace the emphasis 
on bureaucratic and often corrupt state-to-state aid programs with a 
consistent emphasis on the rule of law, private property rights, 
incentives for private investment in and trade with developing 
countries, private charities and supporting the growth of a civil 
society beyond the control of dictators and bureaucracies.
    A coalition of genuine democracies can explicitly and consistently 
reject a growing antidemocratic international movement that seeks to 
create a system of rules and ``laws'' which will circumscribe American 
liberty and coerce America into taking steps which the people of 
America would never take. The use of large international meetings to 
create new systems of ``law'' and new ``norms'' of international 
behavior are a direct threat to the American system of constitutional 
liberty and must be rejected.

       CONGRESS HAS A KEY ROLE IN ENSURING SUCCESSFUL U.N. REFORM
    Congress needs to get its act together for U.N. reform to happen. 
When the Congress of the United States, which has the power of the 
purse, the power of law, and the power of investigation, takes U.N. 
reform seriously and sticks to it year after year, it will surely have 
a significant impact.
    I recommend that Congress should have a much more robust presence 
in New York, have a much more robust interaction with the U.N. 
Ambassador, once we get one, and have a much more robust requirement of 
whoever is in charge at State, as someone you can hold accountable 
regarding what we have done over the past 3 months and what is planned 
for the next 3 months. Congress has every right within our 
constitutional framework to tell the State Department that you want 
consultations on a regular basis. You cannot actually issue effective 
instructions, but you can demand consultations and reports.
    This is important because we need to elevate U.N. reform to be a 
continuing and ongoing part of congressional involvement, both at the 
authorization and appropriation committee levels and both in the House 
and Senate. We further need to get more members engaged so that there 
is a sophisticated understanding of what has to get done, how we are 
going to get it done, and what we ultimately hold the executive branch 
accountable for.
    Additionally, organizing the democracies so that we can then be in 
a position to systematically reform the U.N. is a significant 
undertaking that is going to take real time.
    Having Members of Congress talk with their counterparts in other 
countries, getting British Parliamentarians, the French 
Parliamentarians, the Germans, the Japanese, to agree that these are 
values we should be insisting on will be an enormous asset to the 
United States.
    This Congress must play a key role in ensuring a successful reform 
of the United Nations. The task force report presents a starting point. 
One proposal for the Congress to move forward on U.N. reform is to pass 
legislation that requires an annual review by the executive branch that 
evaluates the progress of U.N. reform against a set of performance 
metrics. Since the task force report sets forth a number of reform 
recommendations, I have attached as an appendix to this statement an 
example of what such a U.N. reform scorecard with a set of proposed 
performance measures might look like with respect to the task force's 
reform recommendations. This list is intended to illustrate the types 
of performance measures the Congress could adopt; it is by no means 
intended to be an exhaustive list. There are surely several more 
inventive measures that this Congress could design.
    Guided by such a set of performance measures, the Congress could 
hold hearings every June or July to review the U.N. reform progress 
report prepared by the executive branch that identified the progress to 
date. That report could then become the basis for an annual discussion 
on U.N. reform at each summer's meeting of the 
G-8, and then later at each September's meeting of the U.N. General 
Assembly. Following the annual hearings on U.N. reform, the Congress 
could adopt amendments to the scorecard legislation based on progress 
so that standards for the following year could be set forth. In this 
manner, Congress could develop a continuous practice of monitoring U.N. 
reform.
    I think the United States should enter into this process of reform 
for as many days as it takes, with the notion that the most powerful 
country in the world is going to get up every morning and is going to 
negotiate at the U.N., organize the democracies, tell the truth, and 
keep the pressure up until we break through and get the kind of United 
Nations the people of the world deserve.
    I am hopeful and confident that if the Congress moves forward in 
this spirit and with the level of commitment that will be required to 
achieve reforms, the United States can once again lead the way in 
designing a United Nations that will be an effective instrument in 
building a safer, healthier, more prosperous, and freer world.
    I also remain hopeful that the U.N. will adopt and undertake all of 
the necessary reform measures that will satisfy the United States and 
our democratic allies without the need to resort to any type of 
limitation on the appropriation of U.S. taxpayer funds to U.N. 
activities. And while I hope it will not be necessary to use any such 
limitations in the U.S. relationship with the U.N., I think it is 
inevitable that limitations will be enforced by the Congress if the 
necessary reforms of the U.N. are not implemented in a timely way.

  THE U.S. GOVERNMENT CAN RISE TO THE OCCASION AND REFORM THE UNITED 
                                NATIONS
    During the Second World War, the American system responded 
magnificently to defend freedom.
    During the cold war, the Congress and the executive branch 
sustained collective security for 44 years with amazing stability 
despite the stresses of Vietnam and other difficulties.
    Now, faced with a very complex world in which people are starving 
to death, being killed viciously, being tortured, brutalized and 
mutilated by truly evil people, there is a new need for sustained 
consistent American leadership at the United Nations if that 
organization is to become an effective instrument in protecting the 
safety of the American people and the dignity of peoples worldwide.
    The threat of terrorists with weapons of mass murder and weapons of 
mass destruction makes this a pressing need of national security 
(indeed, of our national survival) and the security of our democratic 
allies. The ongoing genocide in Darfur and the need to address 
humanitarian crises makes reforming the U.N. a pressing need to save 
lives.
    Just as the United States took the lead after World War II in 
forging the consensus that led to the creation of the United Nations 60 
years ago, we believe the United States, in its own interests and in 
the interests of international security and prosperity, can and must 
help lead the U.N. toward greater relevance and effectiveness in this 
new era. Without change, the U.N. will remain an uncertain instrument, 
both for the governments that comprise it and for those who look to it 
for salvation.
    With a President and a Congress united in their desire to advance 
our national interests, a reformed U.N. can be fashioned to more 
effectively meet the goals of its charter and the new challenges that 
it confronts.

[Editor's note.--The appendix containing ``An Example of a U.N. Reform 
Scorecard,'' attached to Hon. Gingrich's statement, can be found in the 
Additional Material Submitted for the Record section at the end of the 
hearing.]

    The Chairman. Well, thank you very much, Speaker Gingrich. 
Let me now recognize the distinguished ranking member of the 
committee, Senator Biden, for his opening statement.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Thank you, I'll be very brief. Gentlemen, 
welcome, it's truly a pleasure to have you here. I think your 
report is first rate. And, Mr. Speaker, your reference to, and 
prior to that, Majority Leader Mitchell's references to, 
responsibility and respect for citizens is an incredibly 
important contribution.
    I also want to point out, that I think that unless we lead 
the other democracies and begin to make clear that there are 
circumstances in the 21st century that go beyond the Treaty of 
Westphalia, where you actually yield your claim to sovereignty. 
One of those is genocide within your borders. And that will 
only come, in my view, not through the United Nations Security 
Council, but through the major democracies agreeing after some 
significant and serious discussion about what the new 
international rules of proceeding are.
    The United Nations, to state the obvious, you both stated 
it and you stated it in your congressional careers, is 
necessary. And so I'd like to stipulate at the outset, that 
it's absolutely clear that reform is needed. Quite frankly, as 
strange as it sounds, under the leadership of Senator Helms we 
actually began this process, it was a halting start, but we 
actually began the process. I find it interesting that Helms 
and Biden put through the first bit of reform, and it was 
really Senator Helms, and now we have Gingrich and Mitchell 
which is another odd couple, but a welcome couple.
    I want to recognize the leadership of my colleague, 
particularly the chairman, as well as our friend who has done 
more work on this than anyone else that I know in the Senate in 
the last 2 years, and I think the work has been first rate. And 
I think their contribution has been positive on how to move 
with reform. This is a time of significant promise. But also 
it's a time of peril with regard to U.N. reform.
    The good news is, there's now widespread recognition, 
universal recognition that there's a need for significant 
change. If you had raised some of the things you're raising 
today, 10 years ago it would have been viewed as heretical. You 
would have gotten a left-right argument going. The rest of the 
major powers in the world would have said we're rocking the 
boat too much. The Secretary General would have had an 
apoplexy, and so on. But here we are with evident attention the 
Secretary General has given to this issue. We can argue why he 
has been spurred to this moment, but the fact of the matter is, 
in convening the high-level panel last year, writing his report 
``In Larger Freedom,'' and undertaking several forms within his 
own authority, that's progress.
    It also has been significant that Congress is paying 
attention to reform, granted it may have been a scandal that, 
in fact, moved us to this position, but we used to have debates 
up here, as the chairman will know, in the past, about whether 
the United Nations should exist, not how to make it better. It 
was, ``you're either against it or you're for it. You're either 
the black helicopter crowd, or you're the `one world' guys.'' I 
mean there was very little serious debate about modernizing, 
and bringing the United Nations into the 21st century.
    And so the question for the Congress, Mr. Chairman, and the 
administration, is not whether, but how to best initiate this 
reform, and I think you're well underway here.
    Without going through my whole statement here, let me 
suggest that one of the first issues that both of our 
colleagues have referenced already, that we're going to have to 
resolve upfront here, is withholding, semiwithholding, or 
encouraging payment of U.S. dues. It basically breaks down into 
those categories. And I, for one, which will not surprise my 
colleagues, think it's a mistake to withhold payments. We've 
been down that road before and it takes an awful lot of time to 
catch up. And I think it tends sometimes to be 
counterproductive. It took us the better part of a decade to 
get out from under where we were before, and I would argue, and 
I will on the floor, that the House-passed legislation is 
almost certainly going to move us back into arrears and, in 
fact, delay reform.
    We're going to argue about the wrong thing. We're going to 
be arguing about whether or not we should, or should not, have 
withheld dues. Senator Coleman and the chairman's proposal is 
much better, but it does, quite frankly, give me pause as well 
because it could unintentionally undermine the negotiating 
efforts that are underway at the United Nations. And I would 
say, at the same time, we are in a time of peril, because of 
the things we say and do in Congress are closely watched by the 
world. We should take care that our efforts assist in reform 
negotiations and not undermine them. We all know that egos 
exist in other capitals, among our friends as well as among 
those who don't agree with us. We rightly or wrongly, I will 
not make a judgment about it, have to deal with whether or not 
we are totally unilateral or whether it's pox Americana, and so 
on and so forth. This is not the time for us to unnecessarily 
put ourselves into the position of being accused of that.
    We were in, as I said, a similar position in 1997 that took 
a long time to get ourselves out of. I think the issue of U.N. 
reform needs to be addressed in a bipartisan manner which we 
have expressed here and I suspect can occur on the Hill. I 
think if legislation is needed, we should stick closely to the 
recommendations you have made, that your committee has made. 
And I think, rather than threaten to withhold dues if there's 
not sufficient reform, I think we should provide positive 
incentives if reforms are achieved. We can always go back to 
the other option. But it seems to me that to put our assessment 
payments back on the calendar year basis, so that we pay in 
January rather than October, would provide significant benefit 
to the United Nations and earn us some significant goodwill, 
which would put us in a better position to get consensus to 
make some difficult changes. Not all of our allies and friends 
are ready to be as straightforward as you've recommended. And I 
think we should not let ourselves be gamed in this process as 
we have on other occasions in Democrat and Republican 
administrations. I truly appreciate your testimony here today.
    And, at the risk of raising another contentious issue, I 
don't know whether we'll ever reach agreement with regard to 
the nomination of Mr. Bolton, in terms of material being 
supplied to those of us in the committee who think we need it, 
and to the Senate. I don't know whether, if it doesn't occur, 
the President will make an interim appointment. That is the 
President's judgment, not mine. But I say with all sincerity, 
if, in fact, there's any reconsideration, and I'm not 
suggesting that any has been undertaken, I would say to you, 
Mr. Speaker, I would hope that if the President came to you, 
that you would consider taking the position. I can't think of 
anyone who would be more ideally suited for that job. I mean 
this sincerely. You and I have disagreed philosophically, I 
have great respect for you. The power of your ideas, the power 
of your persuasion, and your clear knowledge in this area is 
the kind of positive force we need now at the United Nations. I 
mean this sincerely. I probably damned any possibility of that 
happening by mentioning it. And as soon as I said it I just 
thought of that. Actually I don't like you a damn bit, I don't 
think you're capable of going up there. I don't think you 
should, if, in fact, you are asked. [Laughter].
    Senator Biden. The more I think about it, you're totally 
unsuited for the job. But, anyway, think about it if it occurs.
    Thank you Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Biden, for 
an interesting, even provocative opening statement. But we 
won't go there. Back to the United Nations. Let me just say 
that the vote has been postponed for a few minutes, so we'll 
proceed with questions. We have a good membership 
participation, so we will have an 8-minute limit for our 
questions and answers on the first round. And I'll commence by 
asking a question about the Oil-For-Food scandal. It exposed a 
vast inability to account for funds, considering all the 
motivations that may have been there. I have already suggested 
it at the Security Council level of various nations, to handle 
it in various ways.
    Is the United Nations capable of handling a program that is 
that vast, with those sums of money, the logistic support that 
is required for the humanitarian aspects, quite apart from the 
commercial business of getting the food and so forth? And if it 
is not, are the recommendations that you have made adequate to 
solve that problem, or is some other international organization 
better equipped? Have you tried to think through the enormity 
of how much money, how much food, how many people either living 
or dying were involved in that, and whether the United Nations 
really is capable, as an organization, of dealing with that?
    Senator Mitchell. In my judgment, as presently structured 
the United Nations could not effectively supervise a program of 
this complexity and difficulty. The circumstances with respect 
to that scandal are well known to this committee, Senator 
Coleman and another committee has looked into that in great 
detail. We did not conduct an independent investigation given 
that there are five congressional inquiries and the Volcker 
panel is considering it. But it does clearly demonstrate the 
current inability of the United Nations to effectively operate 
and supervise such a program.
    However, we devoted a great deal of attention to the 
subject of accountability and reform of operational methods. 
The Speaker has already mentioned Rod Hills and Ed Fuelner, and 
they were the task force members who served on the group that 
dealt with that subject, it's chapter 3 in our report. It's a 
very comprehensive set of recommendations. I believe if they 
were adopted, or something comparable to them, that there would 
be a much greater chance of effectively operating such a 
program or something like it in the future. We did not evaluate 
the second question you asked, which is whether some other 
institution might be more capable of doing so; our task force 
deliberations were limited to the United Nations and its 
operations.
    In summary and repeating, I do not believe the United 
Nations could effectively now administer such a program; I 
believe they could if they adopted the reforms that we've 
recommended.
    The Chairman. Very good, and we'll refer to chapter 3, and 
study that more extensively. Let me touch upon the question 
that Speaker Gingrich mentioned in his opening statement. And 
that is the appropriate role of the Congress and the 
administration in dealing with each other and, therefore, with 
the United Nations. Clearly, as you've both pointed out, the 
appropriation process, the money process, is here in the 
Congress. At the same time we cannot all be President of the 
United States at the same time, or Secretary of State and as a 
result somebody has to be in charge of this. In the legislation 
that Senator Coleman and I have fashioned, we've said finally 
that the President is in charge. He's not all by himself, but 
he is the final arbiter. We have included the withholding of 
dues, which clearly is a controversial area, for all the 
reasons my colleague, Senator Biden, has pointed out, including 
in forums that he and Senator Helms have worked on to try to 
get us back to dues-paying status after many, many years in the 
wilderness.
    But I would just observe that in our democracy, people are 
elected to the Senate and House all the time. Many of them are 
new. They may come from places such as one that I can remember 
very well on the roads of Indiana, with all the billboards that 
said, get us out of the United Nations. From time to time, they 
reappear. People have them in the garage, and bring them back 
out again. Therefore, members who are so admonished by their 
own constituents don't appropriate money for the United 
Nations. So regardless of what we're recommending, the 
President may, or may not, ever have the chance of withholding 
the money, if it's not even appropriated to begin with. We must 
understand that.
    On the other hand, our thought was that, perhaps, Members 
of the Congress and the administration might come to a view 
that withholding the funds is one of the ways in which reform 
might be effected, only one, although it would be a lightening 
rod for controversy. And if it is to be used, it should be used 
very sparingly and effectively at the Presidential level, as 
opposed to all of us attempting to do this legislatively, year 
by year.
    Now, we're never going to be able to prohibit people from 
doing that, but if we undo a tradition of whoever the Chief 
Executive might be dealing with this in this way, this might be 
preferable. Obviously, the House of Representatives has taken a 
different point of view. That has been applauded by some 
editorial writers. Others have applauded our stance, and some 
have said none of you should touch the whole thing, you should 
stay out of it altogether. There may be still other points of 
view. But what would your points of view be? Speaker Gingrich, 
do you have a thought, having raised this constitutional issue?
    Mr. Gingrich. Well, if you don't mind, I think we would be 
more comfortable if we would talk as individuals, and we're not 
necessarily representing the task force's unanimous view, and 
we may even have some nuances of--from my perspective, and I 
think--and you've lived through this in your own career. We are 
now entering a very important evolutionary stage of our 
constitutional process. I mean our Founding Fathers wanted to 
avoid dictatorship, and their method of doing was to invent a 
machine so inefficient that no dictator could force it to work.
    The Chairman. Checks and balances.
    Mr. Gingrich. And the checks and balances really do spread 
money and power in ways that are very complicated. And I don't 
know that we've thought through, despite all the efforts to 
make sure the executive branch reforms. I don't know that we've 
always thought through how the legislative branch also has some 
challenges in keeping up with a real-time 21st-century 
information age. So let me just make my brief observations. 
First, I think that the Hyde bill, as a statement by the House, 
is a useful signal to the world about how fed up honest 
Americans are with paying taxes for a system that, as Senator 
Mitchell just pointed out, couldn't effectively implement Oil-
For-Food, and literally couldn't. It doesn't have the 
mechanisms.
    On the other hand, I would think that the President would 
be very protective of the ability to negotiate with flexibility 
and to not be trapped into an automatic mechanism. And I think 
that that's a legitimate distinction between the two branches.
    My personal belief is, that first of all, we have to have 
very strong leverage at two levels from the legislative branch. 
One leverage is with 120 nations that together pay less than 1 
percent. They have no natural interest in reform. And they have 
every interest in a patronage system version of personnel that 
is destructive. And so there's got to be a fair amount of 
pressure to get them to change.
    The legislative branch, it seems to me, has a second 
interest. Which is how do you keep the executive branch's feet 
to the fire. And there, I think I come down, if you will, half 
way between doing nothing, and doing as much as the Hyde bill 
will do, and my recommendation would be, that the Congress 
pass, and I submit it as part of my testimony. This is at a 
personal level, not the task force document, but I submitted an 
appendix that's kind of an example of what a U.N. reform 
scorecard would look like.
    Senator Biden was very generous in saying, I quote: ``We 
should stick closely to your recommendations.'' Something which 
was certainly--I listen to with great fondness. But I think the 
trick is to be able to say, so how a year from now do we know 
whether or not we're getting there, what's left undone, what's 
changed since then. And my recommendation would be to look at 
some kind of probably report language that is literally a check 
list. And to say in the legislation, we fully expect State to 
report back next year. We fully expect both branchs of the 
House and Senate to have hearings on the check list, and that 
we give the President, as you do, the authority to withhold 
money if he decides that useful and effective.
    But I would also say that we require of the President that 
he report the circumstances under which he didn't waive it, and 
under which he waived. Is he not withholding because he got it 
done. Is it not withholding because he's getting closer to 
getting it done. I mean, what is it we Americans should expect 
from our Government in what is inherently a multilateral 
environment where our leverage isn't 100 percent. So I think 
some kind of middle ground, in which we are raising the ante on 
the United Nations we are serving notice on the State 
Department, but we're also recognizing the President's 
legitimate interest and flexibility, I think is useful.
    And finally, I actually--I agree this is going to get us 
both in trouble, Senator Biden. I agree with some of Senator 
Biden's comments which is, if you lead with withholding, you 
make that the fight. If you reluctantly have withholding which 
annually is an option of the Congress under appropriations, if 
you serve notice that we're going to demand reform and that 
that is an ultimate option, I think you're actually in a 
stronger position than to lead with that as a mandatory fight 
in New York.
    Senator Mitchell. Mr. Chairman, we're very grateful and 
flattered that our report has been so well received. Senator 
Coleman referred to it as a template. And I, personally, 
strongly support your legislation in most respects. However, 
with respect to withholding, I've had the opportunity this 
morning to review Ambassador Burns statement in which he will 
shortly express the Bush administration's strong opposition to 
the withholding of dues. As you will know, Mr. Chairman, and 
other members of the committee, from my previous public 
statements, including our very recent testimony in the House, I 
share the administration's view on this issue.
    In the past, the United States used withholding to change 
the structure of U.N. dues. It was a money only issue. There 
has been, ever since, an unresolved debate as to whether, and 
if so how much, withholding dues actually helped in that 
effort. I believe that withholding payments to bring about 
structural and policy reforms of the number and complexity that 
are at issue here is an entirely different and much more 
complex matter.
    I conclude that the negative consequences to the United 
States would outweigh any benefits. I recognize that your bill 
makes withholding discretionary by the President, and, in my 
view, that is certainly far preferable to the mandatory 
provisions of the House bill. On the broader issue, Mr. 
Chairman, if I might say, there is obviously an inevitable 
tension between the legislative and executive branches that was 
intended by the Framers as a way of distributing power. I think 
the Speaker and I have a legislative bias, as I'm sure many of 
you do; but, as you correctly pointed out, there's only one 
President at a time, there's only one Secretary of State at a 
time. I think that it is possible to achieve a constructive 
tension, preserving an important role for the legislative 
branch while not tying the hands of a President and Secretary 
of State. And I believe that the mandatory withholding would 
effectively tie a President's hands in a way that would be 
counterproductive for U.S. policy.
    Mr. Chairman. Well, thank you very much. I'm going to 
recognize Senator Biden. The vote has started, and the Senator 
may proceed, if he wishes, and recognize whoever happens to be 
here in the event that I have not returned. But that way we 
will continue our questioning and utilize our witnesses' time 
better.
    Senator Biden [presiding]. Thank you, Mr. Chairman. 
Gentlemen, I think this is a tough call. And I think, quite 
frankly, the way to put this Rubik Cube together, and I'd like 
you to respond to it, is that this is again going to continue 
to hurt us both. It seems to me that we should kick the can 
down the road here, and have in this reform legislation, 
benchmarks and expectations of specific reporting requirements 
from the President of the United States, within the calendar 
year, or whatever criteria we set. And then seek a 
recommendation, a policy recommendation in the legislation from 
the President, at the time that the reporting takes place. For 
example, set out the benchmarks, that I think we should base on 
your report, based on a growing consensus here. We should lay 
out in some detail the prescriptions that we expect the 
administration to attend to, within a timeframe that we think 
is reasonable. That's totally within our constitutional 
capability. We have the authority to do that. But shouldn't add 
the ending sentence, that ``we will withhold unless you waive, 
Mr. President.'' I have--and I know you both do as well--scars 
on my back, politically speaking, from the numerous meetings at 
the United Nations and with Foreign Ministers and heads of 
state around the world, over this issue, from what would always 
start off with a nice way of saying ``you all are arrogant.'' 
We'd never get to the question of reform. We spent all the time 
talking about whether or not it was in the spirit of the 
charter, for us to set conditions for the U.N. members to 
follow in order for us to pay our dues. And you all know our 
dues are more than our dues. Our dues are peacekeeping, and so 
on.
    I'd like you to respond to the idea of further splitting 
this issue. Take out any reference to withholding in the report 
language. State that we will reconsider the question of 
withholding, but let the President have the authority, 
unfettered by having to explain whether or not he's being 
unilateral, he's being arrogant, whether there's a veiled 
threat in the legislation that he has to attend to. We should 
lay out with some specificity, the areas, not unlike the areas 
you lay out in the report, that we expect the President to be 
able to move on, and to give us an explanation of what he was 
unable to, or did not, do.
    Mr. Speaker, and Senator, you guys are right. You've been 
here, and you were here a long time. This is hard slogging for 
Presidents. And as much as they want to do it, it almost always 
ends up as the bottom priority. In all of the other things that 
are important, they always have an Assistant or an Under 
Secretary of State, or Defense coming in and saying, whoa, 
whoa, whoa, wait a minute, wait a minute. We have to deal with 
this, or that, or this. What do you think of this sort of 
generic approach? I'm not looking for a compromise to get it 
passed. I'm looking for an approach that gets us out of the 
debate. I don't know how many times you had to listen to--and 
go through the whole thing about whether or not, because we're 
the only superpower in the world, our arrogance is 
overwhelming; to get into debates that had nothing to do with 
reform and allow them to avoid any discussion of 
responsibilities. That's my observation and somewhat of a 
question. I invite your response.
    Mr. Gingrich. Well, let me say first of all, I think you're 
asking a very important question. But I think you partially 
answered it with your own comment that it always somehow slides 
off the table as value. The tension that I think is inherent 
here is, you know, the United Nations didn't get to be the 
current mess by itself. And I think this is--the United Nations 
didn't get to be a current mess, and then one morning the State 
Department discovered we were members. Or the United Nations 
didn't get to be a current mess, and suddenly the President 
discovered that it's in New York. I mean we have had a long 
stretch of the United States, essentially practicing benign 
neglect. And this has been a bipartisan desire, because it's a 
pain in the neck and it's hard and it's difficult and there are 
so many other issues to worry about, et cetera. I mean you're 
more of an expert on this than I am. You've been in more of 
these rooms than I have.
    So part of what we're wrestling with, and as I said 
earlier, I think Senator Mitchell and I may not totally agree 
on this, but I'll give you my observation. First of all, I 
think it's totally legitimate to say to a multilateral 
organization you have to earn the money. Explain to me why the 
people of my country should be paying this. And that's not 
being arrogant or presumptive, it's just saying--it's going to 
be a huge problem with the Japanese if we don't figure out some 
solution on the Security Council. Because they're the second 
biggest payer. And they're going to sit and say, wait a second 
how come I'm doing all this--you know, explain to me again your 
120 countries that collectively----
    Senator Biden. If you'll yield on that point. One of my 
concerns is, if we put this condition in, the Japanese will put 
in a condition saying, unless we are----
    Mr. Gingrich. Right.
    Senator Biden [continuing]. Members of the United Nations, 
we're withholding our dues. I think that's a fight. That's a 
series of fights we should try to kick down the road. You know 
politics is the art of the possible.
    Mr. Gingrich. Right.
    Senator Biden. And that's one of the main reasons for my 
concerns about withholding.
    Mr. Gingrich. Well, that's why I said I wouldn't. I 
personally would not recommend mandatory withholding or 
automatic withholding. But I think the notion of raising the 
question the way in which the United Nations is run ought to 
have some bearing on what the United Nations gets.
    Because, remember the current committee that sets the 
budget is an utterly irresponsible organization.
    Senator Biden. I agree.
    Mr. Gingrich. There's a real--I'm just saying as 
background. The second point, though, I want to raise, it may 
be a little bit uncomfortable with Secretary Burns right here, 
but I think, hopefully, he will concede this. There has to be 
some legitimate mechanism for the legislative branch to hold 
the executive branch's feet to the fire, and part of the reason 
that I asked our team to generate this appendix of a checklist, 
is to begin to try to get it down to real things you can check 
off. I think because, otherwise, what happens is, we have five 
reform meetings. We all agree we love reform. We'd really like 
to have reform, reform would really be good. And then you find 
a year from now, you're in the same institution.
    I want to add one other piece of the triptych where you're 
coming from, I think. And it's something I think you and 
Senator Lugar would have a unique ability to help develop. I 
think we've got to look at how does our legislative branch 
reach out more effectively and more regularly. Both to the 
United Nations but also to the other democracies' legislative 
branches so that there's a more consistent dialog. I think we 
need less negotiating and more dialog. And I think that in this 
modern age, we are--we have not yet caught up with rethinking 
how legislators relate to legislators without getting involved 
in violations of the executive branch's control over foreign 
policy. But we need to build a consensus among all the 
democracies, remember that the top aid democracies pay 78 
percent of the budget. If they collectively were bringing 
pressure to bear, we'd be dramatically closer to serious reform 
than we are right now.
    Senator Biden. I agree with you. George, did you have 
comment?
    Senator Mitchell. I'll just make two comments on the 
subject. The Speaker just said the eight democracies, I think 
it was, provide 78 percent of the budget and as you and the 
Speaker have already noted, if we say here is our list of 
reforms, if you don't adopt them we will withhold, what is to 
stop Japan, Germany, the United Kingdom, and others from 
presenting their list of reforms, and if they're not adopted 
they will withhold. It seems to me there is a very dangerous 
potential there all the way around.
    You commented on the reactions of other officials. The 
Speaker and I, and other members of the task force, met with 
dozens and dozens of officials of other countries and U.N. 
officials. Significantly, not a single one said to us, there's 
no problem here; go home. Without exception, uniformly, they 
acknowledged a serious problem, they expressed a serious 
intention to reform and they said--we believe sincerely at the 
time, this is before we issued our report--that they look 
forward to our report and to working with us.
    The usual reform effort requires a substantial early period 
in persuading people that reform is necessary; that's not 
necessary here. Second, Senator Biden, more directly to your 
point. In the many meetings I had, there was a yearning for 
American leadership. A desire for what they hoped would be a 
constructive approach by the United States to lead them, other 
nations and the United Nations, itself, out of the difficulties 
that now exist to create a more effective United Nations. As I 
said in my opening statement, we don't speak for, or to, 
anybody other than Americans, but we think most countries and 
people around the world share the same values, aspirations and 
goals, or at least many do.
    Senator Biden. I agree.
    Senator Mitchell. So, I don't think that withholding helps. 
This is a personal opinion; I think it is counterproductive and 
I think we can do much more with a positive incentive-based 
approach to the issue.
    Senator Biden. One of the things, and I realize time is up 
and the vote time is up, and I don't have nearly as sympathetic 
a majority leader to hold the vote for me as I used to in the 
old days, so I'm going to have to go. But I'd like to make two 
very quick comments. The--the first question is: Influence 
whom? There's two groups that we're trying to influence. We're 
trying to influence the members of the United Nations. And 
we're trying to influence the administration. It seems to me, 
that our legislative responsibility as just conception under 
the Constitution is in the checks and balances. We don't do 
foreign policy separately. We do it through influencing the 
Executive. We have a right to. The Executive has its job and 
influence in foreign policy, it is the single arbiter and 
negotiator with the United Nations.
    It seems to me, to overstate the point, that if we wanted 
to deal with influence by withholding moneys, without getting 
the other seven countries who pay 78 percent of the U.N. dues 
with us, really upset, we could withhold moneys from the 
Executive. I'm going to overstate it; Nick'll die. We could 
say, unless these reforms take place, we're withholding money 
for the State Department. That would be conceptually--I'm 
following into the constitutional law professor mold here--that 
would be conceptually the appropriate mechanism for us to use, 
in the tools made available to Congress under the Constitution 
on the use of money. That is more direct.
    So there may be a way to do that without engaging the 
British Parliament or the Prime Minister of Japan. The second 
point is, my experience with Senator Mitchell, is that 120 
countries pay 1 percent; 8 pay 78 percent. The 8 agree on 90 
percent of the specific reforms. But there are differences 
among the eight on what the other 10 percent should be, so if 
we lay down, we're withholding unless you adopt reforms, not 
reform generically, but the reforms we want, it seems to me it 
puts us into a circumstance that makes it totally legitimate 
for the other seven to say, hey wait, Jack, you're not telling 
me what to do. You're not going to threaten me on this, and we 
end up dividing the very people we need to isolate the 120. And 
so I would hope that--I know of no one more ingenious that the 
two of you--you could give us, on the side, some suggestions 
about how we can keep the lever on the administration without 
communicating to the world that we're insisting on our dollar 
for dollar--whatever we produce--the administration produces, 
reform for reform. I have to go vote. I thank you very much, 
both of you. And I really did mean what I said.
    Senator Mitchell. Thank you, Senator Biden.
    The Chairman [presiding]. Thank you, Senator Biden. Senator 
Obama, you are the survivor here, and, therefore, this is your 
time for questions.
    Senator Obama. Well, I appreciate that very much. 
Gentlemen, thank you so much for taking the time to be here. 
Let me just preface this remark by saying it's hard to find two 
more accomplished people to work on such an important issue and 
the report that the two of you were able to put together, I 
think, has uniformly received accolades and people are very 
impressed with it.
    So I want to appreciate both of you taking the time to do 
this. As it turned out I was in New York this Friday visiting 
with the United Nations. Mostly focused on the situation in 
Darfur, but inevitably also ended up talking about U.N. reform. 
And one of the things that I was struck by, was the degree of 
awareness that change does need to take place. I mean I got a 
genuine impression that folks recognize that business as usual 
is not going to be acceptable. And I think that the report that 
you issued helped keep people's feet to the fire on this.
    One of the questions I guess that I'm trying to figure out 
is how, based on what you seen, we can change the behavior, not 
just to the U.N. bureaucracy, but also incentivize the member 
states to empower the Secretary General and others to carry out 
these reforms. Because what I was struck by, was the--that the 
lack of power and accountability derives in part from the 
member states being very interested in keeping that bureaucracy 
weak and protecting their own pejoratives and parcels of power 
and I'm wondering what you think, whether through the State 
Department, or other agencies we can be doing things--give the 
member states, a sense that change is useful?
    Senator Mitchell. Senator Obama, you have correctly 
identified a major obstacle to significant reform. I believe 
that nations, like individuals, act out of self-interest. And 
there is clearly a vast self-interest in perpetuating a system 
in which there is not anything remotely resembling reasonable 
balance between investment and benefit.
    And with respect to personnel policies, it's especially 
pronounced. Like many other institutions, including our own 
government, the United Nations tries to strike a balance 
between quality and some form of patronage for members. 
Unfortunately, the quality has really not been a factor and now 
it's the distribution that is the paramount consideration; it 
has led to what I believe to be a withering of the U.N.'s 
reputation in terms of quality and ability.
    I believe that there has to be an all-out effort by the 
United States, this issue was discussed previously, and we must 
do our best to persuade as many members of the General Assembly 
that an effective United Nations is in their interests and it 
cannot be effective if it continues in the manner that now 
exists. Hopefully, the General Assembly will participate in the 
preservation of an institution that gives smaller nations a 
forum that would otherwise not exist. A place in which they can 
appear as relative equals to the larger nations, an opportunity 
to have their concerns heard, all of that will, in my judgment, 
not exist if the United Nations does not reform itself.
    So I think it has to be a case based on their self-
interest, and they have a larger self-interest than in seeing 
that some former official in their government gets a job at the 
United Nations where, as the Speaker rightly noted, he can't be 
fired no matter what he does.
    Senator Obama. Just to follow up on that, I guess. Do you 
think that within our administration, when we're having 
bilateral talks with some of these smaller nations, is this 
something that we're bringing up sufficiently. My impression 
is, that if you talk to folks who are currently within the 
United Nations you know the permanent representative or what 
have you, they may have more of a vested interest than if 
you're talking to their Foreign Minister, or the head of state 
when they come to visit. Do you think that we're using our 
leverage--or should we bring up these issues as part of our 
broader conversation with these countries?
    Senator Mitchell. I'm not knowledgeable enough to answer 
the question, specifically, about how and whether we're using 
our leverage. But I do know this, it's the problem that the 
Speaker addressed earlier, that Senator Biden addressed, it's 
one of establishing priorities. The administration is beset 
with a large number of issues. You have an immediate problem 
which requires help and a vote from someone and you defer 
action on the broader, more general policy issues.
    We see it every day. We have a policy of advancing 
democracy around the world. But on specific issues, in dire 
circumstances, we cooperate effectively with nondemocracies to 
advance a more immediate, higher priority item, thereby 
deferring action on the broader issue of promoting democracy 
and the rule of law and so forth. It's very hard to bring into 
synchronization your broader policy objectives and the 
immediate needs in the specific situation. We try in our report 
to emphasize the importance to our government, and our people, 
and our national interest, in making this a high-priority 
approach with a comprehensive plan and perseverance and 
consistency across administrations, including the Congress.
    Senator Obama. Mr. Speaker.
    Mr. Gingrich. Thank you, Senator, and I think your question 
goes to the heart of our challenge. The title of our report, 
very deliberately, is ``American Interests in U.N. Reform.'' 
Because we do think that it's important for the American people 
to understand, this is partly in response to something Chairman 
Lugar had said earlier, that there's a profound reason to be in 
the United Nations because it is in our interests.
    This is not something we just do out of altruism but 
because we have felt as a country for 60 years now that an 
effective United Nations makes it safer and better for America 
and the world. But I think that we consistently understate how 
truly different the United States is from much of the world.
    We believe in freedom and the rule of law, as you know 
there are many members in the United Nations that are 
dictatorship, some of the most repressive and antihuman kind. 
We believe in a system of accountability, transparency, and 
competence. As you know the United Nations has a personnel 
system that has used nepotism in effect, and favoritism to 
ensure that various governments can place people from back home 
where they want to. And I think, also, if you looked at the 
standard we've set with various commercial scandals in the 
United States in the last decade, and you were to apply those 
standards to the way in which we have tolerated incompetence, 
dishonesty, and inefficiency in New York, it's pretty 
breathtaking--the gap.
    But we should be honest about how big the gap is. We 
believe that Israel has a legitimacy as a democracy and as a 
country, created in part by the United Nations recognition. And 
yet if you watch the scandalous way in which hostility is 
institutionalized and systematized it is clearly a different 
system than we believe in.
    And finally, we think that economic development is 
ultimately based on the rule of law, on private property 
rights, on encouraging people to invest in a free market which 
is radically different than the model of transferring wealth to 
a kleptocratic dictator, so they can then send the money out of 
country to hide it somewhere. Each of these has very powerful 
interest groups that want to keep the old order, and we need to 
enter the process of reform understanding that this is a really 
serious long-term engagement. Its not what will happen between 
now and September.
    I would just say that the State Department has, I think, 
taken a very important step in having Secretary Burns take 
personal--lead responsibility. I think this is the highest 
we've ever elevated the U.N. reform inside the institution of 
the State Department. My hope is that the U.S. Ambassadors and 
190-member countries are going to be told, as a very 
significant part of their bilateral responsibility on a regular 
basis, that they should be communicating our hopes for reform 
in the United Nations.
    I would finally say, and I have really been reading Rudy 
Guiliani's remarkable book on leadership. There's an old rule 
that you get what you inspect, not what you expect. And my 
point would be the tension for the Congress is, how do we 
communicate with executive branch, that we will regularly come 
back and inspect the amount of reform we're getting, and how do 
we get the executive branch then to comfortably communicate to 
other countries not that this is a unilateral American demand, 
but that these are values the American people expect of an 
institution that they belong to, and to which they give not 
just money, but very substantial amounts of diplomatic and 
other support.
    I think you put your finger on it. It's going to be a--it 
is an uphill but not an impossible challenge, and it's going to 
take very consistent institutional leadership by the State 
Department, and by the United States for it to happen.
    The Chairman. Thank you very much, Senator Obama. Let me 
just mention to members, we're on an 8-minute system. And, 
hopefully, members will try to stay within that limit because 
we still have Secretary Burns and we want to hear from him.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Leader Mitchell, 
you and Ambassador Gingrich, high honor to have you both with 
us. You have made a very significant contribution, each of you 
and your task force that has presented to the administration 
and the Congress of the United States, the United Nations, an 
important document.
    I have believed, and continue to believe, that this 
institution is as relevant and important in the 21st century as 
it was 60 years ago when it was formed, and I believe that for 
many reasons. And so your contributions here are particularly 
important at a very transformational time in the world. 
Transformational time for all institutions that were formed 
after World War II whether it was the United Nations, or NATO, 
and every multilateral critically important institution. It 
really structured and framed the second half of the 20th 
century, so we should not be surprised that in a dynamic world, 
institutions will need to adjust and recalibrate to the 
challenges of that new dynamic world. And that does not mean, 
in my opinion, that you discard an organization like the United 
Nations, but, in fact, you make it stronger and better and 
that's what you have attempted to do here in your report and 
the Congress will deal with that as well.
    Here's a general question I'd like each of you to answer. 
And I have not read every page of the report. I've read the 
summary, I've read some of the chapters.
    And as you noted, Speaker Gingrich, in your opening 
comments, you laid out seven specific areas that you all paid 
particular attention to, and I think those seven issues are 
particularly relevant. But my bigger question is this. And it 
also reflects on something you said, Mr. Speaker, as well as 
Leader Mitchell. And I think you said something to the effect 
that the United Nations is a limited body; it can do only so 
much. And I think part of what's happened over the years is 
that we have put too many tasks upon top of this institution 
and laid before it larger and larger responsibilities with 
higher and higher expectations and this body as you noted, Mr. 
Speaker, like any institution, is limited as to what it can do, 
and how far it can go. It cannot address all the problems of 
the world.
    Should we also be looking at a part two in your reform as 
to narrowing the scope of the United Nations mission and 
purpose.
    Speaker Gingrich.
    Mr. Gingrich. Well, I think that we should--and we say this 
in the report, we should consistently be aware that there are 
alternative ways of getting things done. And our attitude to 
the United Nations should be that we're always willing to 
consider doing things through the United Nations. As I 
mentioned earlier, for example, on the responsibility to 
protect, it certainly makes sense to try, first, at the 
Security Council, but to also have served notice that if the 
Security Council, for whatever reason, is incapable of acting 
that that doesn't mean no action. It simply means that there 
are regional organizations, there are, if necessary, ad hoc 
organizations. And I think that, historically, we've used the 
Organization of American States, the Organization of African 
Union, the North Atlantic Treaty Organization, the European 
Union, in a sense is a regional organizing mechanism. NAFTA, in 
a sense, is a regional economic organizing mechanism, and I do 
think--I was trying to write and I don't have this aphorism 
down right, but it's fair to say that multilateral institutions 
expand the pretensions to fill whatever vacuum is available. 
And so you notice recently, that the United Nations got 
together experts from places like Iran and China to announce 
grandly that they're prepared to take over the Internet. Now if 
you watch what Iran and China do to the Internet I can't 
imagine a less plausible kind of multilateralism than that kind 
of agreement. So I think you've got to be aware of the fact 
that the United Nations is an important, but limited 
institution, and it is necessary but not sufficient. I think 
that's as I said earlier, the answer--I remember very well the 
billboards Chairman Lugar was describing, and I think our 
answer to people has to be, there are limited places in which 
the United Nations is truly valuable to America.
    And I had mentioned earlier that our task force was 
entitled ``American Interest in United Nations Reform.'' And we 
approached this from the standpoint of American values, and 
American goals. But we should not ever allow ourselves to be 
told that we are, therefore, limited by the United Nations as 
the only mechanism or the only vehicle that can achieve things.
    Senator Hagel. Go ahead, Senator Mitchell.
    Senator Mitchell. I'll try to be brief. I believe that the 
importance of U.N. reform at this time, and the attendant 
publicity, is directly related to the increased significance of 
the United Nations in recent years. I mentioned earlier that I 
had reviewed Ambassador Burns testimony. In his testimony he 
identifies a dozen circumstances in which the United Nations 
has been called upon to act, or has taken some action. And it 
is precisely that growing importance and the increasing demands 
upon the United Nations which make reform all the more 
necessary.
    I think the first thing that the United Nations must do is 
to do better at what it is doing. That may involve a process of 
setting priorities which reduces the scope of activities, 
although I don't think that should be the first intention. It's 
not going to succeed if it does fewer things, but does them 
under the same structure which will guarantee, I think, lack of 
success; because of the structure, not because of the number or 
areas in which they're involved. So I think the first objective 
ought to be adopt these reforms, or something like them, to 
become a more effective institution. And as a part of--and a 
consequence of that process, determine whether there are some 
areas that you want to discontinue.
    Senator Hagel. Thank you. Is there a focus, a more 
pronounced role that the United Nations can play in the area of 
dealing with counterterrorism. Each nation, obviously, as a 
sovereign nation entity deals with this, but also as you noted, 
both noted in relation to other multilateral institutions that 
are part of combating terrorism, certainly NATO is a good 
example. Are there things that the United Nations could do, or 
should do more completely or more clearly, in the area of 
counterterrorism.
    Senator Mitchell. Emphatically, yes. Beginning with a 
definition of terrorism that can gain universal acceptance, 
which does not now exist. And encouraging and persuading--
helping to persuade others to join in the necessary 
international effort, intelligence, police work, preemption, 
interdiction, and so forth; that is crucial.
    As we point out in our report, there are many nations for 
whom a United Nations seal of approval is important to gaining 
their assent to actions which they might not otherwise agree to 
if asked by a single nation; even a nation as powerful as the 
United States. And so that's true of the war on terrorism, 
counterterrorism efforts, and I think it can be even more true 
there, because it's so critical to everyone concerned.
    Mr. Gingrich. I think this is actually a good illustration 
of why it's so complicated. The United Nations, 4 years after 
September 11, and then after--well over a quarter of a century 
of international terrorism, still cannot bring itself to a 
simple clear distinct condemnation of terrorism. And I think 
that's a very significant example of why the United Nations is 
a limited institution in terms of people expecting primary 
activity, such as self-defense, or effectively waging a war on 
terrorism. But to the degree that we can establish a sound 
basis within the United Nations for collaboration across 
international borders to hunt down and defeat terrorists, I 
think that is an advantage and something worth the United 
States pursuing.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I want 
to welcome Senator Mitchell and Congressman Gingrich before us, 
and thank them very much for the work they did with the task 
force. I had a chance to talk with Ambassador Eliasson before 
he left to become the President of the General Assembly for the 
forthcoming session. Of course he's had extensive experience at 
the United Nations, both on a country basis and as part of the 
U.N. Secretariat, and he is very strongly committed to a reform 
agenda. It is clearly a prime goal for him in assuming this 
Presidency for the coming year.
    I'm concerned about the efforts in the Congress now to, in 
effect, tell the United Nations, here's what you must do, and 
if you fail to do it, or if you don't carry this through, then 
either we're going to withhold our dues, or have some other 
form of punishment.
    It just strikes me that at a time when the United Nations 
seems to be open and receptive to the idea of reform, when a 
number of leaders there seem very much committed to it; this 
approach carries a very high risk of being counterproductive. 
It may end up provoking the very attitudes we don't want to see 
develop.
    I've been through the previous fight over withholding dues. 
I actually was very much opposed to withholding our dues, 
because it didn't seem to me the way to go about trying to 
accomplish the results we were seeking. But let me ask you: 
What is your estimation or evaluation of the impact such 
threats would have? And Senator Mitchell, let me put it to you 
first, because you did such a distinguished job of serving as a 
negotiator in the Irish situation. So many others had attempted 
that, but they weren't really able to move it through. I think 
yours was a superb diplomatic performance on one of the most 
difficult issues. Now it's not yet altogether at closure, but 
it certainly has been in many ways fundamentally transformed, 
and, obviously, you had to work your way through a lot of very 
strongly conflicting interests and intensely held feelings. So 
I ask you: What is the best way to go about trying to achieve 
these reforms which we want to achieve? On many of them there 
seems to be broad agreement. Not all, I mean the future 
composition of Security Council is a difficult and tough issue, 
and, in fact, your commission, as I understand it, did not 
reach a unified conclusion on that issue. And that's, I think, 
understandable, but on many of these other issues, such as 
transparency, management, auditing, and so forth, there is 
broad agreement. What's the best way to try to bring those 
reforms about?
    Senator Mitchell. Senator Sarbanes, in response to an 
earlier question from Senator Lugar, I gave a detailed response 
to that question. I will provide now a summary of that, so as 
not to repeat it in its entirety. I believe that the best 
approach is a positive one which seeks to persuade others that 
it is in their self-interest, as well as ours, to engage in 
reform. I expressed my support for the position to be taken 
shortly by Ambassador Burns, on behalf of the Bush 
administration, strongly opposing the use of withholding of 
dues.
    You were involved in the prior situation; there was a 
restructuring of the U.N. dues system. Since then there has 
been an unresolved debate as to whether the threat of 
withholding was, or was not, constructive in that effort. That 
was money for money. This issue, involving a wide-ranging 
number of reforms, is much more complex and much more 
difficult, I think, to be susceptible to the threat of 
withholding dues. Therefore I concluded, and stated, that I 
believe the negative consequences to the United States would 
outweigh any benefits, in my judgment.
    Senator Sarbanes. Did you address that earlier as well, Mr. 
Gingrich?
    Mr. Gingrich. Yes, I did. Let me say that I think it's a 
difficult call for a reason that I don't think we spend much 
time on, and that is, if you add up everything wrong with the 
United Nations in the last 3 or 4 years. The sexual predation 
by U.N. peacekeepers, the inability to be effective in saving 
lives in places, Srebeniza, Rwanda, Darfur, the scale of the 
Oil-For-Food scandal, the internal inefficiencies of the 
personnel system, the chief of staff to the Secretary General 
shredding documents for 7 months after sending out an order, no 
document should be shredded. If you list that as a totality and 
try to go back home and explain how the--you know why the 
United Nations automatically deserves a blank check, I think 
it's a really tough mountain to climb. So the question becomes 
for the legislative branch: Given our system of government, how 
do you hold the executive branch's attention without being 
self-destructive? And I characterized earlier that I thought 
the Hyde bill, as the way of sending a signal about how big the 
gap is between American expectations and current behavior in 
the United Nations, was a legitimate vote in the House. It's 
not a bill I would hope comes out of conference. But it sent a 
signal. And a signal, if anything, it's not a bad signal to say 
to people, this is not just fun and games, don't just pawn us 
off for the same old baloney, you better have real change if 
you expect the United States not to start systematically 
changing it's behavior.
    For example, you could consciously decide to create a Human 
Rights Commission totally outside the United Nations. There are 
lots of things you can do to say to the United Nations as a 
mechanism, you're now so limited, so lacking in transparency, 
so ineffective that we're simply not going to rely on you to 
achieve what we believe are multilateral goals. What I 
suggested earlier was that combination of establishing a 
checklist of serious detailed reforms not just pious hopes but 
are these things getting done, having State report on a regular 
basis every year, and reviewing that kind of checklist in 
hearings like this and then giving the President the authority 
to withhold, but also requiring him to explain why he didn't. I 
mean, I think the burden of proof has to be right now, on the 
U.N. system and on the executive branch. Because I do think the 
decay of the United Nations was so dramatic when you add it all 
together it's pretty hard to understand how it got to be this 
bad.
    Senator Sarbanes. Well, I'm committed to a reform agenda, 
but let me pursue that for a moment. If the House Member needs 
to do this in order to be able to handle his constituency when 
he goes back, why isn't it necessary for a Senate Member to do 
it as well? If you take that position then the bill will pass. 
I mean, you said it's good the House passed it, it sends an 
important message, and the Members are able to have that 
presentation, but you said you don't want it to come out of 
conference. But why shouldn't we get the same sort of 
protection, and pass it here, we'll send it on down to the 
President and then the President will be confronted with either 
signing it, or vetoing it. If he vetoes it, we may well pass it 
over his veto. It seems to me, once we start down that path, 
it's a very dangerous path in terms of how we interact with the 
United Nations and how the administration functions.
    Mr. Gingrich. I may have not been clear. I don't think the 
importance of the signal was back home to the American people. 
I think the importance of the signal is to the 120 countries 
that collectively pay less than 1 percent of the U.N. budget. 
And I think it's actually helpful that they're aware that the 
American Congress is unhappy. I think there's a difference, 
whether it's the Senate or the House, there's a difference 
between what one House may pass going into conference, and what 
comes out as a hopefully signable bill coming from conference.
    But the importance of the signal in my mind was to the U.N. 
membership, not to the American people.
    Senator Sarbanes. Well, it seems to me that this signal can 
be sent in other ways, and once you start down this path of 
enacting the legislation, it may well carry all the way 
through. And then you have to confront whether that is going to 
be productive or counterproductive. And seems to me we've been 
through that before, and I have very deep concerns about moving 
down that path. The exercise of U.S. leadership for U.N. reform 
is very important. But there are many ways to do that, and I 
don't think we're in a good posture if we're just kind of 
brandishing the big stick and saying, unless you do these 
things you're going to suffer these punishments. Particularly 
when the reform effort hasn't been given a chance to move 
ahead. I mean they've scheduled a reform summit and there will 
be followup from that. So it seems to me we ought to give that 
an opportunity to work its way through without sort of 
brandishing this sort of club over their heads. Threats don't 
strike me, in the current context at least, as a good way to 
try to negotiate these changes.
    The Chairman. Let me, on that note, recognize Senator 
Coleman.
    Senator Coleman. Thank you very much, Mr. Chairman. First, 
I would like to speak--interject that in our legislation we do 
have in section 11, a reporting requirement. It does--not as 
extensive as your checklist and I want to talk about the 
checklist in a second. But I think we need to do that. I think 
we need to kind of take stock of what we've done. I also have 
to say, Speaker, that I agree with your assessment of the Hyde 
legislation. I think it's a good signal to the United Nations. 
I don't think we're at a point where we really need to be 
laying out a series of preconditions if you do this, then 
automatically, if you don't meet this checklist we're going to 
take away money.
    In fact, I think there is enough incentive out there 
already. I mean everyone knows we got to do reform. I'm 
wondering--and to me actually, this whole--I think the 
discussion about withholding funds is it's kind of been made 
the major focus, but I think it's off center. Essentially, what 
we're really saying, if we get to the point where the President 
of the United States says, we're going to be withholding 50 
percent of our funds, we should probably be at the point where 
we say, we don't need the United Nations. Let us do something 
else. Because what do--I mean I don't think we're provoking 
anything here. We--if the United Nations can't provide a focus 
on combating terrorism, they can end its obsession with Israel, 
if they can't demonstrate an ability to deal with genocide in a 
place like Darfur. If it can't make itself more transparent and 
more accountable, if it can't make itself more effective, are 
there other places to go.
    So ultimately, I think reform has to happen and I don't 
think that judgment, that judgment about do we really need the 
United Nations, something you do with a formula, a mathematical 
formula if you don't do these things here, then you know you're 
over the edge. I do think the Executive has to have some 
discretion. I think we, in Congress, simply have to know, you 
know whether this stuff is happening. But I have to ask you, 
did the committee ever, or did your commission ever discuss 
the--when you talk about the consequences of failure to reform, 
were ever a discussion that says you know, perhaps, the United 
Nations isn't the right vehicle, then, to do the things that we 
need to have done. That there are other vehicles out there, if 
it can't do all these things that the report talks about and 
that we and Congress are talking about?
    Mr. Gingrich. Well, I think the task force clearly, and 
it's listed in our report, clearly states that the United 
Nations is not the only institution, and that the United States 
is never limited from pursuing other venues if appropriate. And 
on the example of the responsibility to protect, we're very 
clear that if the Security Council for some reason, is 
politically blocked and can't be effective, that countries 
which are concerned about genocide or mass murder or other 
such--or massive violations of Human Rights, have other 
legitimate organizing mechanisms. But I don't think we went 
beyond that at this stage. I think our hope is, to sort of 
paraphrase what you just said, our hope is that with our report 
and with the Secretary General's report, and with the 
announcement that Secretary Burns would take a leading role in 
this, that there will be a sufficient effort made that over the 
next year or two we'll see a dramatically better United 
Nations. But we do believe, and we state in here quite clearly, 
that the United States cannot be trapped into, for example, a 
Human Rights Commission that routinely has dictatorships 
dominating the Commission. And I think in that sense, we raise 
the possibility and we try to remind the United Nations that it 
does not have a monopoly on legitimacy in getting things done 
around the world. Although it is a very important and very 
useful institution.
    Senator Mitchell. Senator Coleman, if I could just read two 
sentences from my report, it answers directly and specifically, 
and then I'll make a brief additional comment. We said we are 
struck by the United Nations' own receptivity to needed 
reforms. But they must be real, and must be undertaken 
promptly. An effective United Nations is in the interest of the 
United States, but there is nothing exclusive about the United 
Nations as regards American interest. The United Nations is one 
of the tools that America, our allies, and other democracies 
use cooperatively on the basis of our shared value.
    We also comment in other areas about the history, and in 
overly brief summary, the United States took the lead in 
creating the United Nations because we believed it to be in our 
interest. There were no standards or values at the outset, save 
one: Power. The five permanent members of the Security Council 
were the five nations on the winning side in the Second World 
War. The Soviet Union, then headed by Joseph Stalin, was a 
charter member. China, which shortly thereafter became a 
Communist totalitarian state under Mao Tse-Tung, was a charter 
member.
    Since then, we have tried, the United States and American 
people, to move the United Nations in a direction that will 
both make it more effective and more democratic, because we 
believe there is a relationship between the two. We believe 
that where democracy does well, the United States does well, 
and I think it fair to say that our values are increasingly 
ascendant in the world. There are more nations now in the 
United Nations than there were at the outset; there are many 
more democracies now than there were at the outset.
    While, of course, it is always true that there may be 
circumstances under which we decide that this is a course we no 
longer wish to follow, I think that is highly unlikely. I think 
we will find that it is in our interest to devote our energy 
and effort to encouraging reform of the type that will make it 
both effective in advancing American interest and at the same 
time advancing American values, democracy, free-market 
institutions, protection of human rights and so forth, because 
I think the two go hand in hand.
    Senator Coleman. It is certainly my hopes and the hopes of 
our legislation, and certainly the hopes of the Commission 
that, in fact, we confront the issue of reform, 
institutionally, organizationally, et cetera, and then actually 
do something about it.
    My fear is that there have been lots of reports. And lots 
of studies. I'm a former mayor, transforming organizations is 
really hard. And so you know, this discussion about withholding 
funds, I think there's another issue beyond that. It's not just 
about withholding funds. It's just that a certain point in 
time--do we reach a point in time if there isn't progress, do 
we say there are other vehicles. And I think we have to keep 
that in the back of our mind.
    Speaking to one other issue, and then you can probably 
combine an answer, perhaps, to deal with the two of them. I 
appreciate the strengths of your comments about the obsession 
with Israel, the--I think the report touches upon that somewhat 
more lightly than your prepared comments do. I notice, even in 
your checklist, you don't call for the abolishment of the 
committee rights of the Palestinian people. That's the group, 
by the way, that just recently you mentioned last week, the 
UNESCO conference that put forth, criticized Gaza, Gaza 
withdrawal as a ploy. There's the special information program 
and the question of Palestine, there's a division of 
Palestinian rights, and we don't see that in other areas of the 
world. We don't see that in the problematic areas, we didn't 
see that about Iraq years ago, we don't see it about Darfur, I 
don't believe the checklist calls for that, is there a--can you 
give me a little sense of that background, the committee 
discussion on that Israel. The issue was touched, but it wasn't 
that hard statement. Our legislation does--and I don't think 
it's strong enough either in this area by the way and I would 
say that, that I think we need to strengthen it somewhat, but 
I'd be interested in the committee's reflection on those 
issues.
    Senator Mitchell. I believe that the task force strongly 
endorses the statements made by the speaker, that it is 
inexcusable that Israel is not provided equal treatment in an 
institution that is supposed to be devoted to equality among 
nations and peoples. We strongly support the call that insists 
upon fair and equal treatment for Israel, as one member nation, 
and indeed as a democratic nation and as a strong supporter of 
the United States.
    Mr. Gingrich. I would just say that in the discussions we 
had in the task force, there was, I think, a universal 
agreement on the general principal, but we did not develop it 
into a series of things and it's been in the process of 
starting to develop this much more narrowly checklist kind of 
approach. The only comment I was going to make, Senator, and I 
strongly applaud the leadership you've shown in this area and 
the firmness and directness you've shown. You really have two 
totally different audiences. One is the United Nations, the 
other's the executive branch. And I think as you're thinking 
through whether it's the concept of a checklist or some other 
model, what we were trying to wrestle with, is how do we in our 
complex constitutional system--how do we ensure that the White 
House and the State Department maintain a sense of focus, that 
they have a real sense of outcomes, not just effort. This is 
not just about sincerity, but it's about what do we have to do 
with our 190 Ambassadors at the bilateral relations of members, 
what do we have to do in our relationships in New York. How do 
we systematically and consistently move the ball forward in 
getting real reform.
    And I would just remind everyone, that part of the reason 
you get this frustration is the United Nations didn't get to be 
this of mess overnight. There's been a long gradual slide to 
the problems we now have, and at each stage it's just been sort 
of too hard to deal with, or it's not been as important as 
whatever this year's crisis is. And so we're trying to find a 
way--both for the United States, but also for the other 
democracies--to begin to build a pattern of making U.N. reform 
a significant part of how they deal with their foreign policy 
issues. And I think that's what the legislative branch has to 
think about, is how do we signal and work with our own 
executive branch to get them to then work with the other 
democracies, to then finally get a U.N. reform.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Dodd.
    Senator Dodd. Thanks, Mr. Chairman, and thank both of you 
again for your efforts here. And I'd ask consent, Mr. Chairman, 
that an opening statement be included in the record, if I may.
    The Chairman. It will be included in full.
    [The prepared statement of Senator Dodd follows:]

   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, I would like to thank you for holding this very 
important hearing today. As we all know, it was little over a month 
ago, on June 15, that the Task Force on the United Nations--headed up 
by George Mitchell and Newt Gingrich--issued its very comprehensive 
report entitled ``American Interests and U.N. Reform.'' I would like to 
thank our distinguished panelists for their hard work on this vital 
effort. Their presence here today is, I know, appreciated by every 
member of this body who is interested in real reforms at the United 
Nations. I would also like to welcome Under Secretary Burns again to 
this committee. I trust that his input on behalf of the administration 
will add much to today's discussion.
    We face many challenges in the world--terrorism, rogue regimes, 
nuclear proliferation, the HIV/AIDS crisis, and world hunger--to name 
but a few. These are global challenges. And they require global 
solutions. Dealing with issues that have a worldwide impact is 
precisely why the United Nations was created.
    But much has changed since 1945. The number of member nations has 
increased. We face new threats. And as with any bureaucracy, we have 
encountered problems that need to be fixed.
    In fact, the United States is no stranger to bureaucracies that 
need rewiring. We, here in Congress, spend much of our time dealing 
with these types of problems. We do so because we hope that through our 
efforts, we might create a more perfect union.
    Today, we are talking about the United Nations. And indeed, with 
all the global problems we face, the formation of a more perfect 
international union is one of the most important issues faced by the 
international community. We need an effective United Nations, and U.S. 
leadership on the issue will be critical if we are going to achieve 
that goal.
    So while some would suggest that problems at the United Nations are 
a reason for American disengagement, I couldn't disagree more. Those 
problems, and the interconnected nature of today's world--for good and 
for bad--are exactly the reasons that the United States should become 
more involved in the United Nations and in the process of U.N. reform.
    Who and what are those entities? They are terrorists, drug 
traffickers, and war criminals. They are famine, disease, and 
injustice. Defeating these entities is the reason why it is so 
important that we get this process of reform right.
    With respect to the task force's report, I would make one very 
important point. The report does not make any recommendations that, in 
the task force's view, would require revision of the U.N. Charter. In 
my view, that is as clear a statement as any that the authors of the 
U.N. Charter were on the right track when they wrote that document. 
Indeed, I think that despite all the problems the United Nations faces, 
the foundation on which we have to build is strong. We would do well to 
keep that point in mind as we move forward with the process of U.N. 
reform.
    Again, I would like to thank you for holding this hearing today, 
Mr. Chairman. I know you are very committed to this issue and commend 
you for your efforts. I would also like to thank our distinguished 
witnesses for being here today and I look forward to asking them some 
questions at the appropriate time.

    Senator Dodd. It's very, very helpful, and I, too, like the 
title that you've ascribed to this report, American Interests. 
Which brings me to an opening question. I don't want to--let me 
mention a criticism or two that I find here. Because I think it 
goes to the very heart of the last statement you made, Mr. 
Speaker.
    And that is: How do you get the Congress, the 
administration, and American public to think creatively and 
positively about what needs to be done? I would have liked to 
have seen in this report, at some point, a litany of the things 
that the United Nations has done well. And that's nonexistent 
here. And I think it contributes to the notion that all we ever 
hear is about the problems. And certainly you've enumerated 
them here, you've brought them out in the report, and it's, 
obviously, critically important. This is about reform here, 
what needs to be changed. But I think in terms of our goals as 
you both have recognized, and I think we don't probably do as 
well a job as we should individually, up here, of identifying 
the fact that the existence of this organization, created in 
large part as Senator Mitchell has pointed out, because of U.S. 
leadership at the end of World War II, we have been a direct 
and very significant beneficiary over the last half a century, 
more than half century of this institution's existence. And I 
think it's important as we talk about this, that we from time 
to time remind our constituencies of the gains that have been 
made, of the problems that have been resolved. Just in the 
1990s there have been 40 different peacekeeping missions 
conducted by the United Nations. Not all of them terribly 
successful, but I try to imagine what the world might have 
looked like during the 1990s had there not been a U.N. system 
that allowed us to respond. Successful ones like East Timor and 
Namibia were tremendously helpful. Would we have done it? Would 
the United States have responded alone, would have been able to 
form a coalition necessarily? I can only imagine the political 
problems that would have existed had we tried on our own to do 
these things. Or to build coalitions that would have allowed us 
to achieve those goals. The world health organizations, 
eradicating contagious diseases, today we talk about them in 
historical terms. But they were terribly significant of 
problems that the United Nations was able to grapple with.
    And I think if we did more of that, not to be a Pollyanna, 
not to be naive or to disregard the legitimate criticisms, then 
we might, in fact, build the kind of constituencies with coming 
administrations, present administrations that doesn't give the 
signals--and there's an implicit suggestion that somehow this 
organization is more of a burden than an asset. It doesn't 
really help much. And I think that contributes to the political 
rhetoric that we hear from time to time, that contributes to 
the kind of legislation that, as Senator Sarbanes suggest may 
send a signal there, but it also sends signals here at home. In 
terms of our ability then to collectively do the things 
necessary to strengthen this very, very important institution 
become harder.
    We're fundamentally, in my view, an isolationist country. 
For all the obvious reasons we know, as a nation of immigrants 
our forebearers, by and large, came here because they were 
escaping problems elsewhere. In fact, even at the outset of 
World War II, of course we had to wait until we were attacked 
ourselves before we were willing to respond to our first 
cousins in Europe who were burning as a result of the work of 
the Nazis. And so we're inherently hostile I think to the idea 
of internationalism. That's been a part of our historical 
fabric for a long time. So that's one point I want to raise 
with you if I can and get you to respond.
    Second, it strikes me here, that we're kind of--we're 
talking about reform here, we're kind of moving the blocks 
around a little bit. But it seems to me, if you were to ask me 
to list the problems that they were going to face in the 21st 
century, and none of us have a crystal ball, but what are the 
problems we're facing? Well, clearly things like HIV/AIDS, 
world hunger, a proliferation of weapons, terrorism, Sam 
Huntington's notion of the class of civilizations. The notion 
of the nation states conflict is becoming less of an issue for 
us than it was in the 20th century. And yet this institution 
still seems to sort of react to the nation states issue when, 
in fact, the problems we're going to face here are not really--
there are some nation state issues, but the more compelling 
ones seem to defy the boundaries of nation states. And I didn't 
see suggestions here necessarily, and again I haven't read this 
as thoroughly as I probably should, but the notion that this 
institution has to mature beyond just the reforms necessary to 
really grapple with problems that we never imagined, I think, 
really dealing with at the outset. And I'd be interested in 
your observations about that as well.
    And last, the Security Council itself. I'd spent a good 
part of last evening meeting with the Under Secretary General 
for Peacekeeping Operations, because of the issues in Haiti, 
and with the French Ambassador as well as people of the 
policing operations of the United Nations to find out what's 
going on in Haiti. One of the frustrations I have with the 
peacekeeping operations is the lack of robustness of the 
peacekeeping operations. And I know you've recommended in here 
no permanent military operation, but I'd be interested in how 
the task force reacted on the expansion of the Security 
Council. I've heard what Senator Mitchell's point is on this. I 
didn't hear what yours was, Mr. Speaker, and how the task force 
reacted to the expansion here, and veto power. And is there 
some middle ground, between trying to fashion military response 
teams, on peacekeeping efforts and some more permanent 
operation that would give us a chance to react more precisely 
and more contemporaneously with problems than the present 
problems? I'm frustrated on that Haiti deal. We can't seem to 
get anyone to really lead this effectively in my view, and it 
caused me to raise that issue with you, and let me stop there 
and thank you again.
    Mr. Gingrich. Well, let me say first of all, as one of the 
Senates leading students of foreign policy, you've managed to 
cover a fairly large amount in that process. I will comment 
very briefly. The one place I think I probably most disagree 
with you is, I don't think we are fundamentally an isolationist 
country. I think from 1941 on, we have been a remarkably 
internationalist country. We have American forces across the 
planet, we have American interests across the planet. We've 
founded the United Nations. We were clearly the leading force 
founding it. We have consistently worked to bring together 
people in a variety of things. And I think that we are a 
skeptical country about the limitations of trusting foreign 
governments. But I think that's very different from being 
isolationists.
    And frankly, on that topic, I would also point out anywhere 
on the planet humans are hurting, they have relatives in 
America. And, therefore, we are drawn to be concerned about the 
world in a way that no other country has ever been, because we 
literally have relationships that are universal. And I think 
you see this reflected in Secretary Rice's visit to Sudan and 
to Darfur today.
    Second, I do think we favor, and we are quite clear in our 
report, that we favor potential limitations of nation states. 
We say that there is a responsibility to protect and we go on 
to say that governments which fail to protect in the form of 
genocide, mass murder, or massive human rights violations, 
thereby, risk losing their protection of sovereignty and we 
suggest that there are very strong burdens placed on the rest 
of us to be proactively concerned.
    We also have very specific calls for a much more robust and 
effective peacekeeping. I would be very opposed to trying to 
create a United Nations army. But I am very much in favor of 
the United States working to create effective standby forces at 
the National level whether it's through the organization of 
African Union or in other ways.
    And finally, as I think it may have, Senator Sarbanes, or 
somebody pointed out, we shied away from any final comments on 
the Security Council because we find it as difficult as 
everybody else. I must say at personal level I am sympathetic 
with the notion, that first of all, that Japan should certainly 
be a member of the Security Council permanently. My person--and 
that's the administration position. My personal bias is that 
India almost certainly deserves a permanent seat as the largest 
democracy, and second largest country in the world.
    Beyond that I'm very cautious about permanent seats, but I 
could be comfortable with an expanded Security Council that had 
some arrangement for countries that would serve longer than 
just 2 years. But I think our view was, that was an 
entanglement that was changing regularly, and that it wasn't 
something, that if we were to get--if we had been very specific 
for--many places around the world that would have been the only 
story. And I think by avoiding it we actually got people to 
focus on the reform aspects of our report.
    Senator Dodd. Let me just, before Senator Mitchell 
responds, quickly here. My point about being isolationists was 
where the American public has been. Administrations--the 
Marshall Plan for instance, was one of our great achievements 
to day, the time of it's enactment it took a major effort by 
Senator Vandenberg and others to convince the American public 
this was worthwhile. The American public was not enthusiastic 
about it, as you know--I mean that's the point on the 
isolationists. Leadership has been, I think we've been properly 
involved, but the public itself has always been reluctant. That 
was my point. Senator Mitchell, do you have any comments you 
want to make.
    Senator Mitchell. Senator Dodd, to respond directly to your 
comments, first we accept them as valid, constructive 
criticism, presented in a positive way. We certainly, to the 
extent that we continue in this, we'll keep those in mind and 
attempt to deal with them.
    We do have references to areas in which the United Nations 
is effective, or can be effective, in the very opening chapter; 
indeed on the second page, which the Speaker and I were 
principally involved in drafting, with the help of our aides. 
We list several areas where there is a positive benefit from 
the United Nations.
    With respect to the second point you made about the areas 
of emphasis, when you write a report you never know what's 
going to get attention. And I must say, I frankly have been 
surprised that of the six chapters in our report, which 
includes the opening chapter written by the Speaker and I, and 
then five task groups, that really the one that's gotten the 
most attention, is titled: In Need of Repair, Reforming the 
United Nations. We have lengthy chapters on safeguarding human 
rights and ending genocide, on deterring death destruction, 
catastrophic terrorism, and the proliferation of nuclear 
chemicals and biological weapons, on war and peace, preventing 
any conflicts, and on helping people in poor nations through 
development and humanitarian assistance.
    It just so happens that the chapter on Need of Reform in 
the United Nations has gotten most of the attention, most of 
the questioning, and the others really haven't received what I 
think is the attention they deserve. I hope your comments will 
serve to focus attention on those because they are, in my 
judgment, of critical importance. With respect to the Security 
Council, we did discuss it in the task force, and we did not 
reach agreement. So we stated that frankly. There were a few 
areas where that occurred, and it's explicitly stated in our 
report. The Speaker has expressed his personal view, I 
expressed mine previously, and each member of the task force is 
free to express his or her own.
    The Chairman. Thank you very much, Senator Dodd. We thank 
our distinguished witnesses for your testimony and your 
forthcoming responses to our questions. The Chair would now 
like to recognize R. Nicholas Burns, Under Secretary of 
Political Affairs, the Department of State. Would you please 
proceed to the table? Secretary Burns, thank you for coming, 
thank you for your patience. We've had an extended conversation 
with our first witnesses, and we look forward to visiting with 
you. But first of all, we'd like to hear your testimony. Your 
entire statement will be made a part of the record in full. And 
please proceed as you wish.
    Senator Biden. Mr. Chairman, would you yield to me for 10 
seconds.
    The Chairman. Yes, Senator Biden.
    Senator Biden. Karen Hughes, your administration's nominee 
for a very important post, I'm supposed to meet with at 10:15. 
So, Mr. Secretary, if I leave after your testimony, please 
don't be offended. I'm very much interested in what you have to 
say, and I would like permission to able to submit a couple of 
questions in writing if she's on time. I----
    The Chairman. Permission granted.
    Secretary Burns.

   STATEMENT OF HON. R. NICHOLAS BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Burns. Mr. Chairman, thank you very much. It's a 
pleasure to be here. I found the last 2 hours to be a very 
serious stimulating debate and I enjoyed listening to it. And I 
profited from it, and I thank you, Mr. Chairman, and the rest 
of the members of the committee for the commitment that you're 
giving to the United Nations: An institution that's a great 
value to us, but an institution that's badly in need of reform.
    I have submitted a statement. I will not tax the patience 
of the committee by reading it. May I just say a few things 
that, perhaps, would frame the position of the administration 
on this issue and also respond to some of the points that 
members have already raised?
    First, our administration is committed to U.N. reform. I 
don't believe we need to have our feet held to the fire to pay 
attention to it. Or to try to achieve some of the very notable 
aims that you, Mr. Chairman, and Senator Coleman have put 
forward in your bill, and we agree with many of the--nearly all 
of the reform provisions in your bill. The United Nations is a 
uniquely viable institution, but it is in need of reform. And 
our administration is committed to seeing that reform through. 
We have recently, twice in the last month, sent cables to all 
of our diplomatic missions asking our Ambassadors to see 
Foreign Ministers about the list of reforms that we wish to see 
accomplished by September when the High Level Summit's going to 
be held--President Bush will attend--that's supposed to be 
focusing on the idea of strengthening the United Nations.
    So I just wanted to assure all of you, we are focused on 
this, and we're focused not just on the effort or on rhetoric, 
but actually on results. I also want to reply to Senator 
Dodd's, I think, very strong and good point that we need to 
speak positively of the United Nations. And give credit where 
credit is due.
    In my testimony I list a high number of examples where the 
United Nations has been indispensable. And in this very complex 
globalized world, despite the power of the United States, we 
cannot go it alone. We cannot be unilateral. And we do have to 
work through multilateral institutions; each of them has their 
own strengths, own weaknesses. The United Nations has both. But 
on the positive ledger, if you look at what the United Nations 
has been able to do to organize the elections in Iraq, to frame 
and support the international communities, continued economic 
support for the Government in Afghanistan; if you look at the 
way that the United Nations has paid attention to some 
conflicts where we were not willing to commit troops for very 
good reasons, but in Cote d'Ivoire, in Sierra Leone, in 
Liberia, the United Nations Peacekeeping forces in each of 
those countries has played an indispensable role in trying to 
preserve, under difficult circumstances, peace.
    And I think back to--after the assassination of Rafiq 
Hariri--when it was the United Nations, through U.N. Security 
Council Resolution 1559, that spoke with one voice that 
essentially said to the Syrian Government, ``your 29 years of 
occupation are over.'' And it was a powerful statement. France 
and the United States cosponsored it. And it's that kind of 
role that the United Nations can play best that we ought to 
encourage and we ought to recognize when the United Nations 
does good things. Not least of all, the U.N.'s attention to 
HIV/AIDS to democracy promotion to poverty alleviation--it's 
something that the United Nations can uniquely do that we, as a 
country, are not able to do on our own.
    We think that's important. The next point, I'd like to 
emphasize, is that American leadership is important. We are the 
founding country, we're the host country, we're the leading 
country, we're the largest donor. If we are committed with a 
positive, and sometimes tough agenda, tough-minded agenda, the 
United Nations can be more effective. If we walk away, or we 
withhold funds, and we are very much opposed to that, then 
we're convinced that the United Nations will be less 
successful.
    Now the United Nations has significant flaws, and I would 
just commend Senator Coleman for his leadership in calling the 
United Nations on those flaws. And we've had a chance to meet 
and we very much appreciate the work that he is doing to look 
into the significant deficiencies in New York and the 
Secretariat, in the management, in budget and the 
administration.
    To listen to Chairman Volker and the work that he is doing 
on the Oil-For-Food scandal, where there are further reports 
coming. And we are very, very concerned about the revelations 
on the Oil-For-Food scandal and we hope that people will be 
held accountable for the grievous lack--abuses in that program.
    We look at the peacekeeping scandals, particularly in 
Congo, where soldiers who are supposed to protect innocent 
civilians, turned on them as sexual predators. It was shameful 
and those people need to be held accountable for what they have 
done.
    And finally, I think everyone on your panel, in your 
committee, Mr. Chairman, has agreed that the United Nations 
Commission on Human Rights ought to be abolished. It is 
scandalous that Sudan and Zimbabwe should sit in judgment of 
the United States and Norway, and France, or South Africa--all 
of us democracies--Sudan and Zimbabwe, not being democracies. 
So what we have done in our Government is to ask every U.S. 
Ambassador in the world to focus on U.N. reform, to deliver our 
reform agenda to each capitol of the world.
    Secretary Rice was in the United Nations to see the 
Secretary General a month ago; she put our reform proposal 
before him. I was up in the United Nations yesterday and I 
spent 5 hours there meeting with various regional groupings. I 
met with eight African countries, but also with the 
Secretariat, to say we hope by September the following reforms 
can be enacted.
    First, working with our very fine Under Secretary of 
Management, Chris Burnham, an American citizen who just took 
his job, can we have far-reaching management, budget, and 
administrative forms in the United Nations decided upon by this 
September, in 2 months time?
    Second, can we agree to abolish the Human Rights Commission 
in Geneva and replace it with a smaller, much more 
democratically oriented Human Rights Council, that would 
actually turn its attention not to propagandize individual 
countries' concerns, but to focus on human rights violators and 
to try to have the United Nations be an effective voice for 
change in countries like Zimbabwe and Sudan?
    Third, is to agree to the construction of a peacebuilding 
commission, which would be a vehicle that we've not had over 
the last 10 years. After a conflict has ended, how can the 
United Nations be more effective in organizing international, 
civil, and military reconstruction? It's the type of response 
we did not have after Bosnia, Kosovo, Macedonia, Afghanistan, 
and Iraq, and which we badly--we badly need.
    Fourth, a Democracy Fund has already been created. That was 
President Bush's idea; it was inaugurated on July 4 by 
Secretary General Kofi Annan and the U.S. Government will 
contribute to that fund, designed to spread democracy in the 
world.
    Fifth, can the United States and the other nations agree on 
what we ought to be doing to promote development in the world, 
not the simplistic notion that 0.7 percent of one's GDP is 
sufficient? But in looking at what we can do with trade, with 
NGO activities, with business investment, and with government 
aid to promote real and long-lasting development in the world.
    And finally, counterterrorism. Can we agree on a definition 
of terrorism, and can we have a convention on terrorism that 
would be an effective response by the United Nations to 9/11, 
to the London bombings, and to all the terrorists acts between?
    So that's our agenda for the United Nations. And what's 
ironic, I find, about the discussion this morning in this 
committee, versus the discussions that I had yesterday in New 
York, is that you've all focused, I would say, on a very 
serious way and very substantial way, on the these fundamental 
reforms that must be enacted to shore up an ailing institution.
    But I can tell you 98 percent of the diplomatic oxygen is 
being spent on the U.N. Security Council debate. All of my 
conversations yesterday, when I tried to press this reform 
agenda, came around to the U.N. Security Council debate.
    And Secretary Rice has taken the position with all of her 
interlocutors, and I have as well with mine, that the United 
States does not want to have a vote on expansion of the 
Security Council until we can demonstrate to the Congress and 
the American people that we've actually been effective in 
pushing through these more far-reaching reforms. We can't 
imagine asking the Senate to amend the United Nations Charter 
to enlarge the Security Council, which is what we'd have to do.
    If we came to you and say we want to grow the Security 
Council from 15 to 20, or even 25, and yet we had not taken 
care of the sickness in the institution, I can imagine what the 
response of the Senate would be. And so, I can assure you that 
while we are interested in Security Council reform, and we have 
put forward a proposal for new permanent members, as well as 
nonpermanent members, we are not inclined, we will not agree to 
have a vote, and we will vote against any proposal that comes 
before this major body of reforms is enacted.
    Finally, and my last point, Mr. Chairman, would just be to 
thank you for the attention you've given this issue this 
morning. And thank former Majority Leader Mitchell and former 
Speaker Gingrich for their very good, very serious report. We 
agree with nearly all of the recommendations in it. Secretary 
Rice and I met with both of them and their associates and we're 
very gratified that they spent so much of their time producing 
a report that should be a guide both for the Congress and for 
the administration. Thank you very much.
    [The prepared statement of Secretary R. Nicholas Burns 
follows:]

Prepared Statement of Hon. R. Nicholas Burns, Under Secretary of State 
       for Political Affairs, Department of State, Washington, DC

                              INTRODUCTION
    Chairman Lugar, Senator Biden, distinguished members of the 
committee, I appreciate the invitation to appear before you to discuss 
U.N. reform. U.N. Reform is one of the most important issues facing the 
United States. It is an essential tool for the successful management 
and implementation of U.S. foreign policy. It is fundamental to the 
future effectiveness of the United Nations itself. U.N. reform is one 
of our most pressing priorities. In that regard, we welcome the 
leadership of former Speaker Gingrich and former Majority Leader 
Mitchell in calling for the United Nations to adopt far-reaching 
reforms in the months ahead.

                  WHY WE BELIEVE IN THE UNITED NATIONS
    Since 1945, but especially since the end of the cold war, the 
United Nations has become an important foreign policy tool for the 
United States in our efforts to advance throughout the world the values 
we believe in. We often forget--or underrate--just how critical the 
United Nations has been in helping us to achieve our foreign policy 
goals and objectives. A quick glance at the headlines proves this 
point: Sudan, Iraq, Afghanistan, Iran, North Korea, Haiti, Lebanon, 
Syria, Western Sahara, Congo, Cote d'Ivoire, Liberia. The United 
Nations is important in each of these countries as a peacekeeper, a 
mediator, a unified voice of the global community on very difficult 
issues.
    But the United Nations does not deal just with countries in crisis. 
The United Nations also plays a vital role in addressing the great 
transnational issues that are at the forefront of today's challenges, 
such as HIV/AIDS, tsunami relief, illiteracy, democracy promotion, 
human rights, trafficking in persons, freedom of the media, civil 
aviation, trade, economic development, and the protection of refugees, 
to name but a few. Another good example of the U.N.'s long-term work is 
First Lady Laura Bush serving as Honorary Ambassador for the U.N. 
Decade on Literacy, as UNESCO is developing a literacy initiative 
focused on combating illiteracy through mother-child education.
    The United States and other countries have freely chosen to take 
these very complicated matters before the United Nations. We have done 
so because we know that by working together we can enhance the 
prospects for success. And, in working multilaterally, we share the 
burden financially and in terms of human resources. Our work in the 
United Nations reaffirms our unity of purpose with our allies and 
friends around the world.

                 U.S. LEADERSHIP AT THE UNITED NATIONS
    As the founding country, host country, and most influential member, 
the United States is essential to the success of the United Nations. 
While the United Nations is an indispensable partner to the United 
States in a complex world, it is also true that the United Nations 
cannot function effectively without an interested, focused, and 
committed United States. It is, therefore, vital that the United States 
lead the United Nations, that we have faith in the United Nations, pay 
our dues, promote reform, and contribute to strengthen the United 
Nations for all the many challenges ahead.
    We must help shape the U.N.'s priorities and guide the direction of 
its activities; we must resist initiatives that are against our 
policies; and we must strive to achieve our goals at lower cost to the 
American taxpayer.
    American leadership is essential to promote fundamental American 
and U.N. principles and values:

  <bullet> Through the United Nations, the United States seeks to make 
        the world a safer place, by ensuring nonproliferation; by 
        preventing or deterring terrorism; and by addressing other 
        threats to peace and security, especially regional stability.
  <bullet> Second, we seek to make the world a better place, by 
        promoting human rights and democracy, by advancing economic 
        freedom, good governance, food security, literacy, and 
        development; by improving the coordination and delivery of 
        humanitarian assistance; and by reducing the number and 
        severity of international health threats.

    To those who say that the United Nations is a failed organization 
and that we obtain little in return for our contributions to that body, 
I would point to the following results:

  <bullet> The Security Council has acted to reduce violence in Sudan, 
        Haiti, Liberia, Cote d'Ivoire, and other countries;
  <bullet> In Iraq, U.N. officials played a key role in elections 
        earlier this year and are assisting in the drafting of the new 
        constitution to take effect in January 2006;
  <bullet> Joint United States-French efforts have resulted in Security 
        Council resolutions to force Syria to end its occupation of 
        Lebanon;
  <bullet> Libya signed the Additional Protocol and cooperated in the 
        evacuation of nuclear equipment and materials;
  <bullet> The General Assembly adopted the Nuclear Terrorism 
        Convention;
  <bullet> The Security Council declared terrorist acts unjustifiable 
        and is monitoring the sale of WMD to nonstate entities such as 
        terrorist groups;
  <bullet> The President's proposal for a U.N. Democracy Fund has 
        garnered wide political support, and the Secretary General 
        announced its launch on July 4;
  <bullet> The General Assembly passed a declaration calling for a ban 
        on all forms of human cloning;
  <bullet> A Democracy Caucus has been established in Geneva and New 
        York;
  <bullet> Several key Commission on Human Rights resolutions important 
        to the United States were adopted, while Cuba's Guantanamo 
        resolution was defeated;
  <bullet> We have addressed human trafficking through resolutions in 
        the General Assembly and Commission on the Status of Women, and 
        through a special trafficking protocol to the U.N. Convention 
        on Transnational Organized Crime;
  <bullet> Americans were elected or appointed to a number of key 
        leadership positions at the United Nations.

    Americans can be assured that, in many important areas, the United 
Nations is working well to help bring development, security, and peace 
to the world. The United Nations, however, is far from perfect. In many 
ways, it is an ailing institution badly in need of fundamental and bold 
reforms. The recent Oil-for-Food scandal, the outrageous abuses by some 
U.N. peacekeeping troops in the Congo and management woes at U.N. 
Headquarters are but three examples of problems that must be corrected 
this year. The United States must also lead in this effort.

                        GINGRICH-MITCHELL REPORT
    Mr. Chairman, I'd like to begin discussing the U.S. agenda for U.N. 
reform by first offering a few thoughts on the important work done by 
the Gingrich-Mitchell Commission on U.N. reform. Though I won't go into 
a comprehensive analysis of their report in this forum, I will say that 
we support most of the report's recommendations. They are consistent 
with the administration's views on U.N. Reform. The report rightly 
emphasizes U.S. leadership as a precondition for attaining significant 
reform of the United Nations. We also appreciate the report's emphasis 
on the importance of all states playing a role in the reform process; 
America cannot do this alone.
    We agree that the United Nations needs to give more emphasis to 
good national governance, trade, and to economic growth as the means to 
reducing poverty. As the report recommends, this means applying new 
approaches, such as those pioneered by the Millennium Challenge 
Account, the Monterrey Consensus, and the U.N. Commission on the 
Private Sector and Development.
    On human rights issues, we are in strong agreement that the U.N. 
Commission on Human Rights (UNCHR) should be abolished. Serial human 
rights violators such as Cuba, Zimbabwe, and Sudan are all firmly 
ensconced Commission on Human Rights members, lecturing the membership 
on how to promote and protect human rights when they do not protect the 
rights of their own people. Bloc politics continue to dominate voting 
at the UNCHR, ensuring that any substantive discourse on human rights 
devolves into a political battle. The Office of the High Commissioner 
for Human Rights continues to be woefully underfunded.
    As such, we strongly agree with the report's finding that the 
Commission on Human Rights should be eliminated and replaced with new 
U.N. Human Rights Council. We believe that the Council should have an 
action-oriented mandate, and that its membership should be elected by a 
two-thirds majority and exclude states under U.N. Security Council 
sanctions. We continue to endorse the U.N. Democracy Caucus as a tool 
to help like-minded states from different regions share ideas and 
initiatives on the Commission's reform and the Council's future.
    In keeping with the report's references to reform of peacekeeping 
operations, the United States strongly welcomed the report of Prince 
Zeid Raad Al-Hussein, the Secretary General's special adviser, to 
strengthen the U.N.'s ability to investigate and react firmly to 
allegations of sexual exploitation and abuse. The United States also 
supports the U.N. Secretariat's request to fund additional positions in 
peacekeeping missions to enforce the zero tolerance policy.
    We agree with the report's support for the creation of a 
Peacebuilding Commission. Where the United Nations as an institution is 
concerned, the work on security must be coordinated with all the other 
efforts being undertaken in connection with a particular society; and 
all the other efforts must be coordinated with each other. Better 
coordination among U.N. family entities and with donors, international 
financial institutions and regional partners, as well as taking aboard 
the lessons from the complex U.N. peacekeeping and peace support 
missions of the last 15 years, can help us all do a better job of 
conflict prevention. In the event conflict cannot be avoided, such 
coordination and application of lessons learned can improve our 
collective efforts to assist states to recover from conflict. These 
activities are central to successful discharge of the Security 
Council's primary responsibility for peace and security, and a 
Peacebuilding Commission would be essential in managing these 
processes.
    Regarding the report's recommended 2-year budget cycle for 
peacekeeping operations, we believe most peacekeeping missions benefit 
from annual review of their budget. Two-year budgets for peacekeeping 
missions may not be practical since evolving conditions on the ground 
and lessons over the course of the year can lead to revised mandates 
and budgets.
    The report makes important recommendations on management, budget, 
and administrative reform in the United Nations, notably in the 
Secretariat's work. This is a key area of current U.N. weakness. We are 
pleased by the appointment of an American, former Acting Under 
Secretary of State for Management, Chris Burnham, as U.N. Under 
Secretary General for Management. We support the idea of an oversight 
board. The report also offers very constructive proposals for altering 
the culture of the U.N.'s troubled human resource system.
    Mr. Chairman, we share the strong sentiment in Congress for reform 
of the United Nations. We look forward to working with you and other 
leaders of the Senate to that end. However, we believe that withholding 
U.N. dues is not a constructive way to achieve sweeping U.N. reform, 
and withholding is not a prescription suggested in the Gingrich/
Mitchell report. We believe withholding dues in order to achieve a wide 
array of specific conditions would diminish our effectiveness, and 
would detract from and undermine our efforts to play the leading role 
in reforming the United Nations. It would represent a tremendous 
setback in the reliability and credibility of the United Nations in the 
world.
    The administration objects to the House bill's certification 
requirements which could result in a 50-percent reduction in the U.S.-
assessed contribution to the United Nations. The administration also 
opposes provisions of the bill that purport to require the President to 
direct the Ambassador to the United Nations to take particular actions 
in the Ambassador's dealings with the United Nations. Other provisions 
purport to establish policies for the United States with respect to its 
relations with the United Nations. These provisions impermissibly 
infringe on the President's authority under the Constitution to conduct 
the Nation's foreign affairs. The administration also has a number of 
other objections to the bill. However, we do support many of the 
provisions in the Coleman-Lugar bill. This bill articulates a 
comprehensive set of reforms that are difficult but attainable, and 
gives the administration the necessary flexibility needed to pursue 
reform.

                      U.N. REFORM: WHAT IS NEEDED
    Mr. Chairman, I think we can agree that the United Nations has been 
a useful diplomatic tool over the years. Like any tool, however, 
maintenance and repairs are required to ensure maximum effectiveness.
    As President Bush has said, ``the success of multilateralism is 
measured not merely by following a process, but by achieving results.'' 
For that reason, the United States has long advocated reforms to make 
the United Nations more efficient and effective. In recent years we 
have spearheaded efforts to achieve greater transparency in the 
budgetary process and to increase oversight of U.N. operations to 
prevent fraud, waste, mismanagement, and misconduct. We are proud of a 
number of important advances in these areas, including a resolution 
last December that requires that reports by the Office of Internal 
Oversight Services (OIOS) be made available to any member state upon 
request, and the granting of new authority to the Secretary General to 
move positions between U.N. programs to higher priority areas.
    Clearly, however, U.N. management is still woefully lacking, as 
media reports on the Oil-For-Food and on sexual exploitation by 
peacekeepers scandals have highlighted.
    The momentum for reform has grown in recent months and is now in an 
intense phase. In December 2004, Secretary General Kofi Annan's High-
Level Panel on ``Threats, Challenges, and Change'' issued its report 
with 101 recommendations to modernize the United Nations. In March of 
this year the Secretary General issued his own report entitled ``In 
Larger Freedom: Towards Development, Security and Human Rights for 
All,'' which puts forward more than 200 reform recommendations.
    The United States will support a number of recommendations put 
forward by the Secretary General and his High-Level-Panel, but we are 
also actively pursuing our own reform agenda. We have contacted U.N. 
officials and representatives of other nations to discuss our views and 
have stepped up our efforts for reform in preparation for the Summit in 
New York in September and at the 60th General Assembly this fall. We 
are working assiduously with like-minded countries to seek wide support 
for the reforms we believe are necessary for the United Nations if it 
is to meet the challenges of the 21st century.

                   OUR REFORM AGENDA: U.S. PRIORITIES
    We have outlined six priorities for U.N. reform and are devoting 
considerable time and energy over coming months to win support for our 
proposals. I would like to outline briefly each of them.
Reform Priority No. 1: Budget and Management Reforms
    The United States has consistently pressed the United Nations to 
undertake meaningful management, administrative, and budgetary reforms 
to make it more efficient, effective, and responsive. Budgetary 
discipline, accountability, and program relevancy are critical to these 
goals. We believe that the Secretary General devoted too little time to 
these issues in his proposals for the High Level Event. A number of 
member states agree with us that it needs to be more broadly addressed 
in the Outcome Document for the September summit. In particular, for 
accountability, we want to boost the resources and independence of the 
Office of Internal Oversight Services, and an expanding role for this 
Office in peacekeeping and small agencies. For effectiveness, we seek 
consolidation of U.N. Information Centers, and rationalization of 
conferences. To boost relevance, the Secretary General's authority to 
redeploy positions should be used and expanded, and all ongoing U.N. 
programs should be reviewed for continued relevancy and effectiveness.
Reform Priority No. 2: Effective Human Rights Mechanism
    We must reorganize the way the United Nations works to protect 
Human Rights throughout the world. The United States supports the 
creation of a U.N. mechanism such as the Human Rights Council proposed 
by the Secretary General to address more effectively the most serious 
human rights situations. We also believe that the Council's mandate 
should be to take effective action to address the most egregious human 
rights violations such as systematic torture or wide-scale deprivation 
of freedom of expression and assembly.
    In regard to structure, we support a standing, action-oriented 
Council that downplays thematic resolutions. We also believe the 
Council should be a General Assembly subsidiary, pending a decision 
whether to create a stand-alone charter body, because it would be 
easier and faster to implement. The membership should be limited--20 is 
ideal--and exclude nations under Security Council sanctions. Seats 
would be filled through elections to 2-year terms with regional 
allocations.
    Members of the Council should have a solid human rights record and 
states would have to secure a two-thirds vote to be elected. Countries 
subject to Security Council sanctions or an UNSC-authored Commission of 
Inquiry would be ineligible. Elected Council members should affirm they 
will live up to the standards of the Universal Declaration on Human 
Rights.
Reform Priority No. 3: Creation of a Peacebuilding Commission
    We need a Peacebuilding Commission to provide recommendations on 
post-conflict situations and on bridging between peacekeeping missions, 
reconstruction, and stabilization efforts. A Peacebuilding Commission 
should be set up to work in an advisory capacity to the Security 
Council on specific conflict situations as requested by the Council. 
The Commission's tasks would also include serving as a focal point for 
donor coordination. We believe participation in the core Commission 
should be limited to about 20 members and should include the five 
permanent Security Council members, five major donor nations, three 
major troop contributors, five representatives of ECOSOC, the World 
Bank, and IMF; and a U.N. system representative selected by the 
Secretary General. The Commission would provide advice to the Security 
Council on a consensus basis.
Reform Priority No. 4: Economic Development
    Building on the 2002 Monterrey Conference on Financing for 
Development our approach emphasizes national responsibility, rule of 
law, governments accountable to the people, and sound economic 
policies. Such an enabling framework for development provides the 
essential context necessary for countries to make effective use of all 
available resources, public and private, foreign and domestic.
    The United States has an excellent story to tell on development. 
The United States led the push for the ambitious ``Doha Round'' of 
trade liberalization. At Monterrey, the United States also joined other 
countries in agreeing to provide more aid to support developing 
countries that are improving their institutions and policies. We have 
increased official development assistance by 90 percent since 2000, 
nearly tripled aid to Africa during the same period, established the 
Millennium Challenge Account, and led donor funding in the fight 
against HIV/AIDS. We cannot and should not endorse aid targets, but 
need not object to commitments made by others to such targets.
    We are underscoring the importance the President attaches to ending 
poverty by promoting political and economic freedom, and emphasizing 
our leadership on key issues (the MCA, HIV/AIDS, women's issues) where 
aid can be effectively applied.
    Most recently, at the G-8 Summit in Gleneagles we made a historic 
commitment to Africa and African nations, agreeing among other things 
to debt relief for qualifying heavily indebted poor countries, scaling 
up the fight against malaria, increasing our funding of the African 
Education Initiative and our support for women. We will again double 
assistance to Africa between 2004 and 2010. In addition, consistent 
with the President's policy, the G-8 agreed that development requires 
not just aid, but better governance, stability, and peace in order for 
the private sector to grow and create jobs.
    The United Nations can make its greatest contribution to 
development by helping its members make and implement the right choices 
about how to build democratic states with market economies.
Reform Priority No. 5: Democracy Fund
    At last year's General Assembly, President Bush called for the 
establishment of a U.N. Democracy Fund and we have worked diligently 
with the U.N. Secretariat and other interested member states to make 
this initiative a reality. The Democracy Fund will provide grants and 
in-kind assistance for democracy promotion efforts to expand the reach 
of freedom around the world. Several other nations, including India, 
Hungary, and South Korea have expressed support for the fund. Allies 
such as the United Kingdom and France have signed on and intend to 
contribute. Secretary General Annan highlighted the idea in his report 
``In Larger Freedom,'' issued proposed Terms of Reference, and on July 
4 at the African Union Summit announced its establishment. We have 
requested $10 million for the Democracy Fund in the FY06 budget, and we 
are seeking FY05 moneys to reprogram for the fund.
Reform Priority No. 6: Counterterrorism
    We are in broad agreement with the counterterrorism strategy 
proposed by the Secretary General, but do not agree with all its 
elements. Regarding a definition of terrorism, the United States 
welcomes the position, contained in the Secretary General's report, 
that the right to resist occupation does not justify the targeting and 
killing of civilians. We do not, however, want the effort to come to 
agreement on a definition of terrorism to distract from the more 
important task of moving forward on completion of the Comprehensive 
Convention on International Terrorism.

                        SECURITY COUNCIL REFORM
    Finally, Mr. Chairman, I would like to say a few words about 
Security Council reform.
    Many nations have expressed the view that the Security Council, the 
United Nations most powerful body, should be enlarged from its current 
composition of 5 permanent members and 10 nonpermanent members to 
become more representative of today's world. We have stated 
consistently that while we are open to considering expansion proposals, 
the primary purpose of Security Council reform should be to make the 
Council more effective.
    The Secretary General's Panel of Eminent Persons did not endorse a 
specific plan on this highly charged issue but proposed instead two 
options: (1) Increasing the number of both permanent and nonpermanent 
members; or (2) enlarging the Council with new nonpermanent members 
only, albeit with a new category of nonpermanent membership that has a 
longer term than the current 2-year term and which allows members to 
run for reelection.
    Japan, Germany, Brazil, and India, known as the Group of Four or G-
4, have put forward an enlargement proposal based on the first option 
that would give them, together with two African nations, permanent 
seats. The G-4 has indicated that they would like to have a vote by the 
General Assembly on the resolution in the coming weeks.
    This G-4 proposal would need to receive a ``yes'' vote of two-
thirds of U.N. members if it is to move to the next phases, the 
selection of the new permanent members, and the adoption of a 
resolution for amending the United Nations. Charter, with ratification 
of the amendment by two-thirds of U.N. membership, including 
ratification by all permanent Security Council members. For the United 
States, this would require Senate advice and consent. The G-4 proposal 
is opposed by a number of countries, including the United States. We do 
not think it is timely to support any proposal until broader consensus 
is reached. Recently, other proposals for Security Council reform have 
been put forward, including one by the African Union.
    We have engaged in a dialogue with the G-4 and with the other 
permanent members of the Security Council. I met personally with my 
counterparts from both groups. We continue our strong support for a 
permanent seat for Japan; have expressed our openness to Security 
Council expansion, and proposed our own criteria-based approach as a 
constructive way to measure a country's readiness for a permanent seat. 
Such criteria could include: GDP, population, military capacity, 
contributions to peacekeeping, commitment to democracy and human 
rights, financial contributions to the United Nations, nonproliferation 
and counterterrorism record, and geographic balance. We have said that 
we can support adding two or so new permanent members based on those 
criteria. In addition, we would endorse the addition of two or three 
additional nonpermanent seats, based on geographic selection, to expand 
the Council to 19 or 20.
    We feel that the G-4 resolution is highly divisive. Obtaining wide 
support for Security Council reform is critical if the reform is to 
succeed in revitalizing the United Nations. Clearly, as well, a 
resolution that enjoys a broad base of support stands a better chance 
of General Assembly adoption.
    We also want our friends to understand that while Security Council 
reform is an important issue, we cannot let discussion on expansion 
divert our attention from, and delay action on, other important, more 
urgently needed U.N. reforms. It is our conviction that no single area 
of reform should be addressed to the exclusion of others. The Secretary 
has communicated this to U.N. Secretary General Annan and to her 
counterparts.
    As such, we do not think any proposal to expand the Security 
Council--including one based on our own ideas--should be voted upon at 
this stage. If the G-4 puts its resolution for a vote, we will vote 
against it and are urging others to do the same.

                                CLOSING
    In closing, Mr. Chairman, I would like to underscore that United 
Nations reform is a very high priority for Secretary Rice and for this 
administration. The United Nations has been, and continues to be, a 
critical element of U.S. foreign policy. We cannot, however, change the 
United Nations for the sake of change alone. We want reforms that will 
make the United Nations more effective and bring it closer to the 
vision it created for itself almost 60 years ago, while simultaneously 
preparing it and its member countries for the new challenges of the 
21st century.
    Thank you.

    The Chairman. Well, thank you very much, Secretary Burns. 
It's a fact that there is interest in this committee, and even 
at this hour we have good participation. We may even have more 
as questions continue.
    Let me suggest maybe 6 minutes for each member this time, 
because we're going to have another vote at 12:30. Eventually, 
members will, in fact, go off to other things, and you will 
need to return to your duties. Let me start the 6 minutes of my 
own by saying that the agenda that you pointed out, of the 
members of the United Nations as they visit with Secretary 
Rice, is as we might have anticipated; that is, the great 
powers have an interest in the Security Council. Maybe nations 
that are not great powers are much less interested in this.
    The predicament, I think, that we have strategically or 
tactively--as you may look at it, legislatively--is that we 
come to a pretty good agreement in much of the House bill, and 
certainly the bill that Senator Coleman and his group has 
helped fashion with this committee on the reform agenda that 
you have mentioned.
    At the end of the day, in the House bill they said that if 
you don't pay attention to the reform agenda, why, we're going 
to cut the dues 50 percent. And that has been the big issue in 
this country. It may be in New York that people are interested 
in the Security Council, but here much of the press coverage 
has been over the 50-percent cut. With some justification we 
went through several years of this. This has been reiterated 
today. We are trying to get back to normal again. Therefore, 
many people say that if you're getting to this, why there we go 
again. And yet at the same time we heard Speaker Gingrich 
pointing out that there was usefulness in Chairman Hyde's bill 
and so forth.
    Now the bill that we have tried to fashion here says that 
Secretary Rice, negotiating for the President, has to have some 
clout. Several things are suggested that she might have in her 
portfolio there, including, ultimately, a reduction of the 
dues. But that gives her and the administration authority to 
negotiate all these. Some could point out that before Secretary 
Rice, or anybody else, ever gets to this, the Congress may just 
simply cut the dues, or may for instance, cut 100 percent for 
all I know in a fit of unhappiness about the United Nations. 
The situation is not going well for the United Nations in terms 
of U.S. public opinion right now, not well at all. We're trying 
to reconstruct. But as I understand the administration's 
position, they don't want the dues in the bill, and so I just 
query, how do you anticipate proceeding? Let's say, remove all 
mention of the dues, as one of the quivers in the arrow, and so 
that satisfies the administration. Does it satisfy Congressman 
Hyde, and the House people who have already voted for their 
bill? And do we, maybe, prevail one way or another? I don't 
know. At the end of the day, why is this not a useful thing to 
have in some form? Or, is your feeling that even the mention of 
it is not constructive, and that, somehow, you're going to be 
able to effect these reforms without having, at least, the 
potential mechanism of the dues reduction as a last resort?
    Ambassador Burns. Senator, thank you very much, and you've 
asked one of the key questions, and I'll be very happy to 
respond. Our administration's position has been that we object 
to the withholding--the mandatory withholding--of American dues 
to the United Nations. We believe that we should pay our dues, 
that we should pay them on time, because we believe that will 
enhance our credibility with the other members of the General 
Assembly and we think that is befitting the role of the founder 
and host country, leading country of the United Nations itself. 
We all remember, I know you do, probably even more vividly than 
I do, the time during the 1990s when we did not pay our dues 
and the attacks on American credibility in the mid- to late 
1990s.
    We even came close in the late 1990s to losing our vote in 
the General Assembly because of the large arrears that we have 
built up to the U.N. system. I also want to say that we're very 
well aware of the sentiment here in Congress and the tough-
minded approach that many members have taken, which is 
positive. And that is that the United Nations has to reform, 
and if there is to be a clear message from the Congress, in 
whatever bill emerges in conference, that reforms must be 
enacted, that the Congress expects that on behalf of the 
American public. And, Mr. Chairman, I'm very well aware of the 
public opinion polls in our own country about support for the 
United Nations. Then a tough-minded message can be helpful to 
our efforts.
    The Chairman. Let me parse the thing before my time runs 
out. We're not in favor of mandatory dues. The point, clearly, 
was that the President of the United States, finally at the end 
of the day, has the discretion to do this. Does he want it or 
doesn't he? That's really the issue. My guess is that this is 
likely to be a very unusual legislative row to hoe, which may 
give the President the ability to veto the bill at the end of 
the trail. So that's the critical issue. Does the 
administration want the discretion in the hands of the 
President at the end of the day?
    Ambassador Burns. Mr. Chairman, I'll try to--try to be as 
helpful as I can. You've asked a direct question, and I just 
want to reaffirm our belief that we should pay our dues. And 
that's our obligation. If we are given the choice between 
mandatory withholding and withholding that for which the 
President and the Secretary of State would have a waiver 
authority, we would certainly support the latter and we've made 
that clear. And we very much appreciate the work that you and 
Senator Coleman have done to articulate in your own bill a 
tough-minded reform agenda for the United Nations.
    The Chairman. Well, that may not be good enough. In other 
words, finally the administration has to decide what they want 
here. And I'll say that you have a cafeteria choice that we're 
forcing upon you, including discretionary withholding, as 
opposed to mandatory. You prefer we didn't do that. We're at a 
point, frankly, where a bill that is going to have mandatory 
dues, such as the House bill is going to pass, unless there is 
some intervention by the administration at this point.
    We all want to pay the dues. I want to pay the dues. All 
I'm suggesting is that we have a legislative dilemma with a 
country that is very skeptical of the United Nations. Senator 
Coleman has expressed that in his committee. They have, I 
think, been very, very mild in terms of working our way through 
this. But that's why I'm so pointed about the issue. Finally, 
the administration will have to decide what they want to do. 
Touch the dues, or don't touch the dues? Now, if the point is 
just simply, we pay the dues, great. And we'll do the best we 
can. Most members of this committee want to pay the dues. But 
I'm not sure where the votes are, and that's why I have been so 
candid in this line of questioning.
    Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman. 
I think we should pay our dues. Period. There seems to be a 
premise here that all these other nations want the United 
Nations and that, therefore, the United States has a lot of 
latitude on how we behave. There is an assumption that the 
institution will remain and continue. So we say, unless you do 
these things, we're not going make our dues payments.
    Now let me put a different scenario to you. Suppose there 
are some countries at the United Nations who don't really want 
it. They can't just leave it openly. But they perceive the 
United Nations as having served U.S. purposes essentially, 
since its establishment. I would argue that the United Nations 
has been more helpful to us than to some of the other major 
powers. So they say, let's frustrate the reforms, the Congress 
is on the record that they'll withhold the dues if we do that, 
and we can do in the United Nations and the blame will fall on 
the United States, and we'll achieve our purpose.
    Now, is that a farfetched scenario, or might it, in fact, 
be possible?
    Ambassador Burns. I just wanted to make sure you had 
finished your thought. I think, based on my visit yesterday, 
and based on what we've been hearing from Secretary General 
Annan over the last month or so, it's likely that the major 
body of these reforms that I listed, will be agreed to by 
September, perhaps not all of them. The Human Rights Council 
has been very controversial. A lot of the countries that are 
not democratic, that are authoritarian, don't like it, don't 
like the idea--our idea. But it's likely that most of these 
reforms will be concluded, and there is a reform mindset in the 
General Assembly, led by President Jean Marie Ping of Gabon, 
and the Secretary General of the United Nations has established 
a clear reform program and we agree with much of it, not all of 
it, but much of it. Our approach is tougher, and it's more 
ambitious, but I think the more likely scenario we'll face is 
that the United Nations General Assembly agrees to a large 
measure of reforms, then the real challenge will be, can they 
be implemented effectively and can they be sustained?
    And that will be a tough job that we, in the State 
Department, will have primary responsibility for. So it's a 
long term--a long-term venture.
    Senator Sarbanes. Has the State Department determined where 
the locus of that responsibility will be within the executive 
branch of our Government?
    Ambassador Burns. Well, obviously the State Department 
takes our leadership and our directions from the President.
    Senator Sarbanes. Yes.
    Ambassador Burns. But we are responsible for the day-to-day 
conduct of our--we in the State Department--are responsible for 
the day-to-day conduct of our relations with the United Nations 
and it's our Bureau of International Organization Affairs, 
which I oversee, which provides instructions to the U.N. 
mission. So we're fundamentally involved in this, and committed 
to it. For Secretary Rice, it's one of her highest priorities. 
I know that in a discussion with Speaker Gingrich, there was 
some questioning of how engaged we are, she raises this issue 
with nearly all of her Foreign Minister counterparts. This is a 
major concern of ours.
    Senator Sarbanes. But are you going to carry it out through 
the existing arrangements, or have you given any thought to 
setting up some special arrangement to deal with the U.N. 
reform issue, which could have the impact of assuring a very 
high-level focus, on this particular issue. I know you don't 
like to do that, because you get a lot of important issues. 
Everyone says you're going to have set up a special arrangement 
to deal with this issue. But this may well warrant an 
arrangement of that sort. Has any thought been given to that?
    Ambassador Burns. We have--Secretary Rice appointed, when 
she took office after her confirmation, Shirin Tahir-Kheli to 
be her Special Representative for United Nations reform, so 
Ambassador Tahir-Kheli is frequently in New York and she's been 
traveling around the world talking to the Chinese, the Indians, 
French, Germans, British, to name just a few, about U.N. 
reform. And she's active every day on this. Secretary Rice also 
asked me to oversee this in the State Department on a day-to-
day basis. This whole effort, which I've been doing among my 
other responsibilities--we have an outstanding Acting 
Ambassador at the United Nations in Anne Patterson, a very 
effective person. But most importantly we have the Secretary of 
State, who is onto this, and as I said before, has it very high 
on her own agenda. It's a priority for her. And she's engaged 
very much, not just in the strategy but in the tactics of how 
we're trying to get these reforms through this laborious 
process of 190 countries agreeing in the General Assembly. It's 
quite a diplomatic challenge.
    So I think, Senator, that we've put a special focus on 
this, and I'm confident we've got the right degree of 
intensity. And you can be assured that we'll follow through.
    Senator Sarbanes. Thank you very much.
    Ambassador Burns. Thank you.
    Senator Coleman [presiding]. Thank you, Senator Sarbanes. 
Secretary, first, before I get in my question. I just want to 
tell you how much I appreciate the leadership that you're 
providing. I had the opportunity to work with you when you were 
our NATO Ambassador. And I think we've got a great team in 
place. We've got a great team with Secretary Rice and Under 
Secretary Zoellick and yourself. And, in fact, my meeting at 12 
o'clock was with Acting Ambassador Anne Patterson, I had to 
apologize and she deferred. She's been watching what we're 
doing. But I really do thank you, I think we have an 
outstanding team in place, and I think the country's well-
served. And as we have this--I think it's been a fascinating 
debate. And worthwhile and important. I just want to publically 
let you know that I have a great appreciation for the 
leadership that's being offered and look forward to continuing 
with that. So I just want to say thanks.
    Let me get back to the question that I think the Chair was 
asking about. Where the administration is, on these various 
bills. I don't know whether it's been said, but is there a--if 
the mandatory provision of the Hyde bill were, in fact law, 
would that face a veto threat from the administration?
    Ambassador Burns. We have not--the President has not stated 
whether or not he would veto such a bill. Secretary of State 
Rice, to my recollection, has also not commented upon that. 
Maybe we're very optimistic, we see it as a hypothetical 
possibility, but we're much more hopeful that the kind of 
approach that you and Senator Lugar have been leading, and that 
others have supported, will triump in the end, and, obviously, 
we're just trying to deal in the real-world basis with the 
various views that we appreciate here on Capitol Hill.
    Of course we work very closely with Chairman Hyde, have 
great respect for him. On this particular--there were two 
particular provisions in the House bill that we objected to, 
and we said so in writing in our report to the House, and we've 
said so since. And we very much appreciate the effort that you 
have made with the chairman in order to put forward ideas that 
we believe would have a greater possibility of maintaining the 
credibility and the effectiveness of the United States at the 
United Nations.
    Senator Coleman. And I share that, by the way, deep 
appreciation for the work of Chairman Hyde. His commitment to 
this issue, the intellect and integrity that he brings to it. 
My concern in looking at some provisions of the Hyde bill is 
that they were--are a bit too prescriptive. There's a provision 
in there that identifies 18 specific U.N. agencies and directs 
that they go from mandatory funding to voluntary funding. I 
don't know enough about those agencies. I don't know if even 
the House committee knows enough about those agencies to make 
that kind of individualize judgment.
    I think there are provisions in there that call for a lot 
of paperwork. A lot of reporting, and I have a concern about 
the bureaucracy, the size of the bureaucracy, of the United 
Nations to date. And I certainly want to be very careful about 
the things we do that call for an increase--increasing that 
bureaucracy without some very specific and productive purposes. 
So again I've had a good relationship with Chairman Hyde and 
we've worked closely on this issue, but on those issues we do 
have some disagreement. I would take it that there has not been 
discussion then about a veto threat with the provisions in the 
Coleman-Lugar bill regarding funding?
    Ambassador Burns. Absolutely not.
    Senator Coleman. Can we talk a little bit about the 
process. I appreciate the fact that you've laid out some very 
specific measures that you want to see taken care of in 
September. In September there'll be a session in the United 
Nations on reform. You've also stated very clearly, that the 
President will be at that session. That will be a very personal 
and public commitment to reform and he will be a part of that 
discussion.
    Speaker Gingrich, in his testimony talked about the long-
term nature of reform. Can you give me--we've got the short 
term, and what we need to see right away, can you talk a little 
bit about the long term, are there things out there that you 
haven't focused on in the short term but are in the cue right 
now, that you're thinking about?
    Ambassador Burns. Senator, I think you're right to focus on 
that, because there's always a temptation to think, you know, 
what can you get done in the next 60 to 90 days and then think 
that you've resolved the problem. When, I think, both of us 
know that in looking at any institution as complex and as large 
as the U.N. reform has to be a continuous process.
    I would single out two areas that are badly in need of a 
continuous long-term rethink. The first is the basic structure 
of the Secretariat and the management and the budgeting process 
in New York itself. You have, in our view, made some very 
helpful interventions in drawing attention to the Oil-For-Food 
scandal. It's a shocking scandal of major proportions, 
involving billions of dollars. And again, we think that people 
need to be held accountable, people who may have been guilty of 
abuse, that they're found to be guilty in a court of law. But 
there has to be, very bright people have to think through over 
the long term how best to arrange an institution so that its 
budgeting, management, and administrative functions are modern 
and that they are effective.
    When I was Ambassador to NATO we went through the same 
exercise. It's infinitely easier in NATO--you're 26 countries 
versus 190 at the United Nations.
    The second area would be peacekeeping. We've seen dramatic 
failures of the United Nations in peacekeeping, in Srebrenica 
10 years ago, July 11, when 8,000 men and boys were killed 
because the United Nations was unable to prevent the Bosnia and 
Serb armed forces from attacking them, from executing them over 
3 days.
    You've drawn attention, quite rightly, to the horrific 
abuse of the peacekeepers in the Congo and the sexual 
violations of innocent civilians by those peacekeepers. And so 
there has to be a long-term effort to strengthen the 
peacekeeping forces, to make them more effective and to try to 
enact reforms so that the kind of abuses we've seen in Congo 
and Srebrenica are not going to be repeated in the future.
    Senator Coleman. The great thing about having the gavel is 
that you really don't have to worry about whether bells ring or 
anything. Let me respond a little bit, particularly, I raise 
the issue of long term for this reason. I'm a great believer in 
not raising expectations that can't be reached. The United 
Nations needs reform, there are things that need to be done 
right way. One of the most--the difficult one you talked about 
is one of those that could be most visible: Abolishing the 
Human Rights Commission. I made a strong public statement about 
a body that has Zimbabwe and the Sudan, and that has Cuba as 
members that have the United States--go off that body a couple 
of years ago, it's absurd. I think one of the strongest public 
arguments for U.N. reform was that recent admission of Zimbabwe 
to the Human Rights Commission. Very powerful. My concern as a 
former Mayor, and I expressed this in my brief opportunity to 
question Speaker Gingrich, is structure reform takes awhile.
    I know Senator Voinovich, I believe is coming back and I 
want to give him the opportunity to ask some questions. He's 
been very passionate about personnel reform and structure 
reform, and you know--in this body, in this government, it's 
really hard. It takes time. I think what we got to do is figure 
out ways in which we can show progress to the Congress, show 
progress to the American people, but recognize that this will 
take a while. The Secretary General needs the ability to fire 
people, and has to use that ability. I have a separate issue 
which I'm not going to press you on, and I have raised the 
issue of the ability of this Secretary General to make the 
reform.
    I--knowing how hard reform is, how hard it is to change 
organizations. I have expressed as you're well aware, very 
publically my belief that this Secretary General Kofi Annan 
doesn't have the ability to do the heavy lifting that's needed. 
That because of the scandals that have taken place, because of 
the questions of conflict of interest, because you know Speaker 
Gingrich talked about chiefs of staff that have, you know, 
shredded documents over 3 years, that--because of that you're 
somewhat shackled regardless of what you did. It's what so many 
others did around you. I think it makes it impossible for him 
to do the heavy lifting, that has to take place for reform.
    So I'm not going to put you on the spot, I'm not going to 
create a moment of conflict here between myself and the 
administration. But if we're really serious about reform, about 
getting it done, if we recognize that it's going to take heavy 
lifting over a period of time, I think we have to recognize 
that there's a human dimension to this too, and that if 
individuals--if the team in place during so much of the period 
of which problems have taken place, is then being called upon 
to make the change, I think that's impossible. At a minimum, 
most would say problematic. I think its impossible.
    And so I just--I'll leave it on the record, but I'm not 
going to ask whether you're going to agree with me that the 
Secretary General should resign. But you need to know, this is 
not--this comes from me, not as part of an attack on the United 
Nations, but with a belief that if we want to accomplish the 
reform, to have the United Nations as an effective partner with 
the United States, that I think we kind of need the kind of 
leadership that has not been scared by past conduct. So I 
wanted to make that statement.
    With that I will turn the gavel back over to the chairman. 
And I'm sure, then, recognize Senator Voinovich.
    The Chairman [presiding]. Thank you very much.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. I think that 
from what I've heard from Leader Mitchell that some real 
progress is being made on reform of the United Nations. One of 
my concerns was that we wouldn't move quickly to take advantage 
of what I consider to be a unique situation. And that's 
transformation of an organization that we've been trying to 
transform for many, many years. And I was pleased that Kofi 
Annan himself echoed these words in his U.N. report in larger 
freedom decision time at the United Nations and, Mr. Chairman, 
I would ask that that document, if it's not in the record, be 
put into the record.
    The Chairman. It will placed in the record.
    Senator Voinovich. And I'd also like to have my written 
statement put in the record.
    The Chairman. It will be placed in the record in full.
    Senator Voinovich. And also acknowledge the fact that I 
have joined you and Senator Coleman as cosponsors of their 
piece of legislation.
    The Chairman. I thank you, Senator.
    Senator Voinovich. The stars seem to be in line. For 
watever reason Kofi Annan has come out with some very strong 
statements on reform of the United Nations, including 
eliminating the Human Relations Commission, and going to a 
Human Relations Council, and many of the recommendations that 
he has are the same recommendations in the Mitchell-Gingrich 
report, and it seems to me that we have this unique opportunity 
to strike at the right time. And I am pleased with your 
testimony today in regard to the fact that you haven't wasted 
any time, and haven't let anything grow under your feet, you're 
moving fast. And I want to compliment you and I want to 
compliment Anne Patterson for the good job that you're doing to 
move forward.
    The question I have is this, you indicated that some of our 
friends are more interested in discussing the Security Council 
than they are reform of the United Nations. Do we have any 
allies with us that are on the same team and pushing as hard as 
we are, for example, the G-8 group do they--at all on board 
with this, do they understand how important this opportunity is 
for the United Nations?
    Ambassador Burns. Senator, thank you, and could I just pick 
up on what you first said, and say that we believe there is 
momentum for reform? There's a good chance that we can achieve 
a concrete result by September. Part of the success should be 
attributed to the Secretary General of the United Nations, Kofi 
Annan. We respect him and we support him. And we certainly 
support the large measure--large bulk of the reforms that he's 
put forward.
    Senator Voinovich. Mr. Chairman, I'd just like to say to 
you that one of the fundamentals of transformation is that the 
people trying to transform an organization, respect the 
organization, and that the people running the organization 
respect the people that are trying to transform them. And I 
just want to emphasize that that's a wonderful situation that 
you have right now.
    Ambassador Burns. I think you're exactly right to say that. 
You asked about the Security Council. It's a very complex, and 
quite frankly, a divisive debate right now. Four of our best 
friends in the world--Germany, Brazil, Japan, and India--have a 
proposal that the four of them should come onto the Security 
Council as permanent members, and they may, or may not, bring 
that to a vote in the General Assembly next week. And we've had 
to, very reluctantly, say that we would vote against that 
proposal.
    And then, lots of other friends of ours--Italy and 
Argentina and Pakistan--are in another group saying that they 
don't support this proposal, they support another one. So we've 
taken the tactic of standing back and saying, ``The Security 
Council is actually one of the strongest features of the United 
Nations. It's not most badly in need of reform. What needs 
reform is the management, budget, human rights, peacekeeping. 
And so we prefer to see all of these reforms pushed forward, 
and then we'll be happy to look at Security Council reform.''
    Security Council reform would put a major responsibility on 
the Senate, as I said before, would require Senate ratification 
of the amended U.N. Charter. And so we don't take it lightly, 
and we think that the 15-member Council has worked rather well. 
We are open to expanding it, but we are--ours is for a modest 
proposal, not the kind of big bang expansion that the four 
countries have put forward that would enlarge the Council to 25 
members. We're wary of that, because we want the Council to 
work effectively. We don't want to be in a situation where we 
can't get the Council to make decisions. And I would assume 
that would be the question that the Senate would ask if we ever 
did put an amended U.N. Charter up to you for ratification.
    Senator Voinovich. The task force came back with the 
recommendation for a Chief Operating Officer, which is 
something I think we need at the Homeland--the Department of 
Homeland Security, and also the Defense Department to carry on 
the transformations that's needed there. Are one of the 
recommendations that you're promoting, having a Chief Operating 
Officer? And the point is that Kofi Annan, and the others are 
so busy with their everyday work that somebody has got to drive 
the management agenda, the transformation agenda. And you need 
a very competent person to get the job done. Where are you on 
that?
    Ambassador Burns. Well, we certainly agree with you, 
Senator, that there has to be a single person who is focused 
100 percent of the time on the management and on running the 
organization effectively, and we just nominated Chris Burnham, 
who had been the Acting Under Secretary of State for 
Management, to now be the full time Under Secretary General of 
the United Nations for Management. He just took his job 30 days 
ago. We think he's off to a very strong start, and if he can 
have the agenda for reform placed on his shoulders we'd have a 
lot of confidence in the ultimate success of this effort.
    Senator Voinovich. My time is up.
    The Chairman. Do you have further questions?
    Senator Voinovich. Yes. The other issue is that the task 
force recommended an independent oversight board which would 
function like a corporate audit committee and is that at all in 
your list of things that you want to get done?
    Ambassador Burns. Yes, it is. We support that. And I told 
lots of people at the United Nations yesterday we support it, 
and, in fact, the United Nations just announced the appointment 
of a new auditor from Sweden, yesterday. And we applauded that, 
but we think the Oversight Council is an important new reform. 
There has to be an independent objective body looking down, 
much as our Inspectors General do it in Federal agencies, to 
make sure that we're all doing our job in the way we're 
supposed to do our job.
    Senator Voinovich. Mr. Chairman, if you'll forgive me. One 
of the concerns that some people expressed to me because of my 
opposition to Mr. Bolton going to the United Nations, is that 
things would be in limbo at the United Nations while we debated 
the issue of whether Mr. Bolton should become our Permanent 
Representative. And I'd just like to underscore today, 
publically, that that hasn't been the case. That you have 
moved--and I'm not arguing that you don't need a permanent 
representative there. But the fact of the matter is, that the 
people of America should know that this administration is 
moving forward with great speed to try and get the reforms that 
all of us want to see made at the United Nations, and that 
Under Secretary Burns and I appreciate all of the time you've 
spent on it. I've seen you on C-SPAN and you're doing a great 
job and I think Anne Patterson is doing a wonderful job there 
as the Acting Permanent Representative, and I say keep going 
and anything we can do to be of help to make this happen we 
will, including Mr. Chairman, I think we need to have, maybe, 
quarterly hearings on the progress that is being made at the 
United Nations. I think part of our problem in Congress has 
been that we get energized about a problem and we spend a lot 
of time on it, and then we kind of let it go. And the folks 
that have to do the job get the impression that maybe we're not 
as interested as we were. And I think if we have a quarterly 
report back to us about the progress that's being made, that 
may be one of the most worthwhile things that we can do from an 
oversight point of view.
    Ambassador Burns. Senator, if I could just--or, Mr. 
Chairman, if I could just respond by saying we would be very 
happy to come up on whatever schedule you wanted to establish 
to report to you, but also to seek your advice.
    And, Senator, your very kind remarks, prompt me to say that 
the President and Secretary of State very much support the 
candidacy of John Bolton--the nomination of Mr. Bolton to 
become the Ambassador of the United Nations--and very much hope 
that that will be able to take place.
    Senator Voinovich. Thank you.
    [The prepared statement of Senator Voinovich follows:]

 Prepared Statement of Hon. George V. Voinovich, U.S. Senator From Ohio

    Mr. Chairman, the reform of the United Nations is long overdue. I 
am pleased that we meet today to discuss this issue, because it is 
important for our country and for the viability of an organization that 
fosters unity and global cooperation. Only with this kind of 
cooperation, can we hope to achieve a greater good for future 
generations.
    In the words of one of America's most prominent U.N. officials and 
winner of the Nobel Peace Prize, Ralph Bunche, the United Nations 
exists ``not merely to preserve the peace but also to make change--even 
radical change--possible without violent upheaval. The U.N. has no 
vested interest in the status quo.''
    I am pleased that Kofi Annan himself echoed these words in his own 
U.N. Report, ``In Larger Freedom: Decision Time at the U.N.'' for these 
words hold great wisdom.
    They underscore the importance of building a United Nations that is 
willing to seek radical change--both externally, in addressing its 
missions throughout the world, and internally, within its own walls, 
its own budget, its staff, and even its leadership.
    Mr. Chairman, many of my colleagues share the view that the 
opportunity to make radical change is before us now. The opportunity to 
strengthen the viability, effectiveness, and credibility of the United 
Nations is here--and it is up to our Nation to advance this objective 
with a defining purpose, a clear strategy, a true commitment, and a 
careful diplomatic hand.
    I want to commend the U.N. Task Force and the esteemed members of 
our panel for what is a truly excellent report on the steps that are 
needed to achieve this goal and make the United Nations a stronger, 
more viable institution.
    I want to commend the State Department, Under Secretary for 
Political Affairs Nick Burns, Ms. Anne Patterson, and the other State 
Department staff that is currently working at the United Nations to 
progress this critical task.
    With this excellent report and by working together, we can make the 
United Nations a better institution--one that will not turn away from 
looming threats, restrained by the shackles of its own bureaucracy, but 
will face security resolution violations, head on. Face human rights 
violations, head on. And promote freedom and peace throughout the 
world.

    The Chairman. Thank you very much, Senator Voinovich. Let 
me just comment that the legislation that you have just 
cosponsored provides that an annual report be made on reform. 
And the Senator suggested quarterly. Maybe that would be more 
appropriate, to ensure that this reform business is proceeding 
rapidly. So the Chair will take that under advisement. You have 
volunteered to come when these occur. In your testimony you 
said the administration supports many other provisions of the 
Coleman-Lugar bill. Are there provisions you do not support? I 
give you an opportunity to indicate what the problems are that 
may still be there.
    Ambassador Burns. Senator, I have been able to discuss that 
bill with you as well as Senator Coleman, and I can assure you 
that we--many might be referring to 98, 99 percent. What 
happens to the congressional testimony of someone like me, is 
it goes through the clearance process, and that word ``many'' 
came back from one of our fraternal agencies. And--but if I had 
to testify--I am--if I had to just, kind of, rate the 
percentage of reforms with which we agree, it would be a very 
high percentage in the high 90s. And we're very grateful for 
what you've done.
    The Chairman. I like the 98, 99, verging on there. And let 
me say, I appreciate that point. The reason I was so precise in 
my previous questioning, however, is that after these 
statements are vetted through several screens, we will be left 
with whatever is there, what with people parsing carefully 
through. The fact is that these are serious issues. We take 
them as seriously as you do. And, obviously, I commend the 
administration's efforts. Senator Voinovich, I think, has 
stated it well, that the movement toward reform has been 
proceeding vigorously. You have illustrated that today, and 
with the appointment of Mr. Burnham. Through his public 
statements, there has been public evidence of that, even from 
the New York scene.
    So we're hopeful of a serious legislative effort here. This 
is why we probably need to get together to refine out what is 
the vehicle that we want, so that this will not be left in 
limbo. But that may require some more meetings and some more 
testimony. We thank you very much for your thoughtfulness and 
the time you have expended today. It has been worthwhile for 
all of us. Having so said, the meeting is adjourned.
    [Whereupon, at 3:10 p.m., the committee was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                 An Example of a U.N. Reform Scorecard

    Implementing policy effectively is ultimately as important as 
making the right policy. The American people have every right to expect 
results from our efforts to reform the U.N., not excuses.
    One proposal by which the Congress can meet the rightful 
expectations of the American people is to pass legislation that 
requires an annual review by the executive branch that evaluates the 
progress of U.N. reform against a set of performance measures. Guided 
by such a set of performance measures, the Congress could hold hearings 
every June or July to review the U.N. reform progress report prepared 
by the executive branch that identified the progress to date. That 
report could then become the basis for an annual discussion on U.N. 
reform at each summer's meeting of the G-8, and then later at each 
September's meeting of the U.N. General Assembly. Following the annual 
hearings on U.N. reform, the Congress could adopt amendments to the 
score card legislation based on progress so that standards for the 
following year could be set forth. In this manner, Congress could 
develop a continuous practice of monitoring U.N. reform.
    Unless the Congress and the executive branch plan back from the 
desired future, it will be impossible to distinguish between activity 
and progress toward U.N. reform. In Washington far too much time is 
spent on today's headline and today's press conference and not nearly 
enough time is spent preparing for tomorrow's achievement.
    While the task force report sets forth a number of reform 
recommendations, it does not provide a set of performance measures. 
Defining the right set of performance measures that will be evaluated 
annually in a public report will be critical to directing the energies 
of the Congress and the executive branch to achieve U.N. reform.
    Listed below by number are the task force recommendations, followed 
by a proposed set of performance measures listed by letter in italics. 
The list of performance measures is intended to illustrate some types 
of performance measures the Congress could adopt; it is by no means 
intended to be an exhaustive list. There are surely several more 
inventive measures that this Congress could design for the task force 
recommendations, in addition to performance measures for other reform 
requirements that the Congress may adopt. The consensus recommendations 
of the task force should be considered as a minimum set of U.N. reform 
requirements to which the Congress is likely to add.

      Task Force Recommendations and Proposed Performance Measures

Saving Lives, Safeguarding Human Rights, Ending Genocide

                            I. DARFUR, SUDAN
1. Assemble a U.S. coordinated package of assistance for the African 
Union (AU) deployment in Darfur.

  a. Has an assistance package been defined by the executive branch?
  b. Has the U.S. share of the assistance package been appropriated and 
        authorized by the Congress?
  c. Have U.S. NATO allies committed to making proportional 
        contributions to such an assistance package?
  d. Have U.N. Security Council members committed to making 
        proportional contributions to such an assistance package?
  e. Is the total funding amount adequate to meet the need and the 
        objectives set forth by the executive branch?
  f. Are administrative costs exceeding 15 percent of the appropriated 
        funding?

2. The U.S. Government should make clear that the responsibility for 
the genocide in Darfur rests with the government in Khartoum.

  a. Has a demarche been issued by the State Department?
  b. Has this message been given by the U.S. Mission to the U.N., 
        either via the General Assembly or the Security Council?
  c. Has the executive branch made this clear in public pronouncements?

3. The United States should welcome the role of the African Union in 
Darfur and assist in its development as an effective regional 
organization that can play a growing role in dealing with crises on the 
African Continent.

  a. Has the Department of State made this clear in public 
        pronouncements?
  b. Is the U.S. military providing training and assistance to the 
        African Union?

4. The United States should make every effort to enhance AU 
capabilities in two main areas: (a) Ensuring that it is adequate to the 
task of providing security in Darfur and protecting civilians, and (b) 
building on AU capabilities going forward.

  a. Has funding for a Darfur assistance package been appropriated and 
        authorized by the Congress?
  b. Has the U.S. military established a permanent training and 
        assistance program for the African Union?
  c. Is there a periodic performance review to ensure training and 
        assistance is enhancing long-term African Union capabilities?

5. At the U.N. Security Council, the United States should pursue a 
mandate for the AU-led force that provides for the protection of 
civilians and authorizes the deployment of a sufficiently large 
military force to achieve that end.

  a. Has the U.S. introduced such a mandate in the Security Council?
  b. Has the U.S. demanded a Security Council vote for this mandate?
  c. Has the Security Council approved the mandate?

6. The United States should assist in establishment of a ``no-fly'' 
zone over Darfur.

  a. Has the executive branch adopted a no-fly zone policy?
  b. Is the U.S. Air Force participating in the enforcement of a no-fly 
        zone?
  c. Are U.S. NATO allies participating in the enforcement of a no-fly 
        zone?
  d. Has the Sudanese air force been destroyed?
  e. Have portions of the Sudanese air force, namely helicopters, been 
        destroyed?

7. The United States should assist in increasing the number of troops 
in the AU mission.

  a. Has the Congress authorized funding to assist AU countries in 
        providing a larger number of troops?
  b. Have the number of troops in the AU mission increased in the last 
        year?

8. The U.S. Government should embrace the short-term strategic goal in 
Darfur of ending the ability of the militias to control the countryside 
so that security is adequate for civilians to return from refugee and 
IDP (internally displaced persons) camps to their villages and resume 
everyday life.

  a. How many civilians have returned home from refugee and IDP camps?

9. Perpetrators must be held accountable for war crimes and crimes 
against humanity.

  a. How many individuals have been prosecuted for war crimes and/or 
        crimes against humanity out of the total number of individuals 
        who have been indicted for war crimes and/or crimes against 
        humanity?
  b. What is the conviction rate?
  c. What is the number of ongoing investigations of war crimes and 
        crimes against humanity?

10. Press neighboring governments to cooperate with efforts to stop the 
killing in Darfur and not to interfere with international efforts under 
threat of sanction.

  a. Has the Department of State made this clear in public 
        pronouncements?

11. Encourage the pursuit of a general peace agreement in Western 
Sudan/Darfur.

  a. Has the Department of State made this a priority, as evidenced by 
        the amount of diplomatic activity to achieve this end and the 
        frequency of public pronouncements on this subject by the State 
        Department?

12. Support and encourage democratic reform in Sudan.

                            II. HUMAN RIGHTS
1. The United Nations and member states should agree that the most 
pressing human rights task today is the monitoring, promotion, and 
enforcement of human rights and, in particular, the stopping of 
genocide and mass killing.

  a. Has the U.N. Security Council adopted a resolution to this effect?

2. The U.N. Human Rights Commission should be abolished.

  a. Has the U.N. undertaken all that is required to abolish the U.N. 
        Human Rights Commission?

3. A Human Rights Council ideally composed of democracies and dedicated 
to monitoring, promoting, and enforcing human rights should be created. 
The council should coordinate its work with the Democracy Caucus and 
the U.N. Democracy Fund.

  a. Has a Human Rights Council been created?
  b. Is there a democratic precondition for membership?
  c. Are there safeguards to prevent a country that violates human 
        rights from becoming a member of the Human Rights Council?
  d. How many countries on the Human Rights Council are generally 
        considered human rights violators or are under investigation 
        for violating human rights?
  e. If there are undemocratic members of the Human Rights Council, do 
        the democracies substantially outnumber the undemocratic 
        members?

4. The U.S. Permanent Mission to the United Nations should include an 
official of ambassador rank whose responsibility will be to promote the 
efficacy of the Democracy Caucus within the United Nations and to 
promote the extension of democratic rights more broadly among member 
states.

  a. Has the U.S. established this position with this portfolio?

5. The U.S. Government should support authority for the High 
Commissioner for Human Rights to appoint an advisory council to 
exchange information, develop best practices, promote human rights, and 
publicize offenses.

  a. Has the Security Council adopted a resolution to provide this 
        authority?

6. The U.S. Government should support the work of national and regional 
courts, as well as tribunals authored by the Security Council, as well 
as truth and reconciliation commissions, in identifying those 
responsible for mass atrocities and prosecuting, and punishing them as 
appropriate.

  a. Has the executive branch provided the necessary policy guidance to 
        make this a priority?

            III. RESPONSIBILITY TO PROTECT YOUR OWN CITIZENS
1. The U.S. Government should affirm that every sovereign government 
has a ``responsibility to protect'' its citizens and those within its 
jurisdiction from genocide, mass killing, and massive and sustained 
human rights violations.

  a. Has the Department of State articulated this policy in public 
        pronouncements?
  b. Has the U.S. Mission to the U.N. communicated this formally in the 
        General Assembly and the Security Council?

2. The United States should endorse and call on the U.N. Security 
Council and General Assembly to affirm a responsibility of every 
sovereign government to protect its own citizens and those within its 
borders from genocide, mass killing, and massive and sustained human 
rights violations.

  a. Has the U.S. Congress passed a resolution supporting this?
  b. Has the executive branch affirmed this responsibility in its 
        public pronouncements?
  c. Has the U.S. Mission to the U.N. communicated this formally in the 
        General Assembly and the Security Council?
  d. Has the Security Council approved such a resolution?
  e. Has the General Assembly approved such a resolution?

3. Future Presidents should affirm the ``Not on my watch'' pledge, 
articulated by President Bush in a notation on a document describing 
the horror of the Rwanda genocide.

  a. Has the U.S. President affirmed the pledge publicly or in policy 
        documents such as National Security Strategy or Presidential 
        Decision Papers?

4. The urgent task required of all United Nation member states, which 
the United States should lead, is to determine available capabilities 
and coordinate them so they can be brought rapidly to the fore in a 
crisis.

  a. Has the executive branch assigned this responsibility?
  b. Has the executive branch department responsible for this 
        coordination prepared the document that defines and articulates 
        available capabilities to support a crisis?

5. The United States should be prepared to lead the Security Council in 
finding the most effective action across the full range of legal, 
economic, political, and military tools.

6. The United States should take the lead in assisting the United 
Nations and other institutions in identifying potential assets and 
creating or improving mechanisms for coordination.

7. The United States must insist that in cases in which the Security 
Council is unable to take effective action in response to massive human 
rights abuses and/or genocide, regional organizations and member states 
may act where their action is demonstrably for humanitarian purposes.

8. Support inclusion of language in all Chapter VII Security Council 
resolutions calling on member states, regional organizations, and any 
other parties to voluntarily assess the relevant capabilities they can 
contribute to enforcement of the resolutions.

  a. Do Chapter VII Security Council resolutions contain this language?

9. Undertake a review of assistance programs to assess what bilateral 
action the United States can take that will enhance the capabilities of 
regional and other international organizations to prevent or halt 
genocide, mass killings, and massive and sustained human rights 
violations.

  a. Has the executive branch undertaken such a review and issued a 
        public report on its findings?

10. The U.S. Government should reiterate that punishing offenders is no 
substitute for timely intervention to prevent their crimes and protect 
their potential victims.

  a. Has the Department of State made this clear in public 
        pronouncements?
  b. Has this been formally communicated in the U.N. in the General 
        Assembly and/or the Security Council by the U.S. Mission to the 
        U.N.?

                     IV. RAPID REACTION CAPABILITY
1. The United Nations must create a rapid reaction capability among 
U.N. member states that can identify and act on threats before they 
fully develop. The task force, however, opposes the establishment of a 
standing U.N. military force.

  a. Has a plan for a rapid reaction capability been developed?
  b. Has the plan been implemented?
  c. Are member states providing promised material support, i.e., 
        troops, strategic airlift, etc., to make a rapid, reaction 
        capability viable?

2. The United States should support the principle that those nations 
closest to a crisis have a special regional responsibility to do what 
they can to ameliorate the crisis.

  a. Has the State Department made this clear in public pronouncements?
  b. Has this been formally communicated in the General Assembly and/or 
        the Security Council?

3. The United States should also provide assistance aimed at the 
development of regional capacity in advance of a crisis.

  a. Is the U.S. military expanding the advice and training missions to 
        likely crises regions?

4. Support discretionary authority of the High Commissioner for Human 
Rights (HCHR) and the Special Advisor for the Prevention of Genocide 
(SAPG) to report directly to the Security Council.

  a. Has the U.S. Mission to the U.N. formally communicated this 
        support in the General Assembly and/or Security Council?
  b. Has a U.N. resolution or rule been adopted to provide this 
        authority?

5. Ensure that the office of the HCHR and SAPG have adequate resources 
to rapidly investigate at the first indication of trouble.

  a. Has a U.S. Government official been assigned this responsibility?
  b. Are annual increases to their funding levels adequate?

6. Support linkage of early information on potential genocide, mass 
killing, and massive and sustained human rights violations situations 
to early preventive action.

  a. Have appropriate ``tripwires'' been defined?
  b. Have the ``tripwires'' been approved by the Security Council?

In Need of Repair: Reforming the United Nations

                       I. GENERAL RECOMMENDATIONS
1. The United Nations, most importantly, needs to create an Independent 
Oversight Board (IOB) that would function in a manner similar to a 
corporate independent audit committee. The IOB would receive Office of 
Internal Oversight (OIOS) reports and, in consultation with the Board 
of Auditors and Secretariat management, would have the authority to fix 
the budget and approve and direct the assignments of the OIOS and of 
the Board of External Auditors just as an independent audit committee 
in the United States has such authority with respect to both the 
internal and external auditor. The OIOS budget must be set by an 
Independent Oversight Board and submitted to the General Assembly 
budget committee in a separate track outside the regular budget.

  a. Has the U.N. created an IOB?

2. The United Nations must provide both the resources and the authority 
to OIOS to provide appropriate oversight to every activity that is 
managed by U.N. personnel whether or not that activity is funded by the 
assessments of the General Assembly or by voluntary contributions.

  a. Is there adequate funding for OIOS?
  b. Are annual funding raises adequate?
  c. Does the OIOS have the authority to investigate as necessary?

3. Oversight reports must be accessible to member states under 
guidelines that facilitate transparency and meet, at a minimum, the 
freedom of information flow between U.S. investigative agencies and the 
Congress.

4. The U.N. Secretariat needs to have a single, very senior official in 
charge of daily operations and filling the role of chief operating 
officer (COO).

  a. Has a position been created or assigned this authority and 
        responsibility?
  b. Has a qualified individual been hired for this position?

5. The United States should insist on management capability as a 
fundamental criterion for the selection of the next U.N. Secretary 
General.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the General Assembly or the Security Council?

6. The United Nations needs to develop a far more robust policy for 
whistleblower protection and information disclosure.

  a. Do U.N. standards meet U.S. standards?

                       II. BUDGET AND PROGRAMMING
1. The ``5.6 Rule,'' which requires the Secretariat to identify low-
priority activities in the budget proposal, should be enforced and 
bolstered by an additional requirement that managers identify the 
lowest priority activities equivalent to 15 percent of their budget 
request or face an across-the-board reduction of that amount. The 
identification of 15 percent of the budget as low priority should not 
necessarily be interpreted as a list for elimination, but as 
information on what programs could be reduced in favor of higher 
priority mandates.

  a. Is the ``5.6 Rule'' being followed?
  b. Is the list of low-priority budget items available to member 
        nations?
  c. Has the 15 percent requirement and consequence been formally 
        adopted?

2. The Secretariat's leadership must demand that managers define and 
attempt to achieve specific outcomes. Future budgets should be tied to 
whether those results are achieved. The OIOS should be tasked with a 
larger monitoring/evaluation role to evaluate the degree to which 
programs are achieving their targeted results.

  a. Are managers required to provide annual goals?
  b. Are these goals measurable and related to effectiveness of the 
        program?
  c. Are managers required to provide periodic updates on the status of 
        achieving those goals?

3. The United States should support the Secretary General's plan, 
described in his March 21 report, to establish a Management Performance 
Board ``to ensure that senior officials are held accountable for their 
actions and the results their units achieve.''

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the General Assembly or the Security Council?
  b. Has it been implemented?

4. The United States should insist upon both of the Secretary General's 
sunsetting proposals: The 1997 proposal to include sunset clauses for 
all major new mandates, and the proposal in the March 21 report this 
year to review all mandates dating back 5 years or more. Every mandate 
and program should have a sunset clause to ensure that it is regularly 
evaluated and continues to perform a necessary function. The sunset 
clauses should assume that programs will be shut down unless the 
General Assembly's budget committee confirms by consensus that they 
should continue based on a publicly available analysis identifying the 
program's purpose, budget, and ongoing relevance.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the General Assembly or the Security Council?
  b. What percentage of mandates over five years old have not been 
        reviewed?
  c. What percentage of new mandates does not include a sunset clause?
  d. What percentage of total mandates include a sunset clause?
  e. How many programs have been ended?

5. The United States should insist that the United Nations publish 
annually a list of all subsidiary bodies and their functions, budgets, 
and staff. Their budgets should be subject to the same sunset 
provisions that apply to other U.N. programs and activities. The United 
Nations should also publish budget information in a manner that lays 
out multiyear expenditures by program and identifies the source of 
funds as assessed or voluntary (including the source country) and 
includes in-kind contributions.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the General Assembly or the Security Council?
  b. Is an annual list of subsidiary bodies, functions, budgets, and 
        staffs available?
  c. What percentage of them is subject to a 5-year review?
  d. Is multiyear budget information available?
  e. Are in-kind and voluntary contributions reported and identified by 
        source in multiyear budgets?

6. The U.S. Office of Management and Budget (OMB) should annually 
report to Congress on all U.S. contributions, both assessed and 
voluntary, to the United Nations.

  a. Is the report conducted and available in the public domain?

7. The United States should work with a representative group of member 
states to explore ways of giving larger contributors a greater say in 
votes on budgetary matters without disenfranchising smaller 
contributors. The consensus-based budget process has proved effective 
at reining in increases in the U.N. budget but not at setting 
priorities or cutting many obsolete items.

  a. Have meetings discussing this occurred in the last year?
  b. What changes have been enacted?
  c. Do the major donors have weighted voting?

8. The Department of Peacekeeping Operations (DPKO) should become a 
more independent program with distinct rules and regulations 
appropriate for its operational responsibility for comprehensive 
peacekeeping missions. Its responsibilities must include coordination 
with broader reconstruction and development activities of the United 
Nations.

  a. Is coordination between the DPKO and broader reconstruction and 
        development activities of the United Nations actually 
        occurring?
  b. What changes have been adopted?
  c. Is DPKO more independent?
  d. Has it adopted stronger codes of ethics and conduct?

                             III. PERSONNEL
1. The United States should insist on the Secretary General's call in 
his March 21 report for a one-time severance program to remove 
unwanted, or unneeded, staff, and should monitor that program closely 
to ensure it is designed to remove the staff who ought to be removed.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the General Assembly or the Security Council?
  b. What percentage of staff is being given severance?
  c. Has the severance been conducted through the existing budget?

2. The United Nations should not offer permanent contracts to any new 
employees. The identification of redundant staff, along with other 
relevant recommendations in this report, should apply fully to the 
U.N.'s nearly 5,000 contractors and consultants.

  a. What percentage of contracts is permanent?

3. The U.N.'s hiring practice must reflect the emphasis on competence 
laid out in the charter, with geographical considerations taken into 
account only after the competence test is met.

  a. What percentage of personnel has been hired based on a competency 
        test?
  b. Has there actually been a change in geographical representation?

4. The United States should insist that the United Nations install a 
more empowered and disciplined Human Resources Department that employs 
all the techniques of modern personnel policies.
  a. Has such a system been adopted?

5. The United States should support granting U.N. managers the 
authority to assign employees where they can be best used and amending 
job placement policies to permit promotional opportunities.

  a. Has the General Assembly granted the Secretary General this 
        authority?

6. The United Nations should more systematically take advantage of 
secondments of personnel from member states on a pro bono basis for 
specified periods or tasks.

  a. In the last year, how many personnel were on a pro bono basis for 
        specified periods or tasks?
  b. Is this number increasing, decreasing, or holding constant?

7. The General Assembly must fully implement its new requirement that 
candidates for positions on the U.N. Administrative Tribunal must 
possess appropriate qualifications before being approved.

  a. What percentage of personnel on the U.N. Administrative Tribunal 
        has appropriate qualifications?

8. In criminal cases involving U.N. personnel, immunity should be 
waived unless the Legal Adviser to the Secretary General determines 
that justice is unlikely to be served in the country at issue. The 
Legal Adviser's report should be made available to the proposed 
Independent Oversight Board to ensure accountability to an independent 
body. Efforts must be made to find an appropriate jurisdiction 
elsewhere.

  a. What percentage of criminal cases involving the U.N. is immunity 
        not waived?
  b. For each of the above cases, is the Legal Advisor's report 
        available to the Independent Oversight Board or member states 
        if IOB is not yet in place?
  c. What was the number of cases where another jurisdiction was used?

9. Legal fees for accused staff should only be reimbursed if the 
accused staff is cleared by appropriate legal processes.

  a. What number of accused staff had legal fees reimbursed?
  b. How many of those were found guilty?

10. A new standard of personnel ethics must be developed and advertised 
within the United Nations. Disclosure forms must be mandatory at the P-
5 level and above. Failure to disclose must be sanctioned, and 
sanctions dearly laid out. An Office of Personnel Ethics should be 
established within the Secretariat but accountable to the IOB to serve 
as a repository for disclosure documents. These documents must be made 
available to member states upon request.

  a. Has the Office of Personnel Ethics been established?
  b. Are disclosure documents mandatory, verifiable, and available on 
        request to member states?

11. The United Nations must meet the highest standards of information 
disclosure. The United States should carefully monitor the 
Secretariat's current efforts to develop a comprehensive information 
disclosure policy.

  a. Do the U.N. information disclosure rules meet U.S. standards?

12. 1f the United Nations is again called upon to administer a large-
scale sanctions regime, it should set up an effective and separate 
management structure, with serious audit capacity, to do so.

13. The United States should work with other member states to identify 
which of the operational programs now receiving funds from the assessed 
budget should be funded entirely by voluntary contributions.

  a. Has an entity been identified to conduct this study?
  b. How many programs have been shifted to voluntary funding?

14. The General Assembly's committee structure should be revised to 
increase its effectiveness and to reflect the substantive priorities of 
the United Nations, as identified in other parts of the task force 
report. Bearing in mind the recommendations of this report, the United 
States should review the mandates and performance of the committees 
with a view to identifying areas of duplication between the committees 
and other bodies, programs, and mandates in the U.N. system.

  a. Has an entity been identified to conduct this study?
  b. Is the number of committees smaller or larger?
  c. How many committees have been eliminated?

Deterring Death and Destruction: Catastrophic Terrorism and 
        Proliferation of Nuclear, Chemical, and Biological Weapons

                        I. U.N. SECURITY COUNCIL
1. P-5 members should consult regularly on proliferation and terrorism 
issues. Frequent substantive contacts will not guarantee unanimity, but 
they could promote greater convergence in perceptions of the threat and 
facilitate more constructive engagement when difficult issues are 
brought before the Council.

  a. Are P-5 members regularly meeting?

2. The Council as a whole should also meet regularly on proliferation 
and terrorism issues. It should receive closed-door briefings three or 
four times a year by the Directors General of the IAEA and OPCW, the 
chairs of the CTC and 1540 Committee, and other senior officials from 
relevant U.N. organizations.

  a. Is the Council meeting on proliferation and terrorism issues?
  b. Is the Council receiving quarterly briefings from IAEA and OPCW, 
        the chairs of the CTC and 1540 Committee, and other relevant 
        U.N. organizations?

3. The United States and other Security Council members should urge the 
1540 Committee to move aggressively in encouraging U.N. members to put 
in place the laws and control measures required by U.N. Security 
Council Resolution 1540.

  a. Has the U.S. Mission made this clear to the 1540 Committee and in 
        public pronouncements?

4. The United States should press within the Council for improving the 
effectiveness of the UNSCR 1373's Counterterrorism Committee.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council?

5. The United States should promote the ``naming of names'' that is, 
the United States should push the Security Council to have the 1373 
Committee publicly list state sponsors of terrorism.

  a. Has this been formally communicated by the U.S. Mission in the 
        Security Council?
  b. Has the 1373 Committee publicly listed state sponsors of 
        terrorism?

6. The United States should take the lead in the Council to rationalize 
the work of the three Security Council committees responsible for 
terrorism and proliferation under three separate resolutions (1267, 
1373, and 1540).

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council?
  b. Has the Security Council rationalized the work of these committees 
        to the satisfaction of the State Department?
  c. Are there still overlaps and areas of missed responsibility for 
        these committees?

7. The United States should also take the lead in the Council on steps 
to strengthen international verification such as it is in the 
nonproliferation fields. If the IAEA or OPCW Technical Secretariat, 
respectively, is unable with existing authorities to resolve whether a 
particular country is in compliance, the Council will meet immediately 
with a view to providing authorization, under Chapter VII, to utilize 
much more extensive, supplementary verification methods (e.g., 
comparable to those authorized for use in Iraq by U.N. Security Council 
Resolution 1441).

8. The Council should also strengthen the U.N. Secretary General's 
existing authority to initiate field investigations of alleged 
violations of the Geneva Protocol or the Biological Weapons Convention 
by making it mandatory for states to grant prompt access and provide 
full cooperation.

9. To carry out the more robust supplementary verification activities 
in the nuclear and chemical fields that may be authorized by the 
Security Council, the IAEA and OPCW should be prepared to make 
available, on short notice, inspectors who are specially trained in 
more rigorous verification methods. In the biological weapons area, 
where no comparable verification organization exists, the Council 
should establish and train a roster of specialists who would be 
available immediately in the event that the Council Secratary General 
(under his authority to initiate nor CW or BW investigations) activated 
them.

  a. Has a roster of biological specialists been established?

10. The U.S. should support a Council instruction to UNMOVIC and the 
IAEA to document and archive information on the investigation of Iraqi 
WMD programs begun in 1991, with a mandate to complete the task within 
6 months.

  a. Has such a Council instruction been issued?
  b. Have member states received legal advice on the Convention for the 
        Suppression of Acts of Nuclear Terrorism?

11. On the critical subject of the nuclear fuel cycle and the Nuclear 
Non-Proliferation Treaty, the United States should continue to promote 
the Bush administration's initiative to prevent the acquisition of 
uranium enrichment and plutonium reprocessing facilities by additional 
countries.

  a. Has this been vigorously promoted by the Department of State?

12. The United States should encourage the Council to strengthen legal 
authorities to interdict illicit WMD-related shipments and disrupt 
illicit WMD-related networks.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council?

13. The United States should urge Council action to discourage and 
impede unjustified use of the NPT's withdrawal provision, which allows 
a party to leave the treaty after 90 days if it asserts that remaining 
in the treaty would jeopardize its supreme interests.

[Note: This may be applicable only when a nation attempts to withdraw 
from the NPT.]

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council?
  b. Has the Security Council taken action to discourage this behavior?

14. The Council should develop a menu of penalties that would be 
available for future Council consideration in individual cases of 
violations.

  a. Has the Security Council developed a menu of such penalties?

                       II. U.N. GENERAL ASSEMBLY
1. The General Assembly should move expeditiously to adopt a definition 
of terrorism along the lines recommended by the High-Level Panel and 
endorsed by the Secretary General. On the basis of that definition, the 
Assembly should proceed as soon as possible to conclude a comprehensive 
convention on terrorism. The definition of terrorism should cover the 
actions of individuals or irregular organizations, rather than armies 
since the latter are bound by the rules of war and need not be covered 
by additional language prohibiting terrorism. Although international 
consensus on the basis of the formulation contained in the High-Level 
Panel would be a major step forward, the definition of terrorism should 
ideally also cover acts of violence against noncombatant military 
units--for example, those deployed to a given country as part of a 
U.N.-authorized peacekeeping force or those present on foreign soil 
only to provide training or receive logistics support.

  a. Has the General Assembly adopted a comprehensive definition of 
        terrorism acceptable to the United States?

2. The Terrorism Prevention Branch of the U.N. Office on Drugs and 
Crime (UNODC) should be encouraged to intensify its efforts to promote 
wide adherence to the international conventions on terrorism, 
especially the new Convention for the Suppression of Acts of Nuclear 
Terrorism, and to provide member states legal advice on domestic 
implementing legislation necessary to make those conventions effective.

  a. Have member states received legal advice on the Convention for the 
        Suppression of Acts of Nuclear Terrorism?

                III. INTERNATIONAL ATOMIC ENERGY AGENCY
1. The United States should continue pressing for establishment of a 
committee of the IAEA Board to review the Agency's role in monitoring 
and promoting compliance with nuclear nonproliferation obligations.

  a. Has a committee of the IAEA Board actually been established?
  b. Have the results of the review been published?

2. The IAEA and its Board should strongly promote universal 
ratification and rigorous enforcement of the Additional Protocol. 
Nuclear Suppliers Group members can assist in this effort by adopting a 
guideline that makes adherence to the Additional Protocol by recipient 
states a condition for nuclear cooperation.

  a. Has the IAEA and its board issued a statement on universal 
        ratification and enforcement of the Additional Protocol?
  b. Has such a guideline been established by the Nuclear Suppliers 
        Group?

3. IAEA Board members should urge that the Agency's relatively new 
function of investigating nuclear trafficking networks be expanded.

  a. Has the IAEA Board issued a statement on expanding its role in 
        investigating nuclear trafficking networks?

4. The United States and other Board members must strongly encourage 
the IAEA to assign higher priority to nuclear security.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council, the General Assembly, or directly 
        to the IAEA?
  b. Have any other board members taken similar action?

5. The IAEA and its Board should examine means of assuring countries 
that renounce the right to possess their own enrichment and 
reprocessing capabilities that they will have reliable access to 
nuclear reactor fuel supplies.

  a. Has the IAEA undertaken such a study?
  b. Has the IAEA communicated the results to member states?

    IV. ORGANIZATION FOR THE PROHIBITION OF CHEMICAL WEAPONS (OPCW)
1. The missions of OPCW and its Technical Secretariat should be 
adjusted to deal more heavily with the nonstate actor chemical weapons 
threat.

  a. Have the missions been so adjusted?

2. OPCW should become a partner of the 1540 Committee to help it 
implement U.N. Security Council Resolution 1540's requirements in the 
chemical area as in the case of the IAEA for nuclear issues, including 
taking the lead in assisting in establishing international standards 
for legislation criminalizing CW-related activities by nonstate actors. 
It should assist the committee in the area of physical protection, 
assessing the adequacy of security and accountancy measures at declared 
chemical weapons storage depots and developing international standards 
for protecting chemical industry plants against theft or sabotage. With 
respect to the reports countries are called upon to submit under 1540, 
the OPCW would assist in evaluating performance, suggesting 
improvements, and coordinating assistance efforts.

  a. Has the OPCW provided assistance in evaluating 1540 mandated 
        reports?
  b. Has the OPCW made suggestions and coordinated assistance to member 
        states based on its evaluation of 1540 reports?

3. The United States and other CWC parties should request OPCW's 
Technical Secretariat to examine the potential for state and nonstate 
actors to use new technologies, such as microreactors and novel 
chemical agents, for CW purposes and make recommendations on whether 
and how the CWC regime can be modified to keep up with the evolving CW 
proliferation threat.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council, the General Assembly, directly to 
        the OPCW, or directly to the OPCW's Technical Secretariat?
  b. Have other CWC parties taken similar action?
  c. Has the OPCW's Technical Secretariat undertaken such a study?
  d. Has the OPCW's Technical Secretariat made recommendations based on 
        the study?
  e. Have those recommendations been acted on?

                   V. WORLD HEALTH ORGANIZATION (WHO)
1. While the WHO should strengthen its existing public health 
capabilities that are also relevant to reducing the biowarfare threat, 
consideration should urgently be given to establishing a new U.N. 
organization responsible for dealing with biological weapons issues.

  a. Has a study on establishing a new U.N. organization for dealing 
        with biological weapons been completed?
  b. Has the WHO increased existing public health capabilities that are 
        relevant to biowarfare?

2. WHO should undertake a major upgrading of its global disease 
surveillance and response network. The United States should be prepared 
to take the lead in persuading other donor governments to commit the 
additional resources required. Informal arrangements should be worked 
out so that, in the event of a suspicious disease outbreak that seemed 
to be the result of intentional BW use, WHO could immediately notify 
the new U.N. biological warfare organization and the U.N. Secretary 
General, who would be in a position to dispatch biowarfare experts to 
assist WHO in its investigation.

  a. Has WHO upgraded its global disease surveillance and response 
        network?

3. The new U.N. organization responsible for countering the biowarfare 
threat would work with the 1540 Committee and relevant international 
health organizations, including WHO, to develop common international 
biosecurity standards, both with respect to ensuring that only bona 
fide scientists have access to dangerous pathogens and ensuring that 
facilities engaged in legitimate research with dangerous pathogens have 
adequate physical security measures in place.

  a. Have common international biosecurity standards been established?
  b. Do only bona fide scientists have access to dangerous pathogens?
  c. Do dangerous pathogens have adequate physical security measures?

4. The new biowarfare organization should also work with the WHO and 
other international scientific organizations to develop international 
guidelines or standards for reviewing, approving, and monitoring dual 
use bioscientific research projects, particularly in the area of 
genetic engineering, that could produce results that could be applied 
by states or terrorist groups to offensive BW purposes.

  a. Do international guidelines exist for reviewing, approving, and 
        monitoring dual-use bioscientific research projects?

                   VI. CONFERENCE ON DISARMAMENT (CD)
1. The CD has outlived its usefulness and should be disbanded. Instead 
of having a single multilateral negotiating body take its place, the 
Security Council should, as the need arises, set up ad hoc bodies of 
manageable size to take on discrete, narrowly defined tasks, such as 
negotiating a treaty banning further production of fissile materials or 
developing common international standards for biosecurity.

War and Peace: Preventing and Ending Conflicts

    I. U.N. PEACEKEEPING: DOCTRINE, PLANNING, AND STRATEGIC GUIDANCE

1. The Department of Peacekeeping Operations should develop doctrine 
that recognizes the need for capable forces in the new security 
environments in which peacekeepers are mandated by the Security Council 
to operate, and the United States should press for member state 
acceptance of these new realities and their resource implications.

  a. Has the Department of Peacekeeping Operations developed the 
        doctrine?
  b. Has the U.S. military provided advice in the development of this 
        doctrine?

2. More broadly, the United Nations should develop doctrine and 
strategy for multidimensional peace operations that thoroughly 
integrate the security dimension with economic and political 
development requirements. Prior to deployments, a strategic assessment 
of the crisis situation should be made to determine the full range of 
measures necessary to effectively address the causes of the crisis. 
Strategic mission plans should precede deployments, and should be 
drafted by senior-level mission strategy groups brought together prior 
to missions.

[Note: This may only be applicable as future peacekeeping operations 
evolve.]

  a. Has the U.N. developed a multidimensional strategy for peace 
        operations?
  b. Does a strategic mission plan exist for each peacekeeping 
        operation?
  c. Was this plan drafted by senior-level mission strategy groups 
        prior to executing the peacekeeping mission?

                   II. SEXUAL EXPLOITATION AND ABUSE
1. The United Nations must quickly implement a policy of zero tolerance 
of sexual exploitation and abuse by peacekeepers. The United States 
should strongly support implementation of reform measures designed to 
ensure uniform standards for all civilian and military participants in 
peace operations; training programs relating to sexual exploitation and 
abuse; increased deployment of women in peacekeeping operations; 
deployment of established (rather than ``patched together'') units to 
peacekeeping operations; accountability of senior managers; effective 
data collection and management; victim's assistance; staffing increases 
to enhance supervision; and organized recreational activities for 
peacekeepers.

  a. Is there a policy of zero tolerance of sexual exploitation?
  b. Are there training programs for U.N. civilians and military?
  c. Are established units deploying to support U.N. operations?
  d. Is there a victim's assistance program?
  e. Is data being collected?
  f. Are recreational activities being provided for peacekeepers?

2. While these measures have recently been endorsed by member states, 
the United States should urge generous budgetary support for these 
initiatives, and should also press for independent investigative 
capacity.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council or General Assembly?
  b. Is there an independent investigative capacity?

3. The United States should seek to ensure effective programs of 
assistance for victims who make substantial claims, even when neither 
the victim nor the United Nations is able to obtain redress from the 
perpetrator of the abuse.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council or General Assembly?

4. States that prove unwilling or unable to ensure discipline among 
their troops should not be permitted to provide troops to peacekeeping 
missions.

  a. Has a U.N. resolution or rule change implementing this policy been 
        adopted?

                         III. RAPID DEPLOYMENT
1. While the task force does not endorse a standing U.N. military 
force, member states must increase substantially the availability of 
capable, designated forces, properly trained and equipped, for rapid 
deployment to peace operations on a voluntary basis. The Secretariat 
should enhance its capacity to coordinate increases in member state 
contributions to the Stand-by Arrangements system.

2. The United States should sustain and strengthen its support for 
regional peacekeeping capacity building, such as the Global Peace 
Operations Initiative.

3. The Department of Defense should prepare policy options for U.S. 
support of capacity enhancements and for U.S. engagement in peace 
operations consistent with U.S. national interests.

  a. Has the DOD prepared policy options to support capacity 
        enhancements and for U.S. engagement in peace operations?

 IV. THE U.N. ROLE AND CAPACITY IN CONFLICT MEDIATION AND PEACEBUILDING
1. To enhance support for U.N. efforts at conflict mediation and 
negotiation, the United States should support an increase in resources 
for the Department of Political Affairs (DPA), following an independent 
study providing a strategy for enhancing DPA capacity and improving 
coordination with DPKO.

  a. Has an independent study of the DPA and DPKO been conducted?
  b. Have the results been provided to the member states?
  c. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council or General Assembly?

2. To enhance support for postconflict peacebuilding activities, the 
United States should support the creation of a Peacebuilding 
Commission, a Peacebuilding Support Office, and a voluntary 
peacebuilding support fund.

  a. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council or General Assembly?
  b. Has a Peacebuilding Commission been created?
  c. Has a Peacebuilding Support Office been created?
  d. Has a voluntary peacebuilding support fund been established?

3. The United States should also encourage member governments with 
expertise in peacebuilding activities, such as those related to rule of 
law, to play lead nation roles on these issues in particular peace 
operations.

  a. Has the U.S. Congress passed a resolution communicating this?
  b. Has this been formally communicated by the U.S. Mission to the 
        U.N. in the Security Council, General Assembly, or directly to 
        relevant members?

4. The task force supports an increase in funding for the peace 
operation-related activities of the Office of the High Commissioner for 
Human Rights and the U.N.'s Electoral Assistance Division.

  a. Has funding increased for the peacekeeping activities of the 
        Office of the High Commissioner for Human Rights and the U.N.'s 
        Electoral Assistance Division?

   V. U.S. CAPACITY IN CIVILIAN POSTCONFLICT STABILIZATION ACTIVITIES
1. To enhance U.S. ability to support postconflict reconstruction and 
to coordinate its efforts with the United Nations and other 
governments, the United States should strengthen the new State 
Department Office of the Coordinator for Reconstruction and 
Stabilization, and Congress should provide it with resources necessary 
(and requested by the administration) to play its coordination role.

                             VI. SANCTIONS
1. Sanctions must be part of an overall strategy that integrates 
diplomacy and coercion in an informed and effective manner, and must be 
carefully targeted to avoid unintentional impacts, punish perpetrators 
of abuses and illegality, and create incentives for change. Member 
states and the Secretariat must develop dedicated capacities for 
sanctions analysis, implementation, and enforcement.

  a. Does the U.S. have dedicated capacities for sanctions analysis, 
        implementation, and enforcement?
  b. Do other member states?
  c. Does the Secretariat have a dedicated capability for sanctions 
        analysis, implementation, and enforcement?

Helping People and Nations: Development and Humanitarian Assistance

                       I. GENERAL RECOMMENDATIONS
1. The U.S. Department of State should be the policy leader for 
development and humanitarian assistance issues, especially with respect 
to coordinating U.S. Government support to multilateral organizations.

2. Enhance the predictability and coherence of U.S. support of U.N. 
assistance.

3. Place greater emphasis on external evaluation of U.N. development 
and humanitarian programs.

                          II. REDUCING POVERTY
1. Push the United Nations to balance the interest in poverty reduction 
with an interest in governance and economic growth.

2. The U.S. Department of State's new office for the Office of the 
Coordinator for Reconstruction and Stabilization (S/CRS) should 
establish a collaborative relationship with the U.N. Peacebuilding 
Commission, if such a new body is created as part of U.N. reform.

[Note: This action requires that a U.N. Peacebuilding Commission be 
established.]

3. Reorient the mission and activities of the Economic and Social 
Council (ECOSOC), giving it a clearly focused mission.

4. ECOSOC should eliminate the practice of secret voting by members, 
and the Department for Economic and Social Affairs should be 
streamlined.

  a. Does ECOSOC continue secret votes?
  b. Is the Department for Economic and Social Affairs more streamlined 
        then before?

                        III. CONTAINING DISEASE
1. Strengthen the U.N. relationship with the World Bank.

  a. Are regular meetings taking place between World Bank and U.N. 
        representatives?
  b. Are the World Bank and U.N. publishing coordinated documents, 
        plans, and policies?

2. Connect the U.N. Development Group (UNDG) with the equivalent 
executive bodies dealing with humanitarian and peacekeeping operations.

  a. Are the representatives from the U.N. Development Group (UNDG) and 
        equivalent humanitarian and peacekeeping executive bodies 
        meeting regularly?
  b. Are the UNDG and equivalent humanitarian and peacekeeping 
        executive bodies publishing coordinated documents, plans, and 
        policies?

3. Empower resident coordinators with regard to sectorwide strategies 
and budgets.

  a. Are resident coordinators producing and publishing sectorwide 
        strategies?
  b. Are resident coordinators actually exercising day-to-day influence 
        over their budgets?

4. Apply new business models for delivering assistance, including 
greater partnership between U.N. agencies and the private sector.

5. Rationalize and simplify the funding of U.N. Programs.

6. The Consolidated Appeals Process (CAPS) model--which greatly 
improves transparency and improves the ability of member governments to 
donate to priority programs--should be replicated beyond its current 
application in humanitarian relief to other domains of U.N. assistance, 
such as child survival, peacebuilding, rule of law, postcrisis recovery 
(including demobilization and reintegration of soldiers), and disaster 
risk mitigation.

  a. Has the CAPS model been applied to child survival?
  b. Has the CAPS model been applied to peacebuilding?
  c. Has the CAPS model been applied to rule of law?
  d. Has the CAPS model been applied to postcrises recovery?
  e. Has the CAPS model been applied to disaster risk mitigation?

7. Allow leading U.N. officials and resident coordinators to appoint 
the personnel they wish, but hold them accountable for the mission and 
results.

8. U.N. field offices should be encouraged to continue moving toward 
common services.

9. Establish third-party and independent mechanisms for auditing as 
well as for monitoring and evaluation.

10. Strengthen the lead coordinating role of WHO in combating 
infectious diseases.

11. WHO should operate in all areas of the world. Taiwan, for instance, 
is excluded from WHO membership due to the opposition of China. This 
deprives the organization of valuable resources and significantly 
impedes the fight against the SARS epidemic and other infectious 
diseases. Taiwan should have the closest possible association with WHO.

  a. Is WHO operating in Taiwan?

12. Strengthen and mandate UNICEF to regain the lead it once had, 10 
years ago, in the global efforts for child survival and against hunger 
and nutritional deficiency diseases.

                        IV. ALLEVIATING DISASTER
13. Reengineer the relief architecture of the U.N.

14. Require that 15-20 percent of disaster funding being spent toward 
risk reduction and mitigation.

  a. What is the actual percentage of disaster funding being spent on 
        risk reduction and mitigation?
                                 ______
                                 

 Statement of Secretary General Kofi Annan to the General Assembly of 
              the United Nations, New York, NY, March 2005

    Mr. President, Excellencies, thank you for allowing me to present 
to you, in person, the 5-year progress report that you requested from 
me, on the implementation of the Millennium Declaration.
    The main message of that report is that the aims of the Declaration 
can be achieved, but only if you, the member states, are willing to 
adopt a package of specific, concrete decisions this year.
    Some of those decisions are so important that they need to be taken 
at the level of heads of state and government. It is, therefore, very 
fortunate that your heads of state and government have agreed to come 
here for a summit meeting in September. I am giving you my report 6 
months ahead of that meeting, so that your governments have ample time 
to consider it. My hope is that world leaders, when they arrive here in 
September, will be ready to take the decisions that are needed.
    And I hope they will adopt them as a package.
    In any such list of proposals, there are items which seem more 
important to some than to others, and items about which some have 
reservations, while others consider them essential. The temptation is 
to treat the list as an a la carte menu, and select only those that you 
especially fancy.
    In this case, that approach will not work. What I am proposing 
amounts to a comprehensive strategy. It gives equal weight and 
attention to the three great purposes of this Organization: 
Development, security, and human rights, all of which must be 
underpinned by the rule of law. Some states may think that we should 
give priority to one of those purposes over the others; and within each 
of them, many states will have their particular preferences.
    But I do not need to remind you that this is an Organization of 191 
member states. We all know that global problems can best be solved if 
all states work together. We must also accept that that will only 
happen if, within the common strategy, all states see their specific 
concerns addressed.
    I argue in the report, and I am profoundly convinced, that the 
threats which face us are of equal concern to all. I have called the 
report ``In Larger Freedom,'' because I believe those words from our 
charter convey the idea that development, security, and human rights go 
hand in hand. In a world of interconnected threats and opportunities, 
it is in each country's self-interest that all of these challenges are 
addressed effectively. The cause of larger freedom can only be advanced 
if nations work together; and the United Nations can only help if it is 
remoulded as an effective instrument of their common purpose.
    You may or may not find my argument convincing. But please 
remember, in any event, that if you need the help of other states to 
achieve your objectives, you must also be willing to help them achieve 
their objectives. That is why I urge you to treat my proposals as a 
single package.
    Excellencies, let me now briefly describe what I propose.
    The report is divided into four main sections. The first three set 
out priorities for action in the fields of development, security, and 
human rights, respectively, while the last deals with global 
institutions--mainly the United Nations itself, which must be, as the 
Millennium Declaration says, ``a more effective instrument'' for 
pursuing those priorities.
    The first part, entitled ``Freedom from Want,'' proposes specific 
decisions for implementing the bargain struck 3 years ago, in 
Monterrey, between developed and developing countries.
    I ask every developing country to adopt and begin to implement, by 
next year, a comprehensive national strategy bold enough to achieve the 
Millennium Development Goals by 2015; and to mobilise all its resources 
behind that strategy.
    Specifically, I ask developing countries to improve their 
governance, uphold the rule of law, combat corruption, and adopt an 
inclusive approach to development, making space for civil society and 
the private sector to play their full part. The challenge of 
development is too big for governments to face it alone.
    And I ask every developed country to support these strategies, by 
increasing the amount it spends on development and debt relief, and 
doing whatever it can to level the playing field for world trade.
    Specifically, I ask developed countries to commit themselves, this 
year, to complete the Doha round of trade negotiations no later than 
2006, and as a first step to give immediate duty-free and quota-free 
market access to all exports from the Least Developed Countries.
    I also ask them to commit themselves to reach, by 2015, the target 
of spending 0.7 percent of their gross domestic product on official 
development assistance. This increase must be ``front-loaded'' through 
an international finance facility, since if we are to reach the goals 
by 2015 we need the increased spending right away. For the longer term, 
other innovative sources of finance must be considered.
    All governments must be accountable for fulfilling their part of 
this bargain, both to their own peoples and to each other.
    I stress that development must be sustainable. All our efforts will 
be in vain if their results are reversed by continued degradation of 
the environment and depletion of our natural resources.
    I am glad that the Kyoto Protocol has now entered into force, 
albeit 3 years after the deadline set by the Millennium Declaration, 
but I also note that it extends only until 2012, and that some major 
emitters of carbon remain outside it. I ask all states to agree that 
scientific advances and technological innovation must be mobilized now 
to develop tools for mitigating climate change, and that a more 
inclusive international framework must be developed for stabilizing 
greenhouse gas emissions beyond 2012, with broader participation by all 
major emitters and both developed and developing countries.
    And I recommend that member states consider building on one of this 
Organization's clear strengths, by setting up a $1 billion voluntary 
fund to allow us to bring rapid and effective relief to the victims of 
sudden disasters, whether natural or man-made. We were able to do this 
after the recent tsunami thanks to the rapid response from donors, but 
we should be ready to do it whenever and wherever an emergency occurs.
    In the second part of the report, entitled ``Freedom from Fear,'' I 
ask all states to agree on a new security consensus, by which they 
commit themselves to treat any threat to one of them as a threat to 
all, and to work together to prevent catastrophic terrorism, stop the 
proliferation of deadly weapons, end civil wars, and build lasting 
peace in war-torn countries.
    Among my specific proposals in this area, I ask all states to 
complete, sign, and implement the comprehensive convention on 
terrorism, based on a clear and agreed definition, as well as the 
convention on nuclear terrorism, and the fissile material cutoff 
treaty. I also ask member states to agree to establish a Peacebuilding 
Commission, within the United Nations, to help countries make the 
transition from war to lasting peace.
    In the third part of the report, entitled ``Freedom to Live in 
Dignity,'' I urge all states to agree to strengthen the rule of law, 
human rights, and democracy in concrete ways.
    In particular, I ask them to embrace the principle of the 
``Responsibility to Protect,'' as a basis for collective action against 
genocide, ethnic cleansing, and crimes against humanity--recognizing 
that this responsibility lies first and foremost with each individual 
state, but also that, if national authorities are unable or unwilling 
to protect their citizens, the responsibility then shifts to the 
international community; and that, in the last resort, the United 
Nations Security Council may take enforcement action according to the 
charter.
    Among other measures, I also ask all states to ratify and implement 
all treaties relating to the protection of civilians; and to agree to, 
and within their means contribute to, a Democracy Fund at the United 
Nations, which would provide funding and technical assistance to 
countries seeking to establish or strengthen their democracy.
    In the final part of the report on ``Strengthening the United 
Nations,'' I set out proposals for making this Organization the 
instrument through which all its member states can agree on the 
strategies outlined in the first three parts, and help each other to 
implement them. This reflects my long-held view that, in order to do 
its job, the United Nations must be brought fully into line with 
today's realities. It can and must be a representative and efficient 
world organization, open and accountable to the public as well as to 
governments.
    I start with proposals for the revitalization of this Assembly--to 
which the Millennium Declaration rightly assigned a central position as 
the chief deliberative, policymaking and representative organ of the 
United Nations, but which in recent times has suffered from declining 
prestige, and has not made the contribution that it should to our 
activities. I am asking your heads of state and government to reverse 
this by instructing you to adopt, at your 60th session, a comprehensive 
package of reforms; by resolving to focus your agenda on major 
substantive issues of the day; and by establishing mechanisms through 
which you can engage fully and systematically with civil society, as 
recommended in the Cardoso Report.
    I then recommend a system of three Councils, covering respectively, 
(a) international peace and security, (b) economic and social issues, 
and (c) human rights. This reflects the priorities set out in the 
earlier parts of the report, on which I believe there is broad 
consensus.
    The first two of these Councils already exist, of course, but need 
to be strengthened. The third requires a far-reaching overhaul and 
upgrading of our human rights machinery.
    First, I urge member states to make the Security Council more 
broadly representative of the international community as a whole, as 
well as of the geopolitical realities of today.
    This important issue has been discussed for too long. I believe 
member states should agree to take a decision on it--preferably by 
consensus, but in any case before the summit--making use of one or 
other of the options presented in the report of the high-level panel.
    And I suggest that the renewed Security Council should make clear, 
in a resolution, the principles by which it intends to be guided when 
deciding whether to authorize or mandate the use of force.
    Secondly, I make proposals for enabling the Economic and Social 
Council, whose functions are clearly relevant to our all-important 
development agenda, to play the leading role that should be expected of 
it, in making and implementing coherent United Nations policies for 
development.
    And thirdly, I ask member states to create a new Council to fulfill 
one of the primary purposes of the Organization, which clearly now 
requires more effective operational structures--the promotion of human 
rights. This would replace the present Commission on Human Rights, 
whose capacity to perform its tasks has been undermined by its 
declining credibility and professionalism. The Human Rights Council, I 
suggest, should be smaller than the Commission, and elected directly by 
a two-thirds majority of this Assembly.
    I also make far-reaching proposals for the reform of the 
Secretariat, which must be more flexible, transparent, and accountable 
in serving the priorities of member states, and the interests of the 
world's peoples; and for introducing greater coherence into the work of 
the United Nations system as a whole, especially its response to 
humanitarian emergencies and its handling of environmental issues.
    Excellencies, I make no apology for the detailed, matter-of-fact 
nature of this presentation. As far as detail goes, I assure you it is 
merely the tip of the iceberg. I trust that you will read my report in 
full. You will find in it many more proposals than I have had time to 
describe here.
    As for being matter-of-fact, I have deliberately spared you any 
flights of rhetoric. This hall has heard enough high-sounding 
declarations to last us for some decades to come. We all know what the 
problems are, and we all know what we have promised to achieve. What is 
needed now is not more declarations or promises, but action to fulfill 
the promises already made.
    I believe my report provides a clear program of actions that are 
fully within the power of your governments to take. I urge you once 
again to study it. And I urge your heads of state and government to be 
ready to take those decisions when they come here in September.
    Thank you very much.
                                 ______
                                 

Report of U.N. Secretary General Kofi Annan to the Human Rights Council 
                         of the United Nations

[United Nations General Assembly, 59th session, agenda items 45 and 55, 
integrated and coordinated implementation of and followup to the 
outcomes of the major United Nations conferences and summits in the 
economic, social and related fields. Followup to the outcome of the 
Millennium Summit. Explanatory note by the Secretary-General*]

                    THE SECRETARY-GENERAL'S PROPOSAL
    1. The establishment of a Human Rights Council would reflect in 
concrete terms the increasing importance being placed on human rights 
in our collective rhetoric. The upgrading of the Commission on Human 
Rights into a full-fledged Council would raise human rights to the 
priority accorded to it in the Charter of the United Nations. Such a 
structure would offer architectural and conceptual clarity, since the 
United Nations already has Councils that deal with two other main 
purposes--security and development.
---------------------------------------------------------------------------
    * Initially transmitted by the Secretary-General to the President 
of the General Assembly on 14 April 2005, with the request that it be 
brought to the attention of the members of the General Assembly.
---------------------------------------------------------------------------
    2. The Commission on Human Rights in its current form has some 
notable strengths and a proud history, but its ability to perform its 
tasks has been overtaken by new needs and undermined by the 
politicization of its sessions and the selectivity of its work. A new 
Human Rights Council would help serve to overcome some growing 
problems--of perception and in substance--associated with the 
Commission, allowing for thorough reassessment of the effectiveness of 
United Nations intergovernmental machinery in addressing human rights 
concerns.
    3. The Secretary-General proposed the establishment of a Human 
Rights Council in his March 2005 report entitled ``In Larger Freedom: 
Towards Development, Security and Human Rights for All'' (A/59/2005). 
The proposal reads:

          If the United Nations is to meet the expectations of men and 
        women everywhere--and indeed, if the Organization is to take 
        the cause of human rights as seriously as those of security and 
        development, then Member States should agree to replace the 
        Commission on Human Rights with a smaller standing Human Rights 
        Council. Member States would need to decide if they want the 
        Human Rights Council to be a principal organ of the United 
        Nations or a subsidiary body of the General Assembly, but in 
        either case its members would be elected directly by the 
        General Assembly by a two-thirds majority of members present 
        and voting. The creation of the Council would accord human 
        rights a more authoritative position, corresponding to the 
        primacy of human rights in the Charter of the United Nations. 
        Member States should determine the composition of the Council 
        and the term of office of its members. Those elected to the 
        Council should undertake to abide by the highest human rights 
        standards. (A/59/2005, para. 182)

    4. The Human Rights Council would be a standing body, able to meet 
regularly and at any time to deal with imminent crises and allow for 
timely and in-depth consideration of human rights issues. Moving human 
rights discussions beyond the politically charged six-week session 
would also allow more time for substantive follow-up on the 
implementation of decisions and resolutions. Being elected by the 
entire membership of the General Assembly would make members more 
accountable and the body more representative. And being elected 
directly by the General Assembly--the principal United Nations 
legislative body--would also have greater authority than the 
Commission, which is a subsidiary body of the Economic and Social 
Council. Indeed, according to the Charter, responsibility for 
discharging the functions under the Economic and Social Council, 
including the promotion of human rights, is ultimately vested in the 
General Assembly. A smaller membership would allow the Human Rights 
Council to have more focused debate and discussions.
    5. The Secretary-General believes that the Human Rights Council 
should be located in Geneva, allowing it to continue to work in close 
cooperation with the Office of the United Nations High Commissioner for 
Human Rights. The World Food Council (1974-1995) represents a precedent 
for a standing Council established by the General Assembly sitting 
outside New York. Similarly, the International Court of Justice at the 
Hague represents a principal Charter body located outside New York. 
While based in Geneva, as a standing body the Council would have the 
flexibility to ``enhance'' its presence in New York. Options would 
include holding special sessions in New York or having specific 
subcomponents based in New York so as to better interface with the 
General Assembly, the Security Council, and the Economic and Social 
Council.
    6. The Secretary-General further elaborated on a proposed new key 
peer review function for the Human Rights Council in a speech to the 
Commission on Human Rights on 7 April 2005:

          It should have an explicitly defined function as a chamber of 
        peer review. Its main task would be to evaluate the fulfillment 
        by all States of all their human rights obligations. This would 
        give concrete expression to the principle that human rights are 
        universal and indivisible. Equal attention will have to be 
        given to civil, political, economic, social and cultural 
        rights, as well as the right to development. And it should be 
        equipped to give technical assistance to States and policy 
        advice to States and United Nations bodies alike. Under such a 
        system, every Member State could come up for review on a 
        periodic basis. Any such rotation should not, however, impede 
        the Council from dealing with any massive and gross violations 
        that might occur. Indeed, the Council will have to be able to 
        bring urgent crises to the attention of the world community.

    7. The peer review mechanism would complement but would not replace 
reporting procedures under human rights treaties. The latter arise from 
legal commitments and involve close scrutiny of law, regulations, and 
practice with regard to specific provisions of those treaties by 
independent expert panels. They result in specific and authoritative 
recommendations for action. Peer review would be a process whereby 
States voluntarily enter into discussion regarding human rights issues 
in their respective countries, and would be based on the obligations 
and responsibilities to promote and protect those rights arising under 
the Charter and as given expression in the Universal Declaration of 
Human Rights. Implementation of findings should be developed as a 
cooperative venture, with assistance given to States in developing 
their capacities.
    8. Crucial to peer review is the notion of universal scrutiny, that 
is, that the performance of all Member States in regard to all human 
rights commitments should be subject to assessment by other States. The 
peer review would help avoid, to the extent possible, the 
politicization and selectivity that are hallmarks of the Commission's 
existing system. It should touch upon the entire spectrum of human 
rights, namely, civil, political, economic, social and cultural rights. 
The Human Rights Council will need to ensure that it develops a system 
of peer review that is fair, transparent, and workable, whereby States 
are reviewed against the same criteria. A fair system will require 
agreement on the quality and quantity of information used as the 
reference point for the review. In that regard, the Office of the High 
Commissioner could play a central role in compiling such information 
and ensuring a comprehensive and balanced approach to all human rights. 
The findings of the peer reviews of the Human Rights Council would help 
the international community better provide technical assistance and 
policy advice. Furthermore, it would help keep elected members 
accountable for their human rights commitments.

        ISSUES TO BE DISCUSSED BEFORE THE SEPTEMBER 2005 SUMMIT
    9. Member States will need to come to agreement on a number of 
issues in advance of the summit to be held in September 2005. 
Consultations with the High Commissioner would naturally be part of the 
process and she is ready to assist. Specifically, the Secretary-General 
suggests the need for agreement regarding the Human Rights Council on a 
number of issues as set out below.
Mandate and function
    10. In addition to existing functions and responsibilities of the 
Commission under Economic and Social Council resolutions 1235 (XLII) 
and 1503 (XLVIII), the Human Rights Council would consider the 
situation of all human rights in all countries based on the above peer 
review system. Until being thoroughly reviewed by the Human Rights 
Council upon its establishment, the thematic and country-specific 
procedure mandates, as well as the intergovernmental working groups and 
the Subcommission, would be requested to report to the Human Rights 
Council. The Human Rights Council would reconsider and refine or amend 
those according to its own terms of reference, together with its agenda 
of work and working methods. The proposed Human Rights Council is only 
one component of the United Nations human rights system, which includes 
the mandate of the High Commissioner, secretariat functions and the 
treaty bodies. In determining the mandate and function of the Human 
Rights Council, consideration should be given to functions that are 
best performed at an intergovernmental level, taking into account 
complementarity with other bodies and bearing in mind the Commission's 
experience. The Human Rights Council should have the authority to 
recommend policy measures to other organs of the United Nations that 
can help in the process of implementation.
    11. In addition to the proposed peer review outlined above, the 
Human Rights Council should also fulfill the following functions:

  <bullet> Member States should be able to come together and take 
        action when serious human rights situations develop. The 
        Commission is able to do this by having the option to adopt 
        specific country resolutions. While this capacity has attained 
        an unhealthy degree of politicization--which the proposed peer 
        review function of the Human Rights Council should address--the 
        ability to address serious situations must be retained and 
        revived. In addition, the Commission has the capacity to meet 
        in extraordinary session if a majority of members agree; this 
        capacity should be retained by the Human Rights Council, the 
        envisioned format of which would facilitate consideration of 
        urgent situations outside the framework of ordinary sessions. 
        Furthermore, the High Commissioner would benefit from being 
        able to call for action and support from a United Nations 
        standing body with the authority of a full-fledged Council. A 
        forum for dialogue among Member States and involving civil 
        society on human rights issues, should be preserved. The 
        dialogue would allow for constructive engagement on areas of 
        disagreement and creative responses to deal with new and 
        emerging issues, especially human rights problems for which 
        existing international standards are ambiguous. The role of 
        NGOs is crucial to providing policy inputs and views from the 
        field to Member States. Similarly, the increasing prominence 
        and activism of both national institutions and NGOs has 
        elevated their involvement in the human rights debate to centre 
        stage.
  <bullet> The proposed Human Rights Council should play a pivotal role 
        in overseeing and contributing to the interpretation and 
        development of international human rights law. International 
        law and standards are central to the United Nations system for 
        the protection of human rights; indeed, the body of 
        international human rights norms developed to date by the 
        Commission is perhaps its greatest legacy. As a standing body, 
        the Human Rights Council might find ways to overcome the delays 
        currently faced by the Commission regarding some standard-
        setting activities. The establishment of a Human Rights Council 
        would also reinforce the critical work of the treaty body 
        system, which has contributed significantly to the development 
        of international law over the past 20 years and could assist in 
        the process of streamlining and strengthening the system to 
        better carry out its mandate.
Composition
    12. Instead of being elected by the Economic and Social Council, 
the membership of the Human Rights Council would be elected by a two-
thirds vote of the General Assembly--which would be similar to the 
election process for Charter bodies. This would reflect the importance 
accorded to the body. Universality in voting would allow the body to be 
more accountable to the full membership of the Organization. Member 
States will need to decide on the length of terms, how Human Rights 
Council members would be elected and the rotation of members. If Member 
States choose to elect Human Rights Council members on a regional 
basis, all regional groups should be represented in proportion to their 
representation in the United Nations.
Size
    13. The Commission on Human Rights currently has 53 members, only 
one less than the membership of the Economic and Social Council, which 
elects Commission members. Originally numbering 18 members, the 
Commission has grown dramatically over the years. A smaller membership 
on the Human Rights Council would allow more focused discussion and 
debate. Elevating the status of the Commission into a Council would 
increase the possibility for States to serve on one of the three United 
Nations Councils.
Principal or subsidiary body
    14. There are two options for creating the Human Rights Council, as 
a principal organ or as a subsidiary body of the General Assembly. 
Establishing the Human Rights Council as a principal body of the United 
Nations would allow it to stand as a peer alongside both the Security 
Council and the Economic and Social Council and would require an 
amendment to the Charter. Establishing the Council as a subsidiary body 
of the General Assembly would not require an amendment to the Charter. 
In either case, the high standard of Charter bodies and ``important 
matters'' of a two-thirds majority vote should be retained.

                          DECISION TO BE TAKEN
    15. Upon consideration of the above issues, Member States could 
agree to endorse, in principle, the establishment of a Human Rights 
Council in the final declaration of the September 2005 summit. Draft 
language provided in the report of the Secretary-General reads:

          Agree to replace the Commission on Human Rights with a 
        smaller standing Human Rights Council, as a principal organ of 
        the United Nations or a subsidiary body of the General 
        Assembly, whose members would be elected directly by the 
        General Assembly by a two-thirds majority of members present 
        and voting. (A/59/2005, annex, para. 8(e))
         issues to be discussed after the september 2005 summit
    16. Further work on how the Human Rights Council would fulfill the 
outlined functions above, as well as the details regarding size, 
composition and establishment, would be dealt with in the post-summit 
phase. Indeed, the fate of many of the Commission's existing functions, 
procedures, and working groups would be left to the Council to endorse, 
renew or consider obsolete. The special procedures and NGO engagement 
are two aspects of the Commission that should continue with the Human 
Rights Council.
    17. Another set of issues requiring further elaboration concerns 
the role and mandate of the Human Rights Council vis-a-vis the other 
components of the United Nations human rights system, in particular the 
Office of the High Commissioner, other United Nations agencies and 
programmes dealing with human rights, the treaty monitoring bodies, the 
General Assembly, the Security Council, the Economic and Social Council 
and the proposed new Peacebuilding Commission. The creation of the 
Human Rights Council would reinforce and strengthen the human rights 
work of those other components. For example, the Human Rights Council 
would provide an opportunity to rationalize the agenda of the Third 
Committee of the General Assembly with the work of the Human Rights 
Council, as well as to strengthen the General Assembly's ability to 
analyse and draw attention to continuing gaps in the implementation and 
mainstreaming of human rights throughout the United Nations system. 
Similarly, the Council could assist in the establishment, support and 
generation of contributions for various voluntary funds, especially to 
assist developing countries.
                                 ______
                                 

  Executive Summary on the ``In Larger Freedom: Towards Development, 
               Security and Human Rights for All'' Report

              INTRODUCTION: A HISTORIC OPPORTUNITY IN 2005
    In September 2005, world leaders will come together at a summit in 
New York to review progress since the Millennium Declaration, adopted 
by all member states in 2000. The Secretary General's report proposes 
an agenda to be taken up, and acted upon, at the summit. These are 
policy decisions and reforms that are actionable if the necessary 
political will can be garnered.
    Events since the Millennium Declaration demand that consensus be 
revitalized on key challenges and priorities and converted into 
collective action. The guiding light in doing so must be the needs and 
hopes of people everywhere. The world must advance the causes of 
security, development, and human rights together, otherwise none will 
succeed. Humanity will not enjoy security without development, it will 
not enjoy development without security, and it will not enjoy either 
without respect for human rights.
    In a world of interconnected threats and opportunities, it is in 
each country's self-interest that all of these challenges are addressed 
effectively. Hence, the cause of larger freedom can only be advanced by 
broad, deep, and sustained global cooperation among states. The world 
needs strong and capable states, effective partnerships with civil 
society and the private sector, and agile and effective regional and 
global intergovernmental institutions to mobilize and coordinate 
collective action. The United Nations must be reshaped in ways not 
previously imagined, and with a boldness and speed not previously 
shown.
I. Freedom from want
    The last 25 years have seen the most dramatic reduction in extreme 
poverty the world has ever experienced. Yet dozens of countries have 
become poorer. More than a billion people still live on less than a 
dollar a day. Each year, 3 million people die from HIV/AIDS and 11 
million children die before reaching their fifth birthday.
    Today's is the first generation with the resources and technology 
to make the right to development a reality for everyone and to free the 
entire human race from want. There is a shared vision of development. 
The Millennium Development Goals (MDGs), which range from halving 
extreme poverty to putting all children into primary school and 
stemming the spread of infectious diseases such as HIV/AIDS, all by 
2015, have become globally accepted benchmarks of broader progress, 
embraced by donors, developing countries, civil society, and major 
development institutions alike.
    The MDGs can be met by 2015--but only if all involved break with 
business as usual and dramatically accelerate and scale up action now.
    In 2005, a ``global partnership for development''--one of the MDGs 
reaffirmed in 2002 at the International Conference on Financing for 
Development at Monterrey, Mexico, and the World Summit on Sustainable 
Development in Johannesburg, South Africa--needs to be fully 
implemented. That partnership is grounded in mutual responsibility and 
accountability--developing countries must strengthen governance, combat 
corruption, promote private sector-led growth and maximize domestic 
resources to fund national development strategies, while developed 
countries must support these efforts through increased development 
assistance, a new development-oriented trade round and wider and deeper 
debt relief.
    The following are priority areas for action in 2005:

  <bullet> National strategies: Each developing country with extreme 
        poverty should, by 2006, adopt and begin to implement a 
        national development strategy bold enough to meet the MDG 
        targets for 2015. Each strategy needs to take into account 
        seven broad ``clusters'' of public investments and policies: 
        Gender equality, the environment, rural development, urban 
        development, health systems, education, and science, 
        technology, and innovation.
  <bullet> Financing for development: Global development assistance 
        must be more than doubled over the next few years. This does 
        not require new pledges from donor countries, but meeting 
        pledges already made. Each developed country that has not 
        already done so should establish a timetable to achieve the 0.7 
        percent target of gross national income for official 
        development assistance no later than 2015, starting with 
        significant increases no later than 2006, and reaching 0.5 
        percent by 2009. The increase should be front-loaded through an 
        International Finance Facility, and other innovative sources of 
        financing should be considered for the longer term. The Global 
        Fund to Fight HIV/AIDS, Tuberculosis and Malaria must be fully 
        funded and the resources provided for an expanded comprehensive 
        strategy of prevention and treatment to fight HIV/AIDS. These 
        steps should be supplemented by immediate action to support a 
        series of ``Quick Wins''--relatively inexpensive, high-impact 
        initiatives with the potential to generate major short-term 
        gains and save millions of lives, such as free distribution of 
        antimalarial bednets.
  <bullet> Trade: The Doha round of trade negotiations should fulfill 
        its development promise and be completed no later than 2006. As 
        a first step, member states should provide duty-free and quota-
        free market access for all exports from the Least Developed 
        Countries.
  <bullet> Debt relief: Debt sustainability should be redefined as the 
        level of debt that allows a country to achieve the MDGs and to 
        reach 2015 without an increase in debt ratios.

    New action is also needed to ensure environmental sustainability. 
Scientific advances and technological innovation must be mobilized now 
to develop tools for mitigating climate change, and a more inclusive 
international framework must be developed for stabilizing greenhouse 
gas emissions beyond the expiry of the Kyoto Protocol in 2012, with 
broader participation by all major emitters and both developed and 
developing countries. Concrete steps are also required on 
desertification and biodiversity.
    Other priorities for global action include stronger mechanisms for 
infectious disease surveillance and monitoring, a worldwide early 
warning system on natural disasters, support for science and technology 
for development, support for regional infrastructure and institutions, 
reform of international financial institutions, and more effective 
cooperation to manage migration for the benefit of all.
II. Freedom from fear
    While progress on development is hampered by weak implementation, 
on the security side, despite a heightened sense of threat among many, 
the world lacks even a basic consensus--and implementation, where it 
occurs, is all too often contested.
    The Secretary General fully embraces a broad vision of collective 
security. The threats to peace and security in the 21st century include 
not just international war and conflict, but terrorism, weapons of mass 
destruction, organized crime, and civil violence. They also include 
poverty, deadly infectious disease, and environmental degradation, 
since these can have equally catastrophic consequences. All of these 
threats can cause death or lessen life chances on a large scale. All of 
them can undermine states as the basic unit of the international 
system.
    Collective security today depends on accepting that the threats 
each region of the world perceives as most urgent are, in fact, equally 
so for all. These are not theoretical issues, but ones of deadly 
urgency.
    The United Nations must be transformed into the effective 
instrument for preventing conflict that it was always meant to be, by 
acting on several key policy and institutional priorities:

  <bullet> Preventing catastrophic terrorism: States should commit to a 
        comprehensive antiterrorism strategy based on five pillars; 
        dissuading people from resorting to terrorism or supporting it; 
        denying terrorists access to funds and materials; deterring 
        states from sponsoring terrorism; developing state capacity to 
        defeat terrorism; and defending human rights. They should 
        conclude a comprehensive convention on terrorism, based on a 
        clear and agreed definition. They should also complete, without 
        delay, the convention for the suppression of acts of nuclear 
        terrorism.
  <bullet> Nuclear, chemical, and biological weapons: Progress on both 
        disarmament and nonproliferation are essential. On disarmament, 
        nuclear-weapon states should further reduce their arsenals of 
        nonstrategic nuclear weapons and pursue arms control agreements 
        that entail not just dismantlement but irreversibility, 
        reaffirm their commitment to negative security assurances, and 
        uphold the moratorium on nuclear test explosions. On 
        nonproliferation, the International Atomic Energy Agency's 
        verification authority must be strengthened through universal 
        adoption of the Model Additional Protocol, and states should 
        commit themselves to complete, sign, and implement a fissile 
        material cutoff treaty.
  <bullet> Reducing the prevalence and risk of war: Currently, half the 
        countries emerging from violent conflict revert to conflict 
        within 5 years. Member states should create an 
        intergovernmental Peacebuilding Commission, as well as a 
        Peacebuilding Support Office within the U.N. Secretariat, so 
        that the U.N. system can better meet the challenge of helping 
        countries successfully complete the transition from war to 
        peace. They should also take steps to strengthen collective 
        capacity to employ the tools of mediation, sanctions, and 
        peacekeeping (including a ``zero tolerance'' policy on sexual 
        exploitation of minors and other vulnerable people by members 
        of peacekeeping contingents, to match the policy enacted by the 
        Secretary General).
  <bullet> Use of force: The Security Council should adopt a resolution 
        setting out the principles to be applied in decisions relating 
        to the use of force and express its intention to be guided by 
        them when deciding whether to authorize or mandate the use of 
        force.

    Other priorities for global action include more effective 
cooperation to combat organized crime, to prevent illicit trade in 
small arms and light weapons, and to remove the scourge of landmines 
which still kill and maim innocent people and hold back development in 
nearly half the world's countries.
III. Freedom to live in dignity
    In the Millennium Declaration, member states said they would spare 
no effort to promote democracy and strengthen the rule of law, as well 
as respect for all internationally recognized human rights and 
fundamental freedoms. And over the last six decades, an impressive 
treaty-based normative framework has been advanced.
    But without implementation, these declarations ring hollow. Without 
action, promises are meaningless. People who face war crimes find no 
solace in the unimplemented words of the Geneva Conventions. Treaties 
prohibiting torture are cold comfort to prisoners abused by their 
captors, particularly if the international human rights machinery 
enables those responsible to hide behind friends in high places. War-
weary populations despair when, even though a peace agreement has been 
signed, there is little progress toward government under the rule of 
law. Solemn commitments to strengthen democracy remain empty words to 
those who have never voted for their rulers, and who see no sign that 
things are changing.
    Therefore, the normative framework that has been so impressively 
advanced over the last six decades must be strengthened. Even more 
important, concrete steps are required to reduce selective application, 
arbitrary enforcement, and breach without consequence. The world must 
move from an era of legislation to implementation.
    Action is called for in the following priority areas:

  <bullet> Rule of law: The international community should embrace the 
        ``responsibility to protect,'' as a basis for collective action 
        against genocide, ethnic cleansing, and crimes against 
        humanity. All treaties relating to the protection of civilians 
        should be ratified and implemented. Steps should be taken to 
        strengthen cooperation with the International Criminal Court 
        and other international or mixed war crimes tribunals, and to 
        strengthen the International Court of Justice. The Secretary 
        General also intends to strengthen the Secretariat's capacity 
        to assist national efforts to reestablish the rule of law in 
        conflict and post-conflict societies.
  <bullet> Human rights: The Office of the High Commissioner for Human 
        Rights should be strengthened with more resources and staff, 
        and should play a more active role in the deliberations of the 
        Security Council and of the proposed Peacebuilding Commission. 
        The human rights treaty bodies of the U.N. system should also 
        be rendered more effective and responsive.
  <bullet> Democracy: A Democracy Fund should be created at the U.N. to 
        provide assistance to countries seeking to establish or 
        strengthen their democracy.
IV. Strengthening the United Nations
    While purposes should be firm and constant, practice and 
organization need to move with the times. If the U.N. is to be a useful 
instrument for its member states, and for the world's peoples, in 
responding to the challenges laid out in the previous three parts, it 
must be fully adapted to the needs and circumstances of the 21st 
century.
    A great deal has been achieved since 1997 in reforming the internal 
structures and culture of the United Nations. But many more changes are 
needed, both in the executive branch--the Secretariat and the wider 
U.N. system--and in the U.N.'s intergovernmental organs:

  <bullet> General Assembly: The General Assembly should take bold 
        measures to streamline its agenda and speed up the deliberative 
        process. It should concentrate on the major substantive issues 
        of the day, and establish mechanisms to engage fully and 
        systematically with civil society.
  <bullet> Security Council: The Security Council should be broadly 
        representative of the realities of power in today's world. The 
        Secretary General supports the principles for reform set out in 
        the report of the high-level panel, and urges member states to 
        consider the two options, models A and B, presented in that 
        report, or any other viable proposals in terms of size and 
        balance that have emerged on the basis of either model. Member 
        states should agree to take a decision on this important issue 
        before the summit in September 2005.
  <bullet> Economic and Social Council: The Economic and Social Council 
        should be reformed so that it can effectively assess progress 
        in the U.N.'s development agenda, serve as a high-level 
        development cooperation forum, and provide direction for the 
        efforts of the various intergovernmental bodies in the economic 
        and social area throughout the U.N. system.
  <bullet> Proposed Human Rights Council: The Commission on Human 
        Rights suffers from declining credibility and professionalism, 
        and is in need of major reform. It should be replaced by a 
        smaller standing Human Rights Council, as a principal organ of 
        the United Nations or subsidiary of the General Assembly, whose 
        members would be elected directly by the General Assembly, by a 
        two-thirds majority of members present and voting.
  <bullet> The Secretariat: The Secretary General will take steps to 
        realign the Secretariat's structure to match the priorities 
        outlined in the report, and will create a cabinet-style 
        decisionmaking mechanism. He requests member states to give him 
        the authority and resources to pursue a one-time staff buyout 
        to refresh and realign staff to meet current needs, to 
        cooperate in a comprehensive review of budget and human 
        resources rules, and to commission a comprehensive review of 
        the Office of Internal Oversight Services to strengthen its 
        independence and authority.

    Other priorities include creating better system coherence by 
strengthening the role of Resident Coordinators, giving the 
humanitarian response system more effective standby arrangements, and 
ensuring better protection of internally displaced people. Regional 
organizations, particularly the African Union, should be given greater 
support. The charter itself should also be updated to abolish the 
``enemy clauses,'' the Trusteeship Council and the Military Staff 
Committee, all of which are outdated.

                 CONCLUSION: OPPORTUNITY AND CHALLENGE
    It is for the world community to decide whether this moment of 
uncertainty presages wider conflict, deepening inequality and the 
erosion of the rule of law, or is used to renew institutions for peace, 
prosperity, and human rights. Now is the time to act. The annex to the 
report lists specific items for consideration by heads of state and 
government. Action on them is possible. It is within reach. From 
pragmatic beginnings could emerge a visionary change of direction for 
the world.
                                 ______
                                 
NEWS RELEASE
UNITED STATES INSTITUTE OF PEACE
JUNE 15, 2005

Gingrich-Mitchell Task Force on U.N. Reform: Nations Have International 
   Responsibility to Protect People Within Own Borders From Genocide

    Washington.--In a report released today, the Task Force on the 
United Nations recommends that the U.S. Government endorse and call 
upon the U.N. and its members to ``affirm a responsibility of every 
sovereign government to protect its own citizenry and those within its 
borders from genocide, mass killing, and massive and sustained human 
rights violations.'' The report adds that the ``United States should 
insist that states asserting an absolutist doctrine of non-intervention 
explain why they are preventing action against the world's 
genocidaires.''
    The 12-member bipartisan task force, chaired by former House 
Speaker Newt Gingrich and former Senate Majority Leader George 
Mitchell, calls for abolition of the current U.N. Human Rights 
Commission, and establishment of a new Human Rights Council, ideally 
composed of democracies and dedicated to monitoring, promoting, and 
enforcing human rights.
    The report notes that without a renewed and more effective United 
Nations, the challenges to international security, development and 
well-being will be all the greater. The bipartisan task force, 
comprised of prominent experts, distinguished practitioners, and 
business leaders representing a wide range of opinion, issued its 
consensus report, ``in the firm belief that an effective U.N. is in 
American interests.''
    With a President and Congress united in their desire to advance our 
national interests, the United Nations can be led to meet more 
completely the lofty goals of its charter, says the task force. Both 
the Bush administration and the U.S. Congress are keenly focused on the 
U.N. reform process. The report concludes that U.S. leadership will be 
essential to bringing about meaningful reform and adds that a 
successful effort will ``require bipartisanship in Washington's 
approach to the United Nations.''
    Mandated by Congress in the FY2005 omnibus appropriations bill at 
the behest of Representative Frank Wolf (R-VA), the report offers an 
actionable American agenda for strengthening the United Nations. The 
full report is available at www.usip.org.
    Other report recommendations include:

  <bullet> Providing immediate U.S support for initiatives to halt the 
        genocide in Darfur, Sudan, including the assembly of a U.S. 
        coordinated package of assistance for African Union deployment 
        in Darfur that will serve as a force multiplier, and support 
        for establishment of a no-fly zone.
  <bullet> Addressing urgently needed internal U.N. management reform 
        by:

    <bullet> Establishing a single, very senior official in charge of 
            daily operations and filling the role of Chief Operating 
            Officer;
    <bullet> Empowering the Secretary General to replace his or her top 
            officials;
    <bullet> Creating an Independent Oversight Board that has the audit 
            powers to prevent another scandal like Oil-for-Food.

  <bullet> Increasing support substantially for the effort to bring 
        developing nations out of poverty as a global priority, 
        including government-to-government assistance, and private 
        investment, including the legal, political and economic 
        infrastructure that will allow such aid and investment to 
        flourish.
  <bullet> Implementing quickly a U.N. policy of zero tolerance of 
        sexual exploitation and abuse by U.N. peacekeepers.
  <bullet> Adopting in the General Assembly a definition of terrorism 
        and passing a comprehensive convention condemning all forms of 
        terrorism.

    Congress established the Task Force on the United Nations in 
December 2004 to assess reforms that would enable the U.N. to better 
meet the goals of its 1945 charter. Congress directed that the study 
address obstacles to achieving such goals, especially maintaining 
international peace and security and promoting universal respect for, 
and observance of, human rights and fundamental freedoms. The task 
force will discuss its findings with Congress in a hearing of the 
Science, State, Commerce and Justice Appropriations Subcommittee, to be 
chaired by Representative Wolf on Wednesday, June 22, at 10 a.m., in 
2359 Rayburn House Office Building.
    In addition to the cochairs, 10 other distinguished Americans 
served on the task force and contributed to the report. They are:

  <bullet> Gen. Wesley K. Clark (USA, Ret.)--Wesley K. Clark and 
        Associates
  <bullet> Edwin J. Feulner--The Heritage Foundation
  <bullet> Roderick Hills--Hills and Stern
  <bullet> Ambassador Donald McHenry--Georgetown University
  <bullet> Ambassador Thomas R. Pickering--The Boeing Company
  <bullet> Danielle Pletka--American Enterprise Institute
  <bullet> Dr. Anne-Marie Slaughter--Princeton University
  <bullet> Dr. A. Michael Spence--Oak Hill Capital Partners
  <bullet> Senator Malcolm Wallop--Frontiers of Freedom
  <bullet> R. James Woolsey--Boaz, Allen, Hamilton

    Gen. Charles Boyd (USAF, Ret.) of Business Executives for National 
Security and J. Robinson West of PFC Energy served as Senior Advisors 
to the task force.
    At the request of Congress, the U.S. Institute of Peace coordinated 
the task force with the support and participation of leading experts 
drawn from public policy organizations, including the American 
Enterprise Institute, the Brookings Institution, the Center for 
Strategic and International Studies, the Council on Foreign Relations, 
the Heritage Foundation, and the Hoover Institution. Background 
information on the experts may be found at www.usip.org/un/members.
                                 ______
                                 

                    Task Force on the United Nations

    The United States Institute of Peace was directed by Congress in 
December 2004 to create a Task Force on the United Nations. The task 
force will assess the extent to which the United Nations is fulfilling 
the purposes stated in its charter and recommend an actionable agenda 
for the United States on the U.N. The task force, while not an official 
U.S. Government effort, is obligated to provide its report to Congress. 
The task force expects to release its report in mid-June.
Task Force Members, Senior Advisors and Partners
    The members of the task force are a diverse and bipartisan group of 
distinguished Americans from a variety of professions and backgrounds. 
It is cochaired by Newt Gingrich, former Speaker of the House of 
Representatives, and George Mitchell, former majority leader of the 
Senate. Other members include: Wesley K. Clark, Wesley K. Clark and 
Associates; Edwin Feulner, the Heritage Foundation; Roderick Hills, 
Hills and Stern; Donald McHenry, Georgetown University; Danielle 
Pletka, American Enterprise Institute; Thomas R. Pickering, the Boeing 
Company; Anne-Marie Slaughter, Princeton University; A. Michael Spence, 
Oak Hill Capital Partners; Malcolm Wallop, Asian Studies Center; R. 
James Woolsey, Booz Allen Hamilton. The senior advisors to the task 
force are Charles Boyd, Business Executives for National Security and 
J. Robinson West, PFC Energy.
    As directed by Congress, the Institute of Peace is organizing the 
task force with the support and participation of leading public policy 
organizations, including the American Enterprise Institute, the 
Brookings Institution, the Center for Strategic and International 
Studies, the Council on Foreign Relations, the Heritage Foundation, and 
the Hoover Institution. These institutions are providing experts to 
support the members of the task force.
Task Force Activities
    The task force will organize its work in five thematic areas. In 
addition to conducting research and taking testimony, members of the 
task force and experts will undertake fact-finding missions to United 
Nations headquarters and to missions in the field. The five thematic 
areas are as follows:

  <bullet> Preventing and ending conflicts and building stable 
        societies.
  <bullet> Preventing and responding to genocide and gross human rights 
        violations.
  <bullet> Preventing catastrophic terrorism and the proliferation of 
        weapons of mass destruction.
  <bullet> Ensuring the effectiveness, integrity, transparency, and 
        accountability of the U.N. system.
  <bullet> Fostering economic development and reducing poverty.
                                 ______
                                 

            Task Force on the United Nations: Working Groups

    The work of the Task Force on the United Nations is organized into 
working groups, consisting of both Task Force members and support staff 
from leading public policy organizations. Below is a list of members 
and experts listed by task force working group.
Preventing and Ending Conflicts and Building Stable Societies
Members: Wesley K. Clark (Wesley K. Clark and Associates); Malcolm 
            Wallop (Asian Studies Center)
Experts: Eric Schwartz (Council on Foreign Relations), Coordinator; 
            Frederick Barton (CSIS); Bathsheba Crocker (CSIS); Michael 
            McFaul (Hoover); William Nash (Council on Foreign 
            Relations)
Preventing and Responding to Genocide and Gross Human Rights Violations
Member: Anne-Marie Slaughter (Princeton University)
Sr. Advisor: J. Robinson West (PFC Energy)
Experts: Tod Lindberg (Hoover), Coordinator; Ivo Daalder (Brookings); 
            Lee Feinstein (Council on Foreign Relations); Joseph 
            Loconte (The Heritage Foundation)
Preventing Catastrophic Terrorism and the Proliferation of Weapons of 
        Mass Destruction
Member: Thomas R. Pickering (The Boeing Company)
Sr. Advisor: Charles G. Boyd (Business Executives for National 
            Security)
Experts: Robin Einhorn (CSIS), Coordinator; Michael O'Hanlon 
            (Brookings); James Phillips (Heritage)
Ensuring the Effectiveness, Integrity, Transparency, and Accountability 
        of the U.N. System
Member: Edwin J. Feulner (The Heritage Foundation); Roderick M. Hills 
            (Hills and Stern)
Experts: Ann Florini (Brookings), Coordinator; Nile Gardiner (The 
            Heritage Foundation); Branka Jikich (CSIS); James Lindsay 
            (Council on Foreign Relations); Brett Schaefer (The 
            Heritage Foundation)
Fostering Economic Development and Reducing Poverty
Members: Donald McHenry (Georgetown University); A. Michael Spence (Oak 
            Hills Capital Partners)
Experts: Patrick Cronin (CSIS), Coordinator; Kenneth Anderson (Hoover); 
            Steve Hansch (Georgetown University)
Task Force Members and Senior Advisors
  <bullet> Newt Gingrich, Former Speaker of the House of 
        Representatives (Co-Chair), CEO, Gingrich Group
  <bullet> George Mitchell, Former Majority Leader of the Senate (Co-
        Chair), Chairman, Piper Rudnick LLP
  <bullet> Charles G. Boyd, Gen. U.S. Air Force (Ret.)--Senior Advisor, 
        President and CEO, Business Executives for National Security
  <bullet> Wesley K. Clark, Gen. U.S. Army (Ret.), Chairman and CEO, 
        Wesley K. Clark and Associates
  <bullet> Edwin J. Feulner, President, The Heritage Foundation
  <bullet> Roderick M. Hills, Partner, Hills and Stern
  <bullet> Donald McHenry, Ambassador (Ret.), Distinguished Professor, 
        School of Foreign Service, Georgetown University
  <bullet> Thomas R. Pickering, Ambassador (Ret.), Senior Vice 
        President, International Relations, The Boeing Company
  <bullet> Danielle Pletka, Vice President, Foreign and Defense Policy, 
        American Enterprise Institute
  <bullet> Anne-Marie Slaughter, Dean, Woodrow Wilson School of Public 
        and International Affairs, Princeton University
  <bullet> A. Michael Spence, Partner, Oak Hill Capital Partners
  <bullet> Malcolm Wallop, U.S. Senator (Ret.), Senior Fellow, Asian 
        Studies Center
  <bullet> J. Robinson West--Senior Advisor, Chairman, PFC Energy, 
        Chairman of the Board of Directors, U.S. Institute of Peace
  <bullet> R. James Woolsey, Vice President, Global Strategic Security, 
        Booz Allen Hamilton
Task Force Staff:
  <bullet> George Ward, Executive Director
  <bullet> Gary Matthews, Deputy Director
  <bullet> Sloan Mann, Program Officer
  <bullet> Heather Sensibaugh, Program Assistant

                                  <all>
</pre></body></html>
